<html>
<title> - HEARING ON PENDING BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 114-182]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 114-182

                HEARING ON PENDING BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                ___________
                                
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-845 PDF                    WASHINGTON : 2016                       
            
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>  
                  
                    
                    
                    COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director


                            C O N T E N T S



                              ----------                              

                              May 13, 2015
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    59
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    61
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......    78

                           VISITING SENATORS

Ayotte, Hon. Kelly, U.S. Senator from New Hampshire..............     1
Shaheen, Hon. Jeanne, U.S. Senator from New Hampshire............     3
Gillibrand, Hon. Kirsten, U.S. Senator from New York.............    65

                               WITNESSES

Kurta, Anthony, Deputy Assistant Secretary of Defense, Military 
  Personnel Policy, U.S. Department of Defense...................     5
    Prepared statement...........................................     6
    Response to posthearing questions submitted by Hon. Johnny 
      Isakson....................................................    11
Gerton, Teresa W., Deputy Assistant Secretary for Policy, 
  Veterans Employment and Training Service, U.S. Department of 
  Labor..........................................................    12
    Prepared statement...........................................    14
McLenachen, David R., Acting Deputy Under Secretary for 
  Disability Assistance, U.S. Department of Veterans Affairs; 
  accompanied by Renee Szybala, Assistant General Counsel........    18
    Prepared statement...........................................    19
    Additional views.............................................    33
Maldon, Alphonso, Jr., Chairman, Military Compensation and 
  Retirement Modernization Commission; accompanied by Michael R. 
  Higgins, Commissioner, Military Compensation and Retirement 
  Modernization Commission.......................................    62
    Prepared statement...........................................    63
Phillips, Jeffrey E., Executive Director, Reserve Officers 
  Association....................................................    67
    Prepared statement...........................................    69
Morosky, Aleks, Deputy Legislative Director, National Legislative 
  Service, Veterans of Foreign Wars..............................    72
    Prepared statement...........................................    73

                                APPENDIX

Daines, Hon. Steve, U.S. Senator from Montana; prepared statement    83
Gibson, Hon. Chris, U.S. Representative from New York; prepared 
  statement......................................................    84
Air Force Association; prepared statement........................    85
American Federation of Government Employees, AFL-CIO and the AFGE 
  National VA Council; prepared statement........................    86
Blue Water Navy Vietnam Veterans Association; prepared statement.    90
Concerned Veterans for America; prepared statement...............   102
Varela, Paul R., Assistant National Legislative Director, 
  Disabled American Veterans (DAV); prepared statement...........   103
Enlisted Association of the National Guard of the United States 
  (EANGUS); prepared statement...................................   112
Snee, Thomas J., M.Ed., NCCM (SW), USN, (Ret), Fleet Reserve 
  Association (FRA); prepared statement..........................   137
Tomek, Jamie, Chair, Government Relations Committee, Gold Star 
  Wives of America, Inc. (GSW); prepared statement...............   140
Stacy, David, Government Affairs Director, Human Rights Campaign; 
  prepared statement.............................................   141
Military Officers Association of America (MOAA); prepared 
  statement......................................................   142
Polisuk, Bryan, General Counsel, United States Merit Systems 
  Protection Board (MSPB); letter................................   147
Wells, John B., USN (Ret), Executive Director, Military-Veterans 
  Advocacy (MVA); prepared statement.............................   154
Levins, Scott, Director, National Personnel Records Center, 
  National Archives and Records Administration (NARA); prepared 
  statement......................................................   167
Duffy, Peter J., Colonel, USARMY (Ret), Legislative Director, 
  National Guard Association of the United States (NGAUS); 
  prepared statement.............................................   168
National Military and Veterans Alliance (NMVA); letter...........   172
Carpenter, Kenneth M., Founding Member, National Organization of 
  Veterans' Advocates, Inc. (NOVA); prepared statement...........   174
National Veterans Legal Services Program (NVLSP); prepared 
  statement......................................................   182
Paralyzed Veterans of America (PVA); prepared statement..........   194
Bonosaro, Carol A., President, Senior Executives Association 
  (SEA); letter..................................................   198
The American Legion; prepared statement..........................   199

 
                HEARING ON PENDING BENEFITS LEGISLATION

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3 p.m., in room 
418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Cassidy, Murray, and Brown.

   OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. I call this meeting of the Senate 
Veterans' Affairs Committee to order. Let me make an editorial 
comment, if I can.
    I am going to waive opening statements for both myself and 
Senator Blumenthal. Senator Blumenthal is in a SASC meeting. 
They are doing a markup on NDAA, which I know Senator Ayotte is 
at, as well. We have six Members of the Veterans' Committee who 
serve on the Armed Services Committee. I have to leave at 3:45 
to meet with Secretary McDonald on an urgent matter which I 
cannot delay, and we have so many Members in so many meetings, 
I may not have anybody to fill in for me as Chair, so I am 
going to go as quickly as I can through the bills--Ms. Ayotte, 
Ms. Gillibrand, and Ms. Shaheen's bills--then immediately to 
panel one and panel two, try to ward off editorial speeches by 
Members so we can get all the testimony in by 3:45, and then if 
we have to adjourn without somebody to preside, at least we 
will have filled the record on what we intended to do.
    With that said, it is a pleasure for me to introduce 
Senator Ayotte from New Hampshire and recognize her for 
comments on her bill. Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Well, thank you, Chairman. I appreciate 
your important leadership on this Committee and the invitation 
to testify today. I know that my colleagues, Senator Shaheen 
and Senator Gillibrand, will be joining us shortly. We all 
serve on the Armed Services Committee together.
    Americans were horrified last year as the scandal at the VA 
unfolded and we heard reports of veterans unable to get timely 
care, while VA employees manipulated appointment wait lists to 
hide the fact that the VA could not ensure that veterans would 
get the care that they needed and deserved. The manipulation of 
wait lists contributed to the deaths of veterans who needed 
more urgent care.
    It is unacceptable that Americans who defended our Nation 
and who sacrificed so much have died or become more ill because 
they were not able to rely on the VA for critical care. That 
veterans face delays or outright denial of care is particularly 
disturbing given that it was a result of VA employees 
deliberately cooking the books.
    To make matters worse, in the aftermath of the wait list 
scandal, the VA failed to sufficiently hold those who 
manipulated the wait lists responsible. That is an additional 
bureaucratic failure in its own right, and, I know, something 
that this Committee has been working diligently on.
    That is why I introduced bipartisan legislation with 
Senator McCaskill to improve accountability at the VA by 
requiring the Secretary to claw back bonuses that were paid to 
VA employees who were involved in the manipulation of the 
electronic wait lists. Because the VA used wait time metrics as 
a factor in determining employees bonuses, some VA employees 
were incentivized to use secret wait lists to artificially 
inflate compliance data in order to maximize their bonus 
payments to themselves.
    According to one report, employees at the Phoenix VA 
hospital, ground zero for this scandal, received approximately 
$10 million in bonuses since 2011, while simultaneously using 
secret wait lists to hide delays for our veterans who needed 
care. In addition, the VA paid out $278 million in bonuses in 
2013, millions of which went to employees in facilities being 
investigated for wait list manipulations.
    It is outrageous that VA employees who deliberately 
manipulated wait lists receive bonus pay at taxpayers' expense. 
They must be held fully accountable for their misconduct, 
starting with repaying the funds they wrongly received, which 
this bipartisan legislation that you will be considering today 
would require.
    This legislation directs the VA Secretary to require 
employees who received bonuses in 2011 or later to repay those 
bonuses if they were involved in the deliberate manipulation of 
electronic wait lists. The employees' superiors are also 
required to pay back bonuses if they knew or reasonably should 
have known of their subordinates' purposeful omission of the 
names of veterans from the actual wait lists. The bill requires 
the VA Secretary to identify these VA employees through reports 
issued by the Department's Inspector General.
    I am encouraged that the House of Representatives has 
passed similar legislation. It is important that we work 
together to bring more accountability to the VA and individuals 
who are responsible for wrongdoing.
    I appreciate this Committee's attention and dedication to 
solving the problems at the VA and thank the Chairman for 
holding this hearing and inviting me to participate. I urge you 
all--I appreciate very much the Chairman's leadership and 
working with Senator McCaskill--to pass this legislation to 
make sure that individuals who perpetrated the wait list fraud 
are held fully accountable and that they pay back the bonuses 
that they should have never received.
    So, I thank the Chairman for allowing me to be before this 
important Committee today.
    Chairman Isakson. I thank the distinguished Senator from 
New Hampshire for bringing an important issue of accountability 
to the Committee. As those who have attended our other 
committee meetings since the first of January know, we are all 
about accountability, and there is a lot that needs to be held 
accountable at the VA.
    Your bill will be considered in a markup which we will 
schedule for the month of June, if I am not mistaken. Is that 
correct?
    Mr. Bowman. That is correct.
    Chairman Isakson. In fact, all the bills that are addressed 
today will be brought up at a markup in June. We appreciate 
your attention to it and appreciate your being here today and 
what you are doing on Armed Services.
    Senator Ayotte. Thank you, Mr. Chairman.
    Chairman Isakson. Since there are no other Members present 
and I am in charge, I am not going to raise any questions, 
because I want to give everybody a chance to have their say.
    Senator Shaheen, you are recognized.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman. I also 
appreciate the opportunity to be here. Like Senator Ayotte, I 
am downstairs in the Defense markup, but really appreciate this 
chance to testify in support of the Charlie Morgan Military 
Spouses Equal Treatment Act.
    As I think you know, Mr. Chairman, this bill is named for 
Charlie Morgan, who was a former soldier and Chief Warrant 
Officer in both the New Hampshire and Kentucky National Guards. 
She was a military veteran with a career that spanned more than 
30 years.
    I first met Charlie in 2011. She had just gotten back from 
a deployment in Kuwait and, sadly, had just been diagnosed for 
the second time with breast cancer. She was very concerned 
about the well-being of her wife, Karen, and their young 
daughter. And, Charlie, as the result of her diagnosis, became 
an outspoken critic of the Defense of Marriage Act, which at 
that time prohibited her spouse and their daughter from 
receiving the benefits she had earned during her service.
    Sadly, Charlie did not live to see the Supreme Court 
overturn the Defense of Marriage Act. And, despite the Court's 
ruling, there are still provisions in the U.S. Code that deny 
equal treatment to LGBT families. One of those provisions is 
Title 38 regarding veterans' benefits.
    Today, if you are a gay veteran living in a State like New 
Hampshire that recognizes same sex marriage, your family is 
entitled to all the benefits you have earned through your 
military service. However, a veteran with the exact same 
status, the same service record, same injuries, same family 
obligations, but living in a State that does not recognize same 
sex marriage, will receive less.
    There are even reports that the VA has required gay 
veterans to pay back benefits because their State will not 
recognize their marriage. In one case that we were notified 
about, a young woman, 50 percent disabled, a combat veteran, 
was initially approved for benefits for her wife and child. 
Later, however, she was told by the VA that because her home 
State did not recognize same sex marriages, she was not only 
going to lose a portion of her benefits, but the VA was also 
going to withhold her future payments until the excess funds 
had been recovered. Perhaps for her the most frustrating part 
of that story is knowing that if she had moved across the 
border to another State, she would never have had a problem.
    I hope that this Committee and in the Senate we can work 
together to correct this injustice. These young men and women 
have volunteered to serve in our Armed Forces. They have 
volunteered to put themselves in harm's way, to leave their 
families and their homes to travel around the world to protect 
our way of life, and yet they are being deprived of the very 
rights that they have risked their lives to protect.
    I think it is just unfair, Mr. Chairman, and we have an 
opportunity now to end this kind of discrimination against our 
veterans, to make our Nation a fairer place, and I hope the 
Committee will approve this legislation and that we can move it 
to a vote as soon as possible.
    Thank you very much.
    Chairman Isakson. Thank you, Senator Shaheen.
    For your information as well as those in attendance today, 
we received a request, as is normal, from the Senate Armed 
Services Committee (SASC) for an amendment that does the exact 
same thing to be considered--to waive our jurisdictional right 
and let them consider it in SASC. Because this is a posthumous 
or retirement veterans' issue, it really should be handled by 
the Veterans' Affairs Committee, which last year voted, as you 
know, on this very same proposal.
    Senator Shaheen. Right.
    Chairman Isakson. So, out of no discourtesy to you, but out 
of respect for the Committee jurisdiction, I told the Armed 
Services Committee that we would maintain our jurisdiction and 
your bill will come up at the same time Senator Ayotte's bill 
comes up in June.
    Senator Shaheen. Well, thank you, Mr. Chairman. I 
appreciate that explanation. We were just trying to cover as 
many bases as possible.
    Chairman Isakson. The Senator from New Hampshire is always 
trying to cover every base possible--in fact, both of them are. 
[Laughter.]
    Senator Shaheen. Thank you.
    Senator Ayotte. Thank you.
    Senator Shaheen. We try.
    Chairman Isakson. The State is lucky to have two great 
women leading them. We appreciate you being here very much.
    If you wish to be excused, you may. Thank you very much for 
your time. And, do you know if Senator Gillibrand is coming or 
not?
    Senator Shaheen. She was just getting ready to offer a 
number of amendments, so I would suspect she will be here, but 
it may be a few minutes.
    Chairman Isakson. I will let her break in on our panel.
    Thank you all very much for being here.
    Senator Shaheen. Thank you.
    Senator Ayotte. Thank you.
    Chairman Isakson. Let us go ahead and set up for panel one 
and take advantage of the time. [Pause.]
    I would like to welcome the panelists for our first panel. 
We will open the testimony. I hope you will limit your remarks 
to approximately 5 minutes. We will have a clock running and it 
will be indicated on the clock in front of you. I will 
introduce the panel all together at once and then we will go, 
starting with Mr. Kurta, though Mr. Kurta, you are sitting out 
of order from what I have written down. We will start with you, 
Mr. Kurta, but I am going to introduce you in another order.
    David R. McLenachen, Acting Deputy Under Secretary for 
Disability Assistance, Department of Veterans Affairs, 
accompanied by Renee--all right, Renee----
    Ms. Szybala. Szybala.
    Chairman Isakson. An Isakson guy ought to be able to 
pronounce that, but I am sorry----
    Ms. Szybala. I ignore the dead letters.
    Chairman Isakson. When it is ``i''s and ``z''s, people go 
crazy.
    Ms. Szybala. And ``s'' and ``z''s.
    Chairman Isakson. Anthony Kurta, Deputy Assistant Secretary 
of Defense, Military Personnel Policy, Department of Defense.
    And, Teresa W. Gerton, Deputy Assistant Secretary for 
Policy, Veterans Employment and Training Service, Department of 
Labor.
    We appreciate you being here today and we will start with 
Mr. Kurta.

   STATEMENT OF ANTHONY KURTA, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE, MILITARY PERSONNEL POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Kurta. Good afternoon, Chairman Isakson. I am pleased 
to appear before you today to discuss proposed benefits 
legislation. In order to be expeditious, I will focus my 
comments only on those proposals that will affect the 
Department of Defense.
    The G.I. Bill Fairness Act of 2015 would consider active 
duty performed under the authority of Title X, U.S. Code 
Section 12301(h), as qualifying active duty for the purposes of 
Post-9/11 G.I. Bill education benefits. DOD supports this 
provision.
    Section 101 of the 21st Century Veterans Benefits Delivery 
Act would deny servicemembers the ability to complete the 
Transition Assistance Program online. Another provision 
requires the Secretary of Defense, in collaboration with the 
Secretaries of Labor, Homeland Security, and Veterans Affairs, 
to establish a process to allow a representative of a Veterans 
Service Organizations to be present at any portion of the TAP 
program relating to the submission of claims to the Department 
of Veterans Affairs. Finally, this section contains a 
requirement to provide a report on the participation of VSOs in 
TAP.
    DOD does not support the provisions in this section for a 
number of reasons, but primarily because we do not feel they 
would improve current processes and will create an undue 
burden. More specific details which explain the Department's 
position are provided in my written statement.
    You also asked for comments on the Military Compensation 
and Retirement Modernization Commission Report. First, I would 
like to take the opportunity to commend the Departments of 
Labor, Education, and Veterans Affairs for their expert 
collaboration and I especially thank the Commission for its 
superb cooperation. DOD agrees with the Commission's objectives 
of safeguarding education benefits for servicemembers by 
reducing redundancy and ensuring the fiscal sustainability of 
education programs.
    We support sunsetting both the Montgomery G.I. Bill and the 
Reserve Education Assistance Program with a view to maintaining 
the Post-9/11 G.I. Bill as the primary education benefit. The 
Commission and DOD also agree that in order to keep faith with 
our servicemembers, we must grandfather those who already have 
the benefits that will be phased out.
    However, without data enabling DOD to understand the 
potential effects on retention, and the Joint Chiefs are 
particularly concerned on this point, we do not support the 
recommendation to sunset the Post-9/11 G.I. Bill Housing 
Stipend for dependents or the recommendation to increase the 
eligibility requirements for transferring Post-9/11 G.I. Bill 
benefits.
    DOD also does not support the recommendation that would 
prohibit ex-servicemembers from receiving unemployment while 
simultaneously receiving G.I. Bill benefits, as we believe this 
would have unintended consequences.
    Finally, DOD supports the Commission's objectives of better 
preparing servicemembers for transition to civilian life, but 
we do not believe that additional legislation is required. We 
have significantly redesigned the Transition Assistance Program 
over the last 2 years and implemented the Vow to Hire Heroes 
Act legislation enacted in 2011. These modifications 
significantly address the Commission's objectives.
    Detailed comments on both recommendations are provided in 
my written statement.
    Mr. Chairman, this concludes my statement. I thank you for 
the opportunity to appear here with you today and look forward 
to any questions.
    [The prepared statement of Mr. Kurta follows:]
  Prepared Statement of Anthony Kurta, Deputy Assistant Secretary of 
     Defense, Military Personnel Policy, U.S. Department of Defense
    Good afternoon, Chairman Isakson, Ranking Member Blumenthal, and 
esteemed Members of the Committee. I am pleased to appear before you 
today to discuss pending benefits legislation.
    Per the agenda for today's hearing, the Committee requested the 
Department of Defense's view on a series of bills and proposals. Since 
both funding and administration of the Post-9/11 GI Bill fall under the 
purview of the Department of Veterans Affairs, I will focus my comments 
only on those proposals that will affect the Department of Defense and 
generally defer to the Departments of Labor and Veterans Affairs to 
provide responses on those with no significant DOD impacts. This 
statement will follow the order on the printed agenda.
                  s. 602, gi bill fairness act of 2015
    The Committee asked for comments on S. 602, ``GI Bill Fairness Act 
of 2015,'' a bill that would consider active duty performed under the 
authority of title10, United States Code, section 12301(h), as 
qualifying active duty for the purposes of Post-9/11 GI Bill Education 
Benefits. Reserve component members wounded in combat are often given 
orders to active duty under this provision to receive authorized 
medical care; to be medically evaluated for disability; or to complete 
a required health care study. However, as currently written, section 
3301(1)(B), of title 38, United States Code, does not include active 
duty performed under 12301(h) as qualifying active duty for purposes of 
Post-9/11 GI Bill educational assistance.
    Currently, when a member of the Reserve Component on active duty 
sustains an injury due to military operations, the Servicemember is not 
discharged, but remains in the Selected Reserve on active duty under 
12301(h), title 10, United States Code. None of the time spent in 
recovery under this status is qualifying time for purposes of the Post-
9/11 GI Bill. In this case, the Servicemember would return to Selected 
Reserve status with less qualifying time than those who served an 
entire period of active duty without an intervening injury. As a 
result, the Servicemember would not receive an educational benefit 
equivalent to the other members of his or her cohort. In effect, the 
Servicemember is being penalized for having being wounded or injured in 
theater. This legislation would correct this inequity by simply 
extending eligibility for the Post-9/11 GI Bill to service under 
12301(h).
    DOD recognizes the inequity of not including this active duty time 
for purposes of Post-9/11 GI Bill benefits, and has included a 
provision similar to this bill in our FY 2016 legislative proposal 
package as section 514. However, the DOD proposal would include only 
active duty performed after enactment. In contrast, S. 602 would be 
retroactive; categorizing all duty performed under 12301(h) since 
September 11, 2001, as qualifying active duty for purposes of the Post-
9/11 GI Bill. We estimate that approximately 5,000 Reserve Component 
members performed active duty under 12301(h) each year since September 
11, 2001. Accordingly, we believe that S. 602 would generate an 
additional cost to the Department of Veterans Affairs. Given that both 
the funding and administration of the Post-9/11 GI Bill fall under the 
purview of the Department of Veterans Affairs, we would defer to that 
agency to determine the costs and effects of the bill on their 
Department.
        draft bill, 21st century veterans benefits delivery act
    Section 101, ``Improvements To Transition Assistance Program,'' of 
this bill states that an individual subject to the requirement under 
subsection (c), which requires participation in the program ( defined 
as employment assistance, job training assistance and other 
transitional services), may not satisfy such requirement by 
participating in the program carried out under this section solely 
through an Internet Web site. The Department of Defense does not 
support that portion of the language. The Administration should have 
flexibility in determining what methods and tools, to include Internet 
Web sites, should be used to deliver transition services to eligible 
transitioning Servicemembers and their spouses. This language would 
take away the flexibility to make such decisions. The Department of 
Defense and our interagency partners have agreed to allow 
Servicemembers who are subject to a short-notice separation or are 
geographically remote and isolated, to use the Department of Veterans 
Affairs Benefits module (part of full Transition Assistance Program 
(TAP) virtual curriculum) and the Department of Labor Employment 
Workshop through Joint Knowledge Online, which connects to other 
Department of Defense systems for mandatory attendance tracking. 
Implementation of this restrictive language would end that initiative 
and the millions of dollars invested in our on-line curriculum would be 
lost. The Department of Defense must have the flexibility to meet the 
needs of our Servicemembers; we strongly advocate that the Congress not 
deprive the Secretary of Defense of this flexibility.
    Section 101 also requires the Secretary of Defense, in 
collaboration with the Secretaries of Labor, Homeland Security, and 
Veterans Affairs to establish a process to allow a representative of a 
Veteran Service Organization (VSO) to be present at the benefits 
portion of the program under Section 1144, title 10, United States Code 
(the program under Section 1144 pertains to employment assistance, job 
training assistance and other transitional services) relating to the 
submission of claims to the Secretary of Veteran Affairs. The 
Department of Defense does not support this provision. The Department 
of Defense recognizes and appreciates the tremendous support VSOs 
provide to Servicemembers who file claims with the VA. However, we 
believe that process best occurs outside the standard TAP classroom in 
a one-on-one private conversation between the Servicemember and the VSO 
representative. The redesigned TAP focus is to make Servicemembers 
career ready by meeting Career Readiness Standards. The preparation 
occurs in the classroom with the delivery of Transition GPS (Goals, 
Plans, Success) curriculum. The Department of Veterans Affairs provides 
two robust classes: VA Benefits I, which focus on VA Benefits, and VA 
Benefits II, which introduces Servicemembers to, and walks them 
through, the process of filing a claim for Department of Veterans 
Affairs benefits. It would be more appropriate at the conclusion of VA 
Benefits II briefing for the Department of Veterans Affairs instructor 
delivering the briefing to introduce the VSO representative who can 
assist Servicemembers with their claims. The VSO representative can 
connect with Servicemembers at the end of the class. At that time the 
VSO representative can set up one-on-one appointments to assist those 
Servicemembers planning to file a claim.
    Finally, the Department of Defense opposes that provision in 
section 101 that requires the Secretary of Defense to provide a report 
to Congress that assesses the compliance of facilities of the 
Department of Defense per the Secretary's Memorandum title 
``Installation Access and Support Services for Nonprofit Non-Federal 
Entities'' dated December 23, 2014. This would require a tracking and 
reporting system to capture how many Veterans and Military Service 
organizations and other Nonprofit Non-Federal Entities are on each 
installation and the number of installations in compliance with the 
Secretary's Memorandums. This will pose a significant burden/hardship 
upon the installation staff and cause a diversion of already limited 
and stretched transition resources from the primary mission of the 
redesigned TAP.
  military compensation and retirement modernization commission report
    The committee requested input from the Department of Defense on the 
legislative proposals in two of the recommendations in the recently 
released Military Compensation and Retirement Modernization Commission 
Report: Recommendation 11: Safeguard education benefits for 
Servicemembers by reducing redundancy and ensuring the fiscal 
sustainability of education programs, and Recommendation 12: Better 
prepare Servicemembers for transition to civilian life by expanding 
education and granting states more flexibility to administer the Jobs 
for Veterans State Grants Program. I would like to state up front that 
the Department of Defense worked closely with the Commission in 
evaluating its recommendations, and included experts from the 
Departments of Labor and Veterans Affairs, as well as the Office of 
Management and Budget, in our working groups designed to formulate 
DOD's response to the President.
Recommendation 11: Safeguard education benefits for Servicemembers by 
        reducing redundancy and ensuring the fiscal sustainability of 
        education programs
    The Department agrees with the Commission's objectives of 
safeguarding education benefits for Servicemembers by reducing 
redundancy and ensuring the fiscal sustainability of education 
programs. We support sun-setting both the Montgomery GI Bill (chapter 
30 of title 38, United States Code, also known as MGIB-AD) and the 
Reserve Education Assistance Program (REAP), with a view to maintaining 
the Post-9/11 GI Bill as the primary education benefit. The Commission 
and the Department also agree that in order to keep faith with our 
Servicemembers, we must grandfather those who already have the benefits 
that will be phased out. Further, the Department and the Commission 
agree on how best to achieve the objective of collecting, tracking, and 
reporting on Servicemember, Veteran, or dependent education related 
data. The Commission recommends requiring that Tuition Assistance be 
used for ``professional development'' courses only. DOD has already 
issued policy guidance to the Services to this effect where all 
signatories of the Department of Defense Education Partnership 
Memorandum of Understanding must provide an approved education plan for 
each Tuition Assistance recipient. This plan provides the roadmap for 
their educational goal development to include supporting courses.
    The Department would like to ensure that once the MGIB-AD sunsets, 
Servicemembers will be able to combine Post-9/11 GI Bill benefits with 
Tuition Assistance (commonly referred to as ``top up'') using the same 
``top up'' usage method as currently available under the MGIB-AD.
    The Department submitted a legislative proposal to Congress on May 
1 that would sunset the MGIB-AD and REAP, grandfather Servicemembers 
currently receiving those benefits, and provide a ``top up'' benefit.
    Without data enabling the Department of Defense to understand the 
potential effects on retention, the Department of Defense--and the 
Joint Chiefs are particularly concerned on this point--cannot support 
the recommendation to sunset the Post-9/11 GI Bill housing stipend for 
dependents, or the recommendation to increase the eligibility 
requirements for transferring Post-9/11 GI Bill benefits. To this end, 
the Department of Defense has sponsored a study with RAND National 
Defense Research Institute to review education benefits for 
Servicemembers, including the benefits of the Post-9/11 GI Bill and 
their impacts on retention (with a focus on impacts of 
transferability). We anticipate the study to be completed in the summer 
of 2016, allowing the Department of Defense to evaluate the potential 
effects of altering the features of the benefit on retention.
    Lastly, the Department of Defense does not support the 
recommendation that would prohibit ex-Servicemembers from receiving 
unemployment compensation (as authorized under chapter 85, subchapter 
II, of title 5, United States Code) while simultaneously receiving the 
living stipend as part of Post-9/11 GI Bill benefits. State-level 
unemployment compensation programs already provide guidance regarding 
students' status within the workforce and eligibility to receive 
benefits (as detailed in Congressional Research Service Report, 
(Unemployment Compensation (UC): Eligibility for Students Under State 
and Federal Laws, dated September 7, 2012). Eliminating concurrent 
receipt of educational benefits and Unemployment Compensation for Ex-
Service Members (UCX) may be viewed as penalizing Servicemembers who 
are pursuing courses at trade/vocational schools to acquire skills/
certifications that would make them more employable. This Commission 
recommendation could also have a disproportionate impact on Reserve 
Component Servicemembers because both separated and currently serving 
Reserve Component members may be affected.
Recommendation 12: Better prepare Servicemembers for transition to 
        civilian life by expanding education and granting states more 
        flexibility to administer the Jobs for Veterans State Grants 
        Program.
    The Department of Defense supports the Commission's objective of 
better preparing Servicemembers for transition to civilian life, but 
does not believe additional legislation is required. The Department of 
Defense has significantly re-designed the Transition Assistance Program 
over the last 2 years and implemented the VOW to Hire Heroes Act 
legislation enacted in 2011; these modifications significantly address 
the Commission's objectives.
    The Department of Defense, together with the Departments of Labor 
and Veterans Affairs, has developed Transition Assistance Program 
curriculum to support Servicemembers' educational goals. The Accessing 
Higher Education (AHE) track focuses transitioning Servicemembers on 
selecting an institution of higher education and achieving academic 
success. The Career Technical Training (CTT) track focuses on 
credentials earned during military service and higher education in 
select technical training schools and fields. The Department of Defense 
concurs with mandatory participation in the AHE or CTT track, for 
Servicemembers who identify an interest in attending college or a 
career technical school after separation, with authorized exemptions. 
Contrary to the re-designed Transition Assistance Program, the 
Commission proposal does not enable transition planning according to 
the individual goals and needs of each transitioning Servicemember. The 
proposed legislation is a ``one size fits all'' approach and does not 
take into consideration the numerous other education benefits active 
duty Servicemembers have, or are eligible for, prior to separating, 
such as tuition assistance and the GI Bills. These other benefits 
require an education plan and individual counseling with an education 
professional. Furthermore, the proposed legislation does not appear to 
consider how it might affect those Servicemembers who enter on active 
duty with a college diploma, credential and/or license.
    The Department of Veterans Affairs is developing a module 
specifically focused on the benefits, eligibility, and transferability 
of the Post-9/11 GI Bill as part of military career deliberations. The 
goals of the Commission's recommendation will be met as a result of 
Servicemembers attending the new Department of Veterans Affairs 
training for Post-9/11 GI Bill benefits prior to developing an 
education program plan or using their Post-9/11 GI Bill benefits. 
Expected implementation date for the new Post-9/11 GI Bill training is 
October 1, 2015.
    The Commission's legislative proposal to review and evaluate the 
core Transition Goals, Plans, Success (GPS) curriculum is aligned with 
the current Department of Defense and TAP Inter-agency Evaluation 
Strategy. New legislation is not required because an interagency annual 
review is a pillar of the Office of Management and Budget approved TAP 
Evaluation Strategy. This strategy requires analysis of metrics and 
benchmark performance criteria to enable the Department of Defense to 
provide programs and support to meet the needs of transitioning 
Servicemembers. It necessitates an annual review of all curriculum 
components in concert with participant feedback to ensure curriculum 
and training resources support the achievement of career readiness 
standards and career success post military service.
    The Transition Assistance Program Inter-agency Curriculum Working 
Group, comprised of members from each of the TAP Inter-agency partners, 
the Military Services, and relevant subject matter experts, conducts an 
annual review of the Transition GPS curriculum. The Working Group 
develops changes based on content relevancy, participant assessments, 
Servicemember feedback, roles and responsibilities of partners, 
facilitator recommendations, and best practices and lessons learned as 
a result of staff assistance visits to installations. Proposed 
curriculum revisions are vetted and approved by the TAP Inter-agency 
Executive Council.
              department of defense legislative proposals
    The Committee requested input on several of the Legislative 
Proposals included in the Department of Defense National Defense 
Authorization Act for Fiscal Year 2016 submission.
Sec. 514. Inclusion of duty performed by a reserve component member 
        under a call or order to active duty for medical purposes as 
        qualifying active duty time for purposes of Post-9/11 GI Bill 
        education benefits.
    Similar to S. 602, ``GI Bill Fairness Act of 2015,'' this section 
includes active duty performed under the authority of title10, United 
States Code, section 12301(h), as qualifying active duty for the 
purposes of Post-9/11 GI Bill Education Benefits. As pointed out in my 
discussion of that bill, the Department's proposal differs in that it 
is not retroactive to September 11, 2001. The Department of Defense 
urges adoption of this proposal.
Sec. 522. Retention of entitlement to educational assistance during 
        certain additional periods of active duty
    This section would amend chapter 1606, (Montgomery GI Bill-Selected 
Reserve (MGIB-SR) of title 10, United States Code. Specifically this 
proposal would add 10 United States Code 12304a and 12304b to the 
existing list of authorities in 10 United States Code16131 under which 
a servicemember may regain lost payments. Further, both 10 United 
States Code 12304a and 12304b would be added to 10 United States Code 
16133 under which a Servicemember may regain lost entitlement time for 
MGIB-SR benefits. The Department of Defense urges adoption of this 
proposal.
Sec. 542. Update to involuntary mobilization duty authorities exempt 
        from 5-year limit under the Uniformed Services Employment and 
        Reemployment Rights Act.
    This section would amend section 4312 of title 38, United States 
Code, to update the involuntary mobilization authorities exempted from 
the Uniformed Services Employment and Reemployment Rights Act (USERRA) 
5-year limit. Adding references to sections 12304a and 12304b of title 
10 will complete the list of current involuntary mobilization 
authorities exempted from that limit in section 4312 of title 38.
    USERRA, codified in 38 U.S.C. 4301-4335, protects individuals 
performing, or who have performed or will perform, uniformed service 
from employment discrimination on the basis of their uniformed service. 
It provides for prompt reemployment when they return to civilian life. 
The Department of Defense urges adoption of this proposal.
Sec. 545. Required provision of pre-separation counseling.
    This section would amend section 1142 and 1144 of Title 10, United 
States Code to authorize Pre-separation, Employment Assistance and all 
other transition services prescribed in Department of Defense policy by 
the Secretary of Defense for ALL Active Component Servicemembers of the 
Armed Forces and for ALL National Guard and Reserve Servicemembers 
called or ordered to active duty or full-time operational support after 
completion of their first 180 continuous days or more under Title 10, 
United States Code, (other than for full-time training duty, annual 
training duty, and attendance, while in the active military service, at 
a school designated as service school by law or by the Secretary of the 
military department concerned), whose discharge or release from active 
duty is anticipated as of a specific date. The Department of Defense 
urges adoption of this proposal.
Sec. 1041. Transfer of functions of the Veterans' Advisory Board on 
        Dose Reconstruction to the Secretaries of Veterans Affairs and 
        Defense.
    This section would repeal the statutory requirement for a Federal 
Advisory Committee Act (FACA) advisory board for the Radiation Dose 
Reconstruction Program. The Department of Defense believes that this 
advisory board has achieved its objectives, and that its functions can 
now be more effectively conducted through an interagency effort rather 
than through a FACA advisory board. The Department of Defense urges 
adoption of this proposal.
    The final item on the agenda is a discussion of provisions derived 
from a series of pending bills. I will comment only on those that 
affect the Department of Defense.
                 s. 151. filipino veterans promise act.
    This bill would require the Secretary of Defense to establish a 
process to determine whether individuals claiming certain service in 
the Philippines during World War II are eligible for certain benefits 
despite not being on the so-called ``Missouri List.'' The Department 
does not support any further legislation concerning determining service 
eligibility for the WWII Filipino Guerilla Veterans. The Army has a 
program in place that is verifiable. This program, due to its thorough 
processes, is the foundation for the Army's position, past and current, 
for making final service determinations for eligibility. The Army 
maintains complete confidence that the records and files completed in 
1948 provide the best and most accurate determinations that could have 
been made from that time until today.
       s. 743. honor america's guard-reserve retirees act of 2015
    This bill amends title 38, United States Code, to recognize the 
service in the reserve components of the Armed Forces of certain 
persons by honoring them with status as Veterans under law, and for 
other purposes. The Department recognizes and values the service of 
these Servicemembers who qualify for a Reserve retirement, but may not 
be Veterans, but opposes identifying these Servicemembers with any type 
of honorary Veteran status. Although S. 743 defines this honorary 
status to be without eligibility for Veteran's benefits from the 
Department of Veterans Affairs, the Department of Defense believes this 
honorary status would create confusion about eligibility for the 
Department of Veterans Affairs benefits among the current and former 
Servicemembers and could increase the potential for error in 
determining benefits entitlements.

    Mr. Chairman this concludes my statement. As has been stated 
numerous times in hearings before this Committee, post service 
education benefits have been a cornerstone of our military recruiting 
and retention efforts since 1985, and a major contributor to the 
continued success of the All-Volunteer Force. Money for education has 
been and remains at the forefront of reasons cited by young Americans 
for joining the military. From its inception we fully expected the 
Post-9/11 GI Bill to continue to have this impact and we are seeing 
that happen in the form of sustained recruiting success. I thank you 
and the members of this Committee for your outstanding and continuing 
support of the men and women of the Department of Defense. We look 
forward to working closely with you to strengthen the All-Volunteer 
force through a balanced program of recruiting, retention, and vital 
education benefits, and to recognize the service of our Veterans.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
  Hon. Anthony Kurta, Deputy Assistant Secretary of Defense, Military 
              Personnel Policy, U.S. Department of Defense
    Question 1.  Chairman Maldon noted at the hearing on Pending 
Benefits Legislation that the Department of Defense (DOD) had asked the 
Military Compensation and Retirement Modernization Commission for more 
flexibility in managing the force profile and that the Commission 
thought extending the service requirement for transfer of education 
benefits would help mid-career retention. Would DOD clarify its desire 
for flexibility in shaping the force and its position on using transfer 
of education benefits for retention?
    Response. The Department of Defense, in general, supports increased 
flexibility in managing our force profiles. However, the Department did 
not ask the Military Compensation and Retirement Modernization 
Commission (MCRMC) to modify the service requirement for transfer of 
education benefits nor do we believe the proposed modification enhances 
our flexibility in force management. The Department's position was 
accurately articulated in Mr. Kurta's oral statement (as well as his 
written statement and detailed comments), ``that without data enabling 
the Department of Defense to understand the potential effects on 
retention, the Department of Defense--and the Joint Chiefs are 
particularly concerned on this point--cannot support the recommendation 
to sunset the Post-9/11 GI Bill housing stipend for dependents, or the 
recommendation to increase the eligibility requirements for 
transferring Post-9/11 GI Bill benefits.''

    Question 2.  If funding of transferred education benefits moves 
from the Department of Veterans Affairs budget to the Defense budget, 
how would that impact DOD's use of transferability as a retention tool?
    Response. The Department sees no benefit to moving funding for 
transferability to the DOD. The DOD is currently studying the effect on 
retention of the transferability benefit and is therefore not able to 
evaluate the impact of a change in budgetary responsibility. Although 
enacted as a recruiting and retention tool, transferability provides 
Servicemembers who earned the veteran benefit of the Post-9/11 GI Bill 
during this time of armed conflict, and choose to remain in service, an 
alternative means to use that earned benefit.

    Question 3.  You noted in your written testimony that DOD has 
proposed legislation to sunset certain education benefits and to 
specify benefit levels under a ``Top Up'' benefit for the Post-9/11 GI 
Bill. If enacted, how would this ``Top Up'' change the benefits 
servicemembers receive from combining Tuition Assistance and the Post-
9/11 GI Bill under current rules?
    Response. Currently there is no ``Top-Up'' provision in law for the 
Post-9/11 GI Bill. This legislative proposal would add such a provision 
and align the benefits usage rate for active duty members using the 
Post-9/11 GI Bill to supplement tuition assistance (TA) with the 
current ``Top-Up'' usage rate for the Montgomery GI Bill (MGIB).

    Question 4.  You noted in your testimony that DOD sponsored a RAND 
study on education benefits for military personnel. Please provide 
copies of any documentation outlining the scope of that work and the 
objectives.
    Response. As Requested--documentation outlining the scope of RAND's 
work and the objectives is attached. A final report is not scheduled 
until September 2016. [Privileged and Confidential, for use by U.S. 
Government only and cannot be printed in the public record.]

    Chairman Isakson. For Senator Brown's benefit, Senator 
Blumenthal cannot be here today. Most of our Members are in 
SASC, so I went ahead and accelerated the testimony of the non-
committee members who had submitted bills. We are now going to 
panel one and two.
    I am going to make a comment before I go to Ms. Gerton, 
just to make sure I understood what you said. You are talking 
about terminating those benefits for education in a prospective 
nature, meaning future volunteers of the military, not past 
volunteers who already are eligible, is that correct?
    Mr. Kurta. What we are saying, sir, is those that currently 
have either the Reserve Education Assistance Program or the 
Montgomery G.I. Bill benefits and are taking those, that they 
be allowed to use those benefits if they have earned them vice 
having to switch to the G.I. Bill.
    Chairman Isakson. They are grandfathered in.
    Mr. Kurta. Grandfathered in.
    Chairman Isakson. I just wanted to make sure that was 
clear.
    Mr. Kurta. Yes, sir.
    Chairman Isakson. Ms. Gerton, thank you for being here. We 
welcome your testimony.

 STATEMENT OF TERESA W. GERTON, DEPUTY ASSISTANT SECRETARY FOR 
    POLICY, VETERANS EMPLOYMENT AND TRAINING SERVICE, U.S. 
                      DEPARTMENT OF LABOR

    Ms. Gerton. Good afternoon, Chairman Isakson and 
distinguished Members of the Committee. Thank you for the 
opportunity to participate in today's hearing.
    I would also like to thank the Commission members who were 
assigned to develop the Military Compensation and Retirement 
Modernization Report for all their hard work. The Commission's 
questions provoked our thought and action, and we have already 
taken many steps that are in line with their recommendations. 
It is our hope that the Committee will consider the progress we 
have made and the changes we have implemented. We are always 
open to working with Committee Members to provide additional 
technical assistance.
    I would also like to take a moment to thank you, Mr. 
Chairman, as co-author of the Workforce Innovation and 
Opportunity Act of 2014, for your longstanding dedication to 
America's workers. This landmark legislation will be 
instrumental in improving our Nation's workforce system, 
including services for veterans provided at the nearly 2,500 
American Jobs Centers across the country.
    In its report, the Commission seeks to expand 
servicemembers' knowledge of educational benefits, improve 
Transition GPS, and improve the Jobs for Veterans State Grants 
Program, or JVSG. We support those aims, as well. DOL believes 
it has already met the intent of two of the sub-
recommendations.
    DOD, VA, and DOL review the core curriculum for Transition 
GPS annually to ensure the current curriculum most accurately 
addresses the needs of transitioning servicemembers. Our first 
evaluation in 2014 included analysis of results from the Web-
based Transition GPS participant survey instrument developed by 
DOD and input from various stakeholders. Based on this 
evaluation, the Department revised the TAP Employment Workshop 
curriculum to include Equal Employment Opportunity and 
Americans with Disability Act content, the Veterans Employment 
Center content, and enhanced information on the Workforce 
Investment Act training, Dislocated Worker training, and 
Registered Apprenticeship Programs.
    The fiscal year 2015 curriculum review began in April 2015. 
Any changes that may result from this review should be 
available to transitioning servicemembers this November, and we 
would be happy to brief the Committee on any changes that we 
make.
    We believe we have also met the intent of the sub-
recommendation to permit State Departments of Labor or their 
equivalent agencies to work directly with State Veterans 
Affairs Directors or Offices to coordinate implementation of 
the JVSG Program.
    The Department's standards of performance for each of our 
Directors for Veterans Employment and Training, or our State 
DVETs, specifies in their duties and responsibilities section 
that each DVET must coordinate with State Departments of Labor 
and other agencies, including State Departments of Veterans 
Affairs. Moreover, current law does not prohibit interagency 
coordination with respect to JVSG, including coordination with 
the VA. In fact, the Workforce Innovation and Opportunity Act 
supports greater interagency cooperation.
    Regarding the sub-recommendation that DOL should track 
American Jobs Center staff attendance at jobs fairs, the 
Department is focused on developing and tracking outcome-
related metrics in accordance with the Workforce Innovation and 
Opportunity Act. These metrics will be based on participant 
outcomes instead of staff activity, and we believe this is the 
right approach in measuring the effectiveness of our programs.
    The Department supports the intent of the recommendation 
that DOD, VA, and DOL should submit a one-time joint report on 
the challenges employers face when seeking to hire veterans. 
However, we have already gathered much of this information from 
employers and are working with our agency partners to address 
many of those challenges.
    In addition, given the volume of information and the 
workload required to obtain additional data, we recommend that 
we work with our agency partners to develop the information you 
believe would be helpful in assessing issues related to 
barriers to employers who wish to hire veterans. We can then 
meet with you to share the requested material.
    We at the Department of Labor remain committed to our 
Nation's veterans and we look forward to working with the 
Committee to ensure the continued success of our efforts. We 
also praise the hard work of the Commission in developing their 
recommendations.
    We welcome each of you to come and see the services we 
provide for veterans at an American Jobs Center in your State 
or the improvements we have made to the TAP class for 
transitioning servicemembers on military installations around 
the country.
    Mr. Chairman, this concludes my statement. Thank you again 
for the opportunity to testify today, and I am happy to take 
any questions.
    [The prepared statement of Ms. Gerton follows:]
Prepared Statement of Teresa W. Gerton, Deputy Assistant Secretary for 
 Policy, Veterans' Employment and Training Service, U.S. Department of 
                                 Labor
                              introduction
    Good afternoon, Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee. Thank you for the opportunity 
to participate in today's hearing. I would like to thank the 
Commission, which was assigned to develop the Military Compensation and 
Retirement Modernization (MCRMC) Report, for all its hard work. As 
President Obama indicated, the report's recommendations ``represent an 
important step forward in protecting the long-term viability of the 
All-Volunteer Force,'' and ``improving quality-of-life for 
servicemembers and their families.'' As Deputy Assistant Secretary for 
Policy at the Veterans' Employment and Training Service (VETS) at the 
Department of Labor (DOL or Department), I appreciate the opportunity 
to discuss the Department's views on pending legislation and proposals 
impacting veterans.
    The Department's charter, for over 100 years, has been to ``foster, 
promote and develop the welfare of working people, to improve their 
working conditions, and to enhance their opportunities for profitable 
employment.'' The Department's collective resources and expertise are 
integrated with state workforce agencies and local communities to meet 
the employment and training needs of all Americans, including veterans, 
transitioning servicemembers, members of the National Guard and 
Reserve, their families, and survivors.
    As the Federal Government's leader on veterans' employment, VETS 
ensures that the full resources of the Department are readily available 
for veterans and servicemembers seeking to transition into the civilian 
labor force. VETS' mission is focused on four key areas: (1) preparing 
veterans for meaningful careers; (2) providing them with employment 
resources and expertise; (3) protecting their employment rights; and, 
(4) promoting the employment of veterans and related training 
opportunities to employers across the country.
    While this hearing addresses several legislative proposals, the 
Department limits its remarks to those legislative proposals that have 
a direct impact on the programs administered by the Department, 
specifically, the ``21st Century Veterans' Benefits Delivery Act,'' and 
the legislative proposals based on MCRMC Recommendations 11 and 12.
        s. 1203, ``21st century veterans benefits delivery act''
    The draft Senate bill, ``21st Century Veterans Benefits Delivery 
Act,'' seeks to amend title 38 of the U.S. Code, to improve the 
processing by the Department of Veterans Affairs (VA) of claims for 
benefits under laws administered by the Secretary of Veterans Affairs, 
and for other purposes.
Section 101
    Section 101 would amend section 1144 of title 10 of the U.S. Code, 
adding subsection (f) to require modifications to the VA's eBenefits 
Web site, which would ensure that servicemembers, veterans, and their 
spouses have access to the Transition Assistance Program (TAP) online 
curriculum, as administered by the Secretary of Labor, the Secretary of 
Defense, the Secretary of Homeland Security, and the Secretary of 
Veterans Affairs. The Department believes that it has already met the 
intent of this proposal. DOL has worked with the Department of Defense 
(DOD) and VA to host the TAP curriculum online. Currently, 
servicemembers and their spouses are able to access the entire 
Transition GPS curriculum online via DOD's Joint Knowledge Online, the 
VA's eBenefits Web site, or DOL VETS' Web site. Section 101 also 
states: ``An individual subject to a requirement under subsection (c) 
may not satisfy such requirement by participating in the program 
carried out under this section solely through an Internet Web site.'' 
DOL appreciates the intent of this statement and notes that the vast 
majority of servicemembers who attend our employment workshop do so in 
person. We defer to DOD on the impact of this requirement, and to the 
VA on the inclusion of our Veterans Service Organization (VSO) 
partners.
              legislative proposals from the mcrmc report
    The Administration has indicated its general support for 
Recommendations 11 and 12, in the Presidential Memorandum issued on 
April 30, 2015. As DOL recently shared with the staff of this 
Committee, the Department has initiated many of the Commission's 
recommendations prior to publication of the Commission's report. 
Accordingly, any legislative proposal to implement these 
recommendations should be modified to reflect these recent VETS program 
improvements, as well as to ensure continued access to unemployment 
benefits for servicemembers who need income support, while availing 
themselves of educational and training programs.
Recommendation 11
    Recommendation 11, ``Safeguard education benefits for 
Servicemembers by reducing redundancy and ensuring the fiscal 
sustainability of education programs,'' is primarily directed toward 
DOD and VA, who administer a myriad of benefit programs for 
servicemembers. The Department generally supports Recommendation 11. 
The sub-recommendation of interest to DOL would prevent individuals 
receiving housing stipend benefits under the Post-9/11 GI Bill from 
simultaneously receiving unemployment insurance (UI). This sub-
recommendation would amend title 5 of the U.S. Code, at section 8525, 
on Unemployment Compensation for Ex-Servicemembers (UCX), as well as 
any other regulation and policy pertaining to section 8525. The MCRMC's 
companion legislative proposal to implement this sub-recommendation is 
contained in Section 1109, Unemployment Insurance.
    To achieve the goal of safeguarding education benefits of 
servicemembers, it is necessary that servicemembers have adequate 
income support to take advantage of these programs. The Department 
would like to ensure equitable treatment for servicemembers compared to 
their civilian counterparts, who also are seeking UI benefits for 
approved training. The receipt of other benefits, such as the Post-9/11 
GI Bill retraining incentives or housing benefits, currently do not 
prevent veterans from taking advantage of the same provision given to 
regular (civilian) unemployment insurance (UI) recipients when training 
is approvable/approved under state law.
    Providing income support for servicemembers eligible for UCX helps 
to ensure that their retraining leads to employment in a more 
sustainable labor market after specialized military service. 
Unemployment insurance is designed to provide benefits for workers to 
enable their successful transition to new employment; it is 
affirmatively intended to provide for costs of living beyond housing. 
Additionally, State UI laws contain requirements regarding an 
individual's availability for work, which entails being ready, willing, 
and able to work. This includes the requirement that a claimant 
receiving UCX register with the public employment service. Thus, 
receipt of UCX benefits connects veterans to reemployment services 
through the public workforce system, which in conjunction with 
receiving GI Bill benefits, helps to more effectively support the 
individual's successful reentry to civilian employment. Therefore, 
preventing GI Bill beneficiaries from receiving unemployment 
compensation may be a detriment to their successful reemployment. While 
the Department does not favor Section 1109 as currently drafted, we 
would be willing to continue discussions with Congress and the 
Department of Veterans Affairs on this issue.
Recommendation 12
    Recommendation 12, ``Better prepare Servicemembers for transition 
to civilian life by expanding and granting states more flexibility to 
administer the Jobs for Veterans State Grants Program,'' seeks to 
expand servicemembers' knowledge of educational benefits, improve 
Transition GPS, and improve the Jobs for Veterans State Grant (JVSG) 
program. The Department generally supports Recommendation 12; for 
purposes of this hearing, the Department will focus specifically on the 
following sub-recommendations:

    (1) The Congress should require DOD, VA, and DOL to review and 
report on the core curriculum for Transition GPS to reevaluate if the 
current curriculum most accurately addresses the needs of transitioning 
Servicemembers. This report should include review of the current 
curriculum; the roles and responsibilities of each Department and 
whether they are adequately aligned; and the distribution of time 
between the three departments in the core curriculum and whether it is 
adequate to provide all information regarding important benefits that 
can assist transitioning Servicemembers. This review should indicate 
whether any of the information in the three optional tracks should be 
addressed instead in mandatory tracks. It should also include a 
standard implementation plan of long-term outcome measures for a 
comprehensive system of metrics. This review should identify any areas 
of concern regarding the program and recommendations for addressing 
those concerns.
    DOL notes that processes already in place address the intent of 
this proposal, and would be pleased to share our curriculum review 
results with this Committee. The MCRMC's companion legislative proposal 
to implement this sub-recommendation is contained in Section 1204, 
Transition GPS Program Core Curriculum Review and Report.
    In Fiscal Year (FY) 2014, as a member of the TAP Senior Steering 
Curriculum Working Group with DOD and VA, the Department began an 
annual curriculum evaluation. This evaluation included analysis of 
results from the web-based Transition GPS participant survey instrument 
developed by DOD, and input from various stakeholders. Based on this 
evaluation, the Department revised the TAP Employment Workshop 
curriculum to include Equal Employment Opportunity and Americans with 
Disability Act content, the Veterans Employment Center content, and 
enhanced information on Workforce Investment Act training, dislocated 
worker training, and Registered Apprenticeship programs.
    The FY 2015 curriculum review began in April 2015, in conjunction 
with the TAP Senior Steering Curriculum Working Group's planned review 
of the entire Transition GPS curriculum. Any changes that may result 
from this review should be available to transitioning servicemembers in 
November 2015. Additionally, the Department will address this sub-
recommendation before the TAP Senior Steering Group for consideration 
in the FY 2015 curriculum review.

    (2) The Congress should amend the relevant statutes to permit state 
departments of labor or their equivalent agencies to work directly with 
state Veterans Affairs directors or offices to coordinate 
implementation of the JVSG program.
    DOL believes that it has already met the intent of this proposal, 
which is contained in Section 1202, Coordination with State Departments 
of Labor and VA. The process this proposal seeks to implement is 
already in place; the Department's standards of performance for each of 
the Directors for Veterans' Employment and Training (DVET) specifies in 
the ``duties and responsibilities'' section that each DVET must 
coordinate with state Departments of Labor and Veterans Affairs. 
Moreover, current law does not prohibit inter-agency coordination with 
respect to JVSG, including coordination with the VA (title 38, U.S. 
Code 4102A(b)(3)). In fact, the Workforce Innovation and Opportunity 
Act, passed in 2014, supports greater inter-agency cooperation. The 
public workforce system is designed to be a decentralized network of 
strong partnerships at the Federal, state, local, and regional levels.

    (3) DOL should require One-Stop Career Centers to track the number 
of job fairs their employees participate in and the number of veterans 
they connect with at each job fair. This information should be included 
in each state's annual report to the DOL, and provided to the Congress.
    The Department does not find American Job Center (AJC) staff 
attendance at Transition GPS Employment Workshops, job fair 
participation rates, or the number of transitioning servicemembers and 
veterans with whom JVSG staff interact to be measures reflective of 
meaningful outcomes data. Tracking these activities may, in fact, 
result in the unintended consequence of incentivizing the quantity of 
interactions between AJC staff and veterans, rather than the quality 
and effectiveness of the services AJC staff provide to veterans. Also, 
this proposal, contained in Section 1201, Job Fair Participation Rates, 
seeks to amend the Workforce Investment Act of 1998, which has been 
superseded by the Workforce Innovation and Opportunity Act (WIOA), 
making it difficult to interpret how it would be executed. 
Nevertheless, this proposal is not in keeping with Section 116 of WIOA 
(which replaced section 136 of WIA), which establishes common 
performance accountability measures that apply across the Department's 
core employment and training programs to assess the effectiveness of 
States and local areas in achieving positive outcomes for individuals 
served by related programs. While JVSG is not a core program under 
WIOA, 38 U.S.C. 4102A requires JVSG performance measures to ``be 
consistent with'' those under WIOA. The Departments of Labor and 
Education on April 16 jointly issued a WIOA Notice of Proposed 
Rulemaking seeking public comments on such topics as performance 
accountability to ensure that Federal employment and training program 
investments report on common performance indicators such as how many 
individuals, including veterans, entered employment and their median 
wages. The Departments welcome comments from this Committee on our 
proposal.

    (4) The Congress should require a one-time joint report from DOD, 
VA, and DOL to the Senate and House Committees on Armed Services and 
Veterans' Affairs regarding the challenges employers face when seeking 
to hire veterans. The report should identify the barriers employers 
face gaining information identifying veterans seeking jobs. It should 
also include recommendations addressing barriers for employers and 
improving information sharing between Federal agencies that serve 
veterans and separating Servicemembers, so they may more easily connect 
employers and veterans. The report should also review the Transition 
GPS career preparation core curriculum and recommend any improvements 
that can be made to better prepare Servicemembers trying to obtain 
private-sector employment.
    The Department supports the intent of this recommendation and looks 
forward to continuing our work with our Federal partners on this 
important issue. However, we already have gathered much information 
from employers on their challenges in hiring veterans. This is provided 
in recent reports, such as the 2014 RAND report titled, ``Lessons from 
the 100,000 Job Mission.'' We already are working with agency partners 
to address many of those challenges. In addition, and given the volume 
of information and the workload required to obtain additional data, we 
recommend that we work with our agency partners to develop the 
information you believe would be helpful in assessing issues related to 
barriers to employers hiring veterans. We then can meet with you to 
share the requested material.
                 other legislation before the committee
    The Committee also is considering legislation to encourage 
companies that contract with the VA to hire veterans. DOL's Office of 
Federal Contract Compliance Programs (OFCCP) enforces a provision of 
the Vietnam Era Veterans' Readjustment Assistance Act of 1974 (VEVRAA), 
38 U.S.C. 4212, which prohibits covered Federal contractors and 
subcontractors from discriminating in employment against protected 
veterans. This provision also requires these contractors to take 
affirmative action to employ, and advance in employment, protected 
veterans. Since the legislation addresses contracting preferences of 
the VA, DOL defers to that agency with respect to this bill, and defers 
to other agencies affected by the remaining pieces of legislation.
                               conclusion
    We at the Department of Labor remain committed to our Nation's 
veterans and we look forward to working with the Committee to ensure 
the continued success of our efforts. The Department lauds the hard 
work the Commission placed into their recommendations. It is our hope 
that the Committee will consider the modifications we have provided and 
is open to working with the Committee members to provide technical 
assistance. Mr. Chairman, Ranking Member Blumenthal, and Members of the 
Committee, this concludes my statement. Thank you again for the 
opportunity to testify today. I am happy to answer any questions that 
you may have.

    Chairman Isakson. Thank you for your testimony and your 
kind comments about WIOA. I am glad we finally were able to get 
that done.
    Mr. McLenachen, accompanied by Renee Szybala. Mr. 
McLenachen.

STATEMENT OF DAVID R. McLENACHEN, ACTING DEPUTY UNDER SECRETARY 
FOR DISABILITY ASSISTANCE, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
    ACCOMPANIED BY RENEE SZYBALA, ASSISTANT GENERAL COUNSEL

    Mr. McLenachen. Chairman Isakson and Members of the 
Committee, thank you for the opportunity to present VA's views 
on several bills that are pending before the Committee.
    As you just mentioned, Mr. Chairman, I am accompanied by 
Ms. Szybala. She is our Assistant General Counsel. She will 
address any questions that you may have regarding S. 627 on 
revocation of bonuses.
    I want to first thank the Committee for the opportunity to 
testify concerning the Cost-Of-Living Adjustment bill, which 
will ensure the value of veterans' and survivors' benefits will 
keep pace with consumer prices next year. We support this bill.
    We are also pleased to support S. 270, which would revise 
the definition of a spouse for purposes of VA benefits. 
However, we would like to work with the Committee to address a 
few technical concerns about the language used in the bill.
    We appreciate the opportunity to comment on the bill that 
addresses preferences for small businesses owned by veterans, 
our DIC Program for survivors, and other matters. VA fully 
supports Section 101, which would provide greater flexibility 
and protection for service-disabled veteran-owned small 
businesses, their employees, and surviving spouses.
    As to Section 102, VA supports the intent behind this 
provision, which would provide a period of transition for 
survivors of business owners who die in the line of duty, but 
we have a few concerns and would welcome the opportunity to 
work with the Committee to address them.
    Although we are committed to improving our processing of 
claims based on military sexual trauma, we believe that the 
reporting provisions in Section 202 and 203 are unnecessary 
because VA has provided the information requested and can 
provide any additional information that the Committee may need 
without legislation.
    We also believe that the provisions of Section 204, which 
would prescribe a pilot program to assess the feasibility of 
expediting DIC claims, is unnecessary, as VA has already 
achieved significant improvement in processing these claims, to 
include reducing the backlog by 87 percent and average 
processing time to 70 days.
    Turning to Section 301, VA appreciates continued 
Congressional support for meeting the needs of veterans whose 
remains are unclaimed. While we are concerned that the study 
mandated by this section may be unnecessary or premature in 
light of VA's recent efforts to ensure that these veterans 
receive a proper burial, we would appreciate the opportunity to 
work with the Committee on the requirements for any mandated 
study.
    Finally, we cannot support Section 401, which would expand 
the definition of veteran to include individuals with 20 years 
or more of non-regular military service. In VA's view, this 
would be an unreasonable and confusing departure from active 
service as the foundation for veteran status.
    We thank Senators Heller and Casey for their efforts 
related to the draft 21st Century Veterans Benefits Delivery 
Act. VA strongly supports Section 103 of this draft bill, which 
would allow for greater use of video conference hearings by the 
Board of Veterans Appeals. In addition, VA supports Section 
211, which would address the increased demand for examinations 
and allow for flexibility in utilizing non-VA examiners, while 
ensuring that veterans receive quality compensation and pension 
examinations. We also have no objection to spinning a joint 
report with DOD on health records interoperability.
    Despite the support, we have a few concerns with other 
sections of the draft bill. We believe that Section 101 is 
unnecessary because VA already provides access to the TAP 
curriculum through e-benefits and allows VSO representatives to 
attend.
    While VA appreciates the intent of Section 301, which is to 
facilitate records retrieval, we already have extensive ongoing 
initiatives with other Federal agencies to improve response 
times to VA's requests for records.
    Regarding Sections 205, 207, 209, and 210, we believe that 
the required reports would be duplicative of information that 
VA already provides in its budget, through regular updates to 
Congress, and in Monday morning workload reports. We will work 
with the Committee to add any information to these reports that 
the Committee believes is necessary, but we can accomplish this 
without legislation.
    Although we support appeals reform, we do not support 
Section 102 of the draft bill, as we believe it would not 
result in a faster resolution of appeals for veterans who are 
waiting far too long for a final decision on their claims. 
While some efficiency may result if more appellants filed their 
notices of disagreement within 180 days, the multi-step open 
record appeal process that precludes efficient resolution of 
appeals for all veterans would not change. We would like to 
work with the Committee to consider the entire appeals process 
and institute reforms that will result in overall increased 
efficiency for all veterans.
    Mr. Chairman, at this time, the Department does not have 
views on several bills that are the subject of today's hearing. 
We will continue to coordinate views on these matters and, upon 
completion, submit them to the Committee sufficiently in time 
before the markup that you mentioned this morning.
    This concludes my statement, Mr. Chairman. We are happy to 
entertain any questions you or other Members of the Committee 
may have. Thank you.
    [The prepared statement of Mr. McLenachen follows:]
    Prepared Statement of David R. McLenachen, Acting Deputy Under 
Secretary For Disability Assistance, Veterans Benefits Administration, 
                  U.S. Department of Veterans Affairs
    Good afternoon, Mr. Chairman and Members of the Committee. I am 
pleased to be here today to provide the views of the Department of 
Veterans Affairs (VA) on pending legislation affecting VA's programs, 
including the following: S. 270, S. 602, S. 627, the ``21st Century 
Veterans Benefits Delivery Act,'' the ``Veterans' Compensation Cost-of-
Living Adjustment Act of 2015,'' and a draft bill concerning VA small 
business contracting, Veterans benefits, and burial matters. We will 
separately provide views on the following bills: S. 681; sections 202, 
203 and 206 of the ``21st Century Veterans Benefits Delivery Act;'' the 
bill associated with legislative proposals from the Report of the 
Military Compensation and Retirement Modernization Commission; the bill 
associated with legislative proposals from the Department of Defense 
(DOD); and sections 201 and 206 of the consolidated bill related to 
bills from the 113th Congress. Accompanying me this afternoon is Renee 
Szybala, Assistant General Counsel.
                                 s. 270
    S. 270, the ``Charlie Morgan Military Spouses Equal Treatment Act 
of 2015,'' would amend sections 101 and 103 of title 38, United States 
Code, to revise the definition of spouse for purposes of Veterans' 
benefits. Specifically, the bill would remove from the definition of 
``surviving spouse'' under section 101(3) the phrase ``of the opposite 
sex,'' and amend the definition of ``spouse'' under section 101(31) to 
include an individual if the marriage of the individual is ``valid 
under the laws of any State.'' The bill would define ``State'' in the 
same way that term is defined in section 101(20) of title 38, United 
States Code, for purposes of title 38, but include also ``the 
Commonwealth of the Northern Mariana Islands.'' Additionally, S. 270 
would amend section 103(c) of title 38, United States Code, removing 
the limitation that a marriage shall be proven as valid ``according to 
the law of the place where the parties resided at the time of the 
marriage or the law of the place where the parties resided when the 
right to benefits accrued.'' The bill would amend section 103(c) to 
follow the revised definition of ``spouse'' in section 101(31).
    VA generally supports the passage of this bill but has some 
concerns with the bill's language. Current section 101(3) and section 
101(31) of title 38, United States Code, limit the definitions of 
``surviving spouse'' and ``spouse,'' respectively, for purposes of 
title 38 to only a person of the opposite sex of the Veteran. The 
language in these provisions is substantively identical to the language 
in section 3 of the Defense of Marriage Act, 1 U.S.C. Sec. 7, which the 
Supreme Court, in United States v. Windsor, 133 S. Ct. 2675 (2013), 
declared to be unconstitutional because it discriminates against 
legally-married, same-sex couples. On September 4, 2013, the President 
directed VA to cease enforcement of section 101(3) and section 101(31) 
of title 38, United States Code, to the extent that those provisions 
preclude the recognition of legally-valid marriages of same-sex 
couples. Pursuant to the President's direction, VA is no longer 
enforcing the title 38 provisions to the extent that they require a 
``spouse'' or a ``surviving spouse'' to be a person of the opposite 
sex. Therefore, VA supports this bill as a means to amend the law to be 
consistent with the Supreme Court's decision in Windsor and the 
President's directive. In particular, VA supports the removal of the 
requirement that a ``spouse'' or a ``surviving spouse'' be a person of 
the opposite sex from subsections (3) and (31) of section 101.
    Further, current section 103(c) of title 38, United States Code, 
requires VA to apply the law of the place in which the couple resided 
at the time of the marriage or where they resided when the rights to 
benefits accrued, resulting in unwarranted disparate treatment in the 
delivery of Federal benefits. For example, VA may be precluded from 
recognizing a Veteran's same-sex marriage even though DOD, which is not 
subject to the limitation of section 103(c), may have recognized the 
marriage as valid based on a place-of-celebration standard while the 
Veteran was in service. The ``valid under the laws of any State'' 
standard in S. 270 would promote greater consistency in the 
administration of Federal benefits based on same-sex marriages.
    However, VA has some concerns with the new standard. Under the 
provisions of this bill as currently drafted, the marriage has to be 
``considered valid under the laws of any State.'' The phrase 
``considered valid under the laws of any State'' may have unintended 
consequences. For example, this bill language may require VA to 
recognize a purported common law marriage in a State that does not 
recognize common law marriages, as long as any State would recognize 
the relationship as a valid common law marriage. Presumably, Congress 
does not intend to eliminate any and all differences between States 
regarding the types of relationships that would constitute a valid 
marriage for purposes of administering Federal benefits, but, rather, 
intends to obtain greater consistency regarding recognition of same-sex 
marriages. Furthermore, this bill language may require VA to determine 
whether a foreign marriage is valid based on a multitude of laws and 
would require an in-depth legal analysis that is not appropriate in the 
adjudication of claims.
    Costs related to this bill are not available at this time.
                                 s. 602
    S. 602, the ``GI Bill Fairness Act of 2015,'' would amend the term 
``active duty'' under chapter 33 of title 38, to include certain time 
spent receiving medical care from DOD as qualifying active duty service 
performed by members of the Reserve and National Guard. Under this 
bill, individuals ordered to active duty under section 12301(h) of 
title 10, United States Code, to receive authorized medical care; to be 
medically evaluated for disability or other purposes; or to complete a 
required DOD health care study, would receive credit for this service 
under the Post-9/11 GI Bill.
    S. 602 would apply as if it were enacted immediately after the 
enactment of the Post-9/11 Veterans Educational Assistance Act of 2008, 
Public Law 110-252.
    VA defers to DOD regarding the change to qualifying active duty 
service under the Post-9/11 GI Bill, with the observation that a 
similar proposal was submitted by the Administration for inclusion with 
the 2016 NDAA, with an exception that this bill would be retroactive. 
Currently, individuals with qualifying active duty service of at least 
30 continuous days who are honorably discharged due to a service-
connected disability become eligible for 100 percent of the Post-9/11 
GI Bill benefit. Because service under 10 U.S.C. Sec. 12301(h) does not 
meet the current definition of active duty, Guard and Reserve members 
with such service who are discharged under these circumstances do not 
automatically qualify for 100 percent of the benefit. If enacted, this 
change would allow for an increase in benefits from the 40-90 percent 
benefit tier up to the 100 percent level, and the change would be 
retroactive to as early as August 1, 2009.
    The proposed change to the eligibility criteria under the Post-9/11 
GI Bill would require VA to make changes to the type of data that are 
exchanged between DOD and VA through the VA/DOD Identity Repository 
(VADIR) and displayed in the Veteran Information System (VIS). In 
addition, new rules would need to be programmed into the Post-9/11 GI 
Bill Long Term Solution (LTS) in order to calculate eligibility based 
on service under section 12301(h) and to allow for benefit payments 
retroactive to 2009. VA estimates that it would need one year from 
enactment of S. 602 to complete these changes.
    VA estimates that administrative cost requirements associated with 
the enactment of S. 602 would be insignificant. The Department is still 
evaluating benefit and resource costs related to this legislation.
                                 s. 627
    S. 627 would require VA to identify VA employees who, during fiscal 
years 2011 through 2014, contributed to the purposeful omission of the 
name of one or more Veterans from a VA medical facility's electronic 
wait list or supervisors of these employees who knew or reasonably 
should have known about the employee's actions and received a ``bonus'' 
in part as a result of the purposeful omission. The bill would further 
require VA to identify these responsible individuals within 180 days 
after VA's Office of the Inspector General (OIG) submits a report to 
Congress about inappropriate scheduling practices at VA medical 
facilities, if such report is based on investigations carried out by 
the OIG in calendar year 2014. VA would also be required, after 
providing notice and an opportunity for a hearing, to order that these 
individuals repay bonuses that they received as a result of a 
purposeful omission. An individual who has been ordered to repay a 
bonus may appeal that order to the Merit Systems Protection Board 
(MSPB).
    VA has numerous constitutional concerns about the bill, including 
concerns arising under the Fifth Amendment Takings Clause, the Due 
Process Clause, and the Ex Post Facto Clause. VA also has policy and 
procedural concerns about the bill. VA looks forward to working with 
the Committee in order to address these concerns.
    S. 627 is a bill for which there is no precedent. No Federal 
agencies have the authority to require employees to repay past monetary 
performance awards or bonuses that were given in accordance with law 
and without conditions or contractual obligations. This legislation 
threatens a number of core constitutional rights related to property 
and due process that the Framers of the Constitution sought to 
protect,--and the bill would likely give rise to litigation. VA 
believes that employees should not be penalized by legislation that 
attaches new penalties on the basis of past behavior and transactions 
and should have protection from deprivation of life, liberty, or 
property without due process of law. Further, performance awards are 
intended to be a key tool in motivating employees to provide 
outstanding service to Veterans, and the value of that tool should not 
be undermined by measures that would limit employee confidence in the 
performance award system. By singling out VA employees for punitive 
measures, the legislation would likely serve to demoralize a workforce 
dedicated to serving Veterans and hurt VA's efforts to recruit and 
retain high performing employees. VA is concerned that S. 627, if 
passed, would give rise to numerous lawsuits challenging the 
constitutionality of the provisions and VA's actions pursuant to it.
    For these reasons, and as further explained in the below 
discussion, VA strongly opposes this legislation.
    Implementing the bill, as written, would also be impractical for 
the government. First, the bill does not define the term ``bonus'' as a 
``performance award.'' In accordance with law, VA does not give 
``bonuses,'' but rather awards an employee based on his or her 
performance. Second, the type of hearing that needs to be provided to 
an employee before a repayment order must be issued is not specifically 
addressed in the bill. While the bill states that hearings ``shall be 
conducted in accordance with regulations relating to hearings 
promulgated by the Secretary under chapter 75 of title 5, United States 
Code,'' chapter 75 references various types of hearings. Consequently, 
the type of hearing that would need to be provided is not addressed in 
the bill. Third, the bill raises a number of tax questions. For 
example, should the Department of Treasury treat a repayment of a 
performance award as adjustments to prior year compensation, even 
though the award may have been paid a number of years ago? This tax 
question, while not addressed in the bill, would have to be addressed.
    As noted above, the bill would raise a number of constitutional 
issues. First, the bill may run afoul of the Fifth Amendment's Takings 
Clause by requiring employees to return property that was given to them 
unconditionally by the government. The Takings Clause prevents the 
government from ``depriving private persons of vested property rights 
except for a ``public use'' and upon payment of ``just compensation.'' 
Landgraf v. USI Film Products, 511 U.S. 244, 266 (1994). In the case of 
an employee who has already been paid a bonus by the government, that 
bonus is the property of the employee. The taking would occur if the 
government collects the bonus or even a portion thereof without just 
compensation. See, e.g., Nat'l Educ. Bd. v. Ret. Bd. of R.I., 172 F.3d 
22, 30 (1st Cir. 1999) (the Takings Clause protects ``[p]ension 
payments actually made to retirees'').
    The bill may have a ``retroactive effect'' by increasing an 
employee's liability for conduct that preceded the enactment of the 
bill. See Landgraf, 511 U.S. at 280 (a bill has a ``retroactive 
effect'' if it ``increases a party's liability for past conduct''). `` 
`The retroactive aspects of legislation, as well as the prospective 
aspects, must meet the test of due process, and the justifications for 
the latter may not suffice for the former.' '' Pension Ben. Guar. Corp. 
v. R.A. Gray & Co., 467 U.S. 717, 730 (1984) (quoting Usery v. Turner 
Elkhorn Mining Co., 428 U.S. 1, 16-17 (1976)). Under the bill, an 
employee must repay a bonus based on conduct that preceded the 
enactment of the bill. Because the employee was not aware that he or 
she would have to repay the bonus at the time of the conduct, the bill 
may have a ``retroactive effect'' and may implicate the employees' due 
process rights to fair notice. See BMW of N. Am., Inc. v. Gore, 517 
U.S. 559, 570 (1996) (``Elementary notions of fairness enshrined in our 
constitutional jurisprudence dictate that a person receive fair notice 
not only of the conduct that will subject him to punishment, but also 
of the severity of the penalty that a State may impose.'').
    Finally, the legislation may raise constitutional Ex Post Facto 
Clause concerns. The Ex Post Facto Clause prohibits laws that ``impose[ 
] a punishment for an act which was not punishable at the time it was 
committed; or impose[ ] additional punishment to that then 
prescribed.'' Cummings v. Missouri, 71 U.S. (4 Wall.) 277, 325-26 
(1867). In Hiss v. Hampton, 338 F. Supp. 1141, 1147-48 (D.D.C. 1972), a 
three judge panel in the U.S. District Court for the District of 
Columbia held that a law denying payment of pensions to former 
employees who falsely testified with respect to Government service was 
an ex post facto law as it pertained to the conduct of those employees 
which preceded the passage of the law. Id. at 1148. According to the 
court in Hiss, ``[t]he proper function of [law] is to guide and control 
present and future conduct, not to penalize former employees for acts 
done long ago.'' Id. at 1148-49; see also Peugh v. United States, 133 
S. Ct. 2072, 2085 (2013) (noting that ``the [Ex Post Facto] Clause 
ensures that individuals have fair warning of applicable laws and 
guards against vindictive legislative action''). As currently drafted, 
the bill could potentially raise some of the same issues as the 
provision at issue in Hiss.
    Based on the implementation concerns discussed above, VA is unable 
to determine the costs for this bill. It is important to note, however, 
that apart from costs to investigate and identify the employees, as 
required by the bill, VA would also have to expend significant 
resources to conduct a hearing prior to issuing a repayment order, 
defend its repayment order before the MSPB, and assist the Department 
of Justice in defending the order before the U.S. Court of Appeals for 
the Federal Circuit.
                                s. 1203
Section 101
    Section 101 would amend section 1144 of title 10, United States 
Code, by adding a subsection (f) to require modifications to the 
eBenefits Internet Web site to ensure that members of the Armed Forces 
and spouses have access to the online curriculum for the Transition 
Assistance Program (TAP), as administered by the Secretary of Labor, 
the Secretary of Defense, the Secretary of Homeland Security, and the 
Secretary of Veterans Affairs. This would require modifications to the 
eBenefits Web site to host the online version of the TAP curriculum.
    Section 101 would also note Congress' intent that the Secretary of 
Labor, the Secretary of Defense, the Secretary of Homeland Security, 
and the Secretary of Veterans Affairs collaborate to establish a 
process by which Veterans service organizations may be present for TAP 
to provide assistance relating to submitting claims for VA compensation 
and pension benefits. The Secretary of Defense would be required to 
submit a report to Congress, no later than one year after enactment, on 
Veterans service organizations' participation.
    VA does not support the provision to make TAP curriculum available 
through eBenefits because it is unnecessary. This provision would be 
duplicative as all TAP curriculums are already available through the 
Joint Knowledge Online (JKO) system, which is linked to eBenefits. VA 
modified the eBenefits portal in fiscal year 2014 to provide an online 
version of VA's section of the TAP curriculum through the JKO link and 
facilitate online participation for transitioning Servicemembers and 
their families. This functionality lends support to geographically 
dispersed Servicemembers as well as members of the National Guard and 
Reserve components who are required to participate in VA's section of 
TAP. Additionally, the online version is beneficial to Veterans and 
their families if they would like to access the curriculum after 
separation.
    VA defers to DOD and the Department of Homeland Security for 
comment on proposed new 10 U.S.C. Sec. 1144(f)(2) regarding the 
feasibility of ensuring that Servicemembers who are mandated to fulfill 
the TAP requirement can satisfy the requirement through means other 
than solely through an internet Web site.
    VA does not oppose having a process for Veterans service 
organizations (VSOs) to provide assistance relating to submittal of 
claims for VA compensation and pension benefits. VA currently provides 
an overview of the services offered by VSOs and introduces VSOs to 
Servicemembers during our benefits briefings. VA also partners with 
VSOs at military installations where they are co-located or available 
to offer claims support.
    VA defers to DOD on subsection (b)(2) of section 101 of the bill 
regarding the requirement to provide a report on participation of VSOs 
in TAP.
    VA estimates that no administrative or benefit costs to VA would be 
associated with enactment of this section.
Section 102
    Section 102 would amend 38 U.S.C. Sec. 5104, which provides 
requirements for VA's decisions and notices of decision. It would 
require VA, upon issuing a decision for a claimed benefit, to also 
explain the procedure for obtaining review of the decision and explain 
the benefits of filing a Notice of Disagreement (NOD) within 180 days.
    VA does not support this section. While VA appreciates the effort 
to encourage individuals to file their NOD in a timelier manner, VA 
would prefer a more definitive legislative solution.
    As noted in VA's Strategic Plan to Transform the Appeal Process, 
which was provided to the Senate Committee on Veterans' Affairs on 
February 26, 2014, the current process provides appellants with 
multiple reviews in the Veterans Benefits Administration (VBA) and one 
or more reviews at the Board of Veterans' Appeals (Board), depending 
upon the submission of new evidence or whether the Board determines 
that it is necessary to remand the matter to VBA. The multi-step, open-
record appeal process set out in current law precludes the efficient 
delivery of benefits to all Veterans. The longer an appeal takes, the 
more likely it is that a claimed disability will change, resulting in 
the need for additional medical and other evidence and further 
processing delays. As a result, the length of the process is driven by 
how many cycles and readjudications are triggered. VA's FY 2016 budget 
request includes legislative proposals to improve the appeal process, 
and VA has collaborated with Veterans service organizations to develop 
an optional fully developed appeals pilot program. VA continues to work 
with Congress and other stakeholders to explore long-term solutions 
that would provide Veterans the timely appeals process they deserve.
    VA estimates that GOE costs associated with this section would be 
insignificant.
Section 103
    Section 103 would allow for greater use of video conference 
hearings by the Board, while still providing Veterans with the 
opportunity to request an in-person hearing if they so elect. This 
provision would apply to cases received by the Board pursuant to 
Notices of Disagreement submitted on or after the date of the enactment 
of the Act. VA fully supports section 103 as drafted, as this provision 
would potentially decrease hearing wait times for Veterans, enhance 
efficiency within VA, and better focus Board resources toward issuing 
more final decisions.
    The Board has historically been able to schedule video conference 
hearings more quickly than in-person hearings, saving valuable time in 
the appeals process for Veterans who elect this type of hearing. In FY 
2014, on average, video conference hearings were held 124 days sooner 
than in-person hearings before a Veterans Law Judge (VLJ) at a Regional 
Office Travel Board hearing. Section 103 would allow both the Board and 
Veterans to capitalize on these time savings by giving the Board 
greater flexibility to schedule video conference hearings than is 
possible under the current statutory scheme.
    Historical data also shows that there is no statistical difference 
in the ultimate disposition of appeals based on the type of hearing 
selected. Veterans who had video conference hearings had an allowance 
rate for their appeals that was virtually the same as Veterans who had 
in-person hearings; however, Veterans who had video conference hearings 
were able to have their hearings scheduled much more quickly. Section 
103 would continue to allow Veterans who want an in-person hearing the 
opportunity to specifically request and receive one.
    Enactment of section 103 could also lead to an increase in the 
number of final decisions for Veterans as a result of increased 
productivity at the Board. Time lost due to travel and time lost in the 
field due to appellants failing to show up for their hearing would be 
greatly reduced, allowing VLJs to better focus their time and resources 
on issuing final Board decisions for Veterans.
    Major technological upgrades to the Board's video conference 
hearing equipment over the past several years leave the Board well-
positioned for the enactment of section 103. This includes the purchase 
of high-definition video equipment, a state-of-the art digital audio 
recording system, implementation of a virtual hearing docket, and 
significantly increased video conference hearing capacity. Section 103 
would allow the Board to better leverage these important technological 
enhancements.
    We observe that section 103 would redesignate current subsection 
(f) of section 7107 of title 38, United States Code, as subsection (g); 
however, the draft legislation does not revise the reference to current 
subsection (f) in subsection (a) of section 7107 of title 38, United 
States Code. We suggest revising subsection (a)(1) to state: ``Except 
as provided in paragraphs (2) and (3) and in subsection (g), each case 
received pursuant to application for review on appeal shall be 
considered and decided in regular order according to its place upon the 
docket.''
    In short, section 103 would result in shorter hearing wait times, 
focusing Board resources on issuing more decisions, and providing 
maximum flexibility for both Veterans and VA, while fully utilizing 
recent technological improvements. VA therefore strongly endorses this 
proposal.
Section 201
    We defer to the U.S. Government Accountability Office.
Section 204
    We defer to the VA Office of the Inspector General.
Section 205
    Section 205 would require VA to submit an annual report to Congress 
on the capacity of VBA to process claims during the next one-year 
period. The reports would include the number of claims VBA expects to 
process; number of full-time equivalent (FTE) employees who are 
dedicated to processing such claims; an estimate of the number of 
claims a single FTE can process in a year; an assessment of whether VA 
requires additional or fewer FTE to process such claims during the next 
one-year, five-year, and 10-year periods; a description of actions VA 
will take to improve claims processing; and an assessment of actions 
identified in previous reports required by this section. VA would be 
required to make the report publicly available on the internet.
    VA believes this legislation is unnecessary as VA's current budget 
reports address these issues adequately, and such budget reports are 
available publicly.
    No administrative costs would be associated with enactment of this 
section.
Section 207
    Section 207 would require VA to submit to Congress a report on the 
Department's progress in implementing the Veterans Benefits Management 
System (VBMS). The report would include (1) an assessment of current 
VBMS functionality; (2) recommendations from VA's claims processors, 
including Veterans Service Representatives, Rating Veterans Service 
Representatives, and Decision Review Officers, on legislative or 
administrative actions to improve the claims process; and (3) 
recommendations from VSOs that use VBMS on legislative or 
administrative actions to improve VBMS. VA would be required to submit 
a report within 180 days after enactment of the bill and no less 
frequently than once every 180 days thereafter until three years after 
enactment.
    VA believes this legislation unnecessary as VA currently provides 
regular updates to Congress regarding implementation and functionality 
of VBMS; quarterly briefings to the House and Senate Committees on 
Veterans' Affairs, advising them of the status of VBA operations and 
updates to VBMS; and a quarterly report to the House and Senate 
Appropriations Committees summarizing recent and upcoming changes to 
VBMS. Additional reporting requirements are not needed at this time.
    VA estimates GOE costs associated with this section would be 
insignificant.
Section 208
    Section 208 would require VA to submit, within 90 days of enactment 
of this Act, a report to Congress detailing plans to reduce the 
inventory of claims for dependency and indemnity compensation (DIC) and 
pension benefits.
    VA does not support section 208. It is unnecessary as VBA continues 
to make significant improvements in processing DIC and pension claims.
    VA's Pension and Fiduciary (P&F) Service, which oversees 
administration of the DIC and pension programs, reviewed the policies 
and procedures applicable to the adjudication of these claims to 
identify obstacles to timely processing. P&F Service determined that 
certain claim processing steps are redundant and appropriate for 
elimination. On March 22, 2013, P&F Service issued Fast Letter 13-04 
(FL 13-04), Simplified Processing of Dependency and Indemnity 
Compensation (DIC) Claims, which instructs VBA field staff on the 
procedures to follow when processing DIC claims. P&F Service is working 
on similar guidance for pension claims.
    On July 7, 2014, VA began automating payment of DIC to certain 
surviving spouses of Veterans rated totally disabled at death. As part 
of VA's notice of death process, VA systems determine if the deceased 
Veteran met the requirements of section 1318 and if the surviving 
spouse met the relationship requirements. If the system determines that 
both requirements are met it will automatically process and award DIC 
under section 1318 within six days of notification of the Veteran's 
death.
    Based on these changes and an aggressive workload management plan 
in VA's Pension Management Centers, VA has reduced its pending DIC 
claim inventory by 55 percent from its peak of 19,100 claims to 8,600 
claims, and backlog by 87 percent from its peak of 8,800 to 1,000. 
Veterans pension inventory was reduced by 68 percent from its peak of 
36,100 to 11,400, and backlog by 96 percent from its peak of 14,500 to 
600. Average processing time for DIC has improved by 100 days from its 
peak of 168 days to 68 days, while maintaining 99 percent accuracy.
    No benefits or GOE costs would be associated with enactment of this 
section.
Section 209
    This section would require VA to include in its Monday Morning 
Workload Report (MMWR) the number of claims received by regional 
offices and pending decisions, disaggregated by the number of claims 
that have been pending for more than 125 days; the number of claims 
that have been pending for 125 days or less; and the number of claims 
that do not require a decision concerning a disability rating. This 
section would also require VA to include in the MMWR, the sections 
entitled ``Transformation'' and ``Aggregate,'' the number of partial 
ratings assigned. Additionally, this section would require VA to 
include in the MMWR a report on the total number of fully developed 
claims (FDC) received by regional offices that are pending a decision 
and the subset of those claims that have been pending for more than 125 
days, disaggregated by station.
    VA does not support this section. The information required by 
section 209(a) is already published in the MMWR for rating-related 
disability compensation and pension claims. The section appears to 
propose requiring all other non-rating pending compensation and pension 
workload be added to the MMWR; however information about these pending 
claims is also already published in the MMWR. The single distinguishing 
new feature would be the application of the backlog metric of 125 days 
to all non-rating-related claims by regional office. However, 125 days 
is not a useful metric for the majority of non-rating-related claims. 
The significant differences in the work effort required for various 
types of non-rating-related claims and the fact that much of this work 
is consolidated to the Pension Management Centers make comparison at 
the aggregate level across all regional offices a comparison without 
context or any real capability to inform how one regional office 
compares to another.
    Section 209(b) would elevate tallies of partial ratings of various 
claim types into a tool of comparison between regional offices. Data on 
partial ratings that award benefits for some, but not all, claimed 
conditions are not informative in this way as they reflect the unique 
circumstances of each claim. Additionally, irrespective of partial 
rating decisions, over half of the Veterans with pending claims are 
already receiving compensation as a result of a previously filed claim. 
Adding this partial-rating metric would not provide meaningful 
comparisons at the regional office level.
    Section 209(c) would require pending FDC claims, one VBA high-
priority claims category, to be added to the MMWR. To the degree making 
comparisons between regional offices is desired, the existing reporting 
in the MMWR on claims older than 125 days, VA's largest pending group 
of high priority claims, provides a better metric for such comparisons 
than FDC claims. However, should it be determined that a pending FDC 
metric would be useful, legislation is not required to add this metric 
to the MMWR.
    VA estimates GOE costs associated with this section would be 
insignificant.
Section 210
    This section would require VA to make available to the public on 
the internet the ``Appeals Pending'' and ``Appeals Workload by 
Station'' reports. VA would be required to include in one of these 
reports the percentage of appeals granted by station and the percentage 
of claims previously adjudicated by VBA's Appeals Management Center 
that were subsequently granted or remanded by the Board.
    VA does not support this section. VBA's MMWR currently includes the 
total number of appeals pending and other metrics related to appeals. 
Before adding data elements to reports, VBA needs to ensure that the 
information is provided in a useful way that can be easily understood 
by the public.
    For example, VBA is changing its workload management strategy by 
developing the National Work Queue (NWQ), a paperless workload 
management initiative designed to improve VBA's overall production 
capacity. In the initial phase of NWQ, VBA is matching its inventory 
with claims processing capacity at the regional office-level, moving 
claims electronically from a centralized queue to an office identified 
as having capacity to complete the work. With this national workload 
approach, VA will continue to focus on the improvement of its 
traditional performance metrics, with an emphasis on improving quality 
and consistency of claims and appeals processing nationwide to ensure 
Veterans and their families receive timely benefits, regardless of 
where they reside. Appeals data by station will be less useful to the 
public as NWQ is implemented.
    Additionally, it is unclear how the bill would define ``appeals 
granted by station.'' Multiple decisions may be appealed in each claim, 
and it is unclear if VA would be required to report percentages 
associated with each decision or each appeal. Similarly, it is unclear 
at what point in the appeal process this metric would be reported. The 
current process provides appellants with multiple reviews in VBA and 
one or more reviews at the Board, depending upon the submission of new 
evidence or whether the Board determines that it is necessary to remand 
the matter to VBA. The longer an appeal takes, the more likely it is 
that a claimed disability will change, resulting in the need for 
additional evidence, further processing delays, and less clarity in 
whether an initial decision was correctly made.
    VA estimates GOE costs associated with this section would be 
insignificant.
Section 211
    Section 211 would revise provisions of the Veterans' Benefits 
Improvement Act of 1996 relating to contract examinations to clarify 
that, notwithstanding any law regarding the licensure of physicians, a 
licensed physician may conduct disability examinations for VA in any 
state, the District of Columbia, or a commonwealth, territory, or 
possession of the United States, provided the examination is within the 
scope of the physician's authorized duties under a contract with VA.
    VA supports the provision regarding licensure requirements as a 
means to ensure the quality of contract examinations. The demand for 
medical disability examinations has increased, largely due to an 
increase in the complexity of disability claims, an increase in the 
number of disabilities that Veterans claim, and changes in eligibility 
requirements for disability benefits. This authority would help provide 
flexibility in examinations through non-VA medical providers while 
maintaining licensure standards and accelerating benefits delivery.
    No benefit or discretionary costs would be associated with 
enactment of this section.
Section 301
    Section 301 would require the appointment of at least one liaison 
between VA and DOD, and between VA and each of the reserve components. 
It would also require the National Archives and Records Administration 
(NARA) to appoint a liaison to VA. The intent of these appointments is 
to expedite the provision of information needed to process claims by 
VA, to ensure that such information would be provided within 30 days of 
the request. VA would be required to submit a report to Congress 
annually regarding the timeliness of responses from DOD and NARA.
    While VA appreciates the intent to facilitate records retrieval, VA 
believes that this section of the bill is unnecessary because of the 
extensive ongoing efforts between VA and other Federal agencies to 
improve response times to VA requests for records that are required to 
adjudicate disability claims. For example, a memorandum of 
understanding (MOU) between VA and DOD provides VA, at time of 
discharge, certified and complete service treatment records in an 
electronic, searchable format. As this MOU applies to the 300,000 
annually separated Active Duty, National Guard, and Reserve Component 
members, it will significantly contribute to VA's efforts to achieve 
its 125-day goal for completion of disability compensation claims.
    Costs associated with enactment of this section would be 
insignificant. DOD and NARA would be required to appoint liaisons; VBA 
would not hire additional employees. Costs associated with the report 
required by section 301(d) would be insignificant.
Section 302
    Section 302 would require DOD and VA to jointly submit to Congress 
a report that sets forth a timeline with milestones for achieving 
interoperability between the electronic health records systems of both 
Departments.
    The Veterans Health Administration (VHA) runs the largest 
integrated health care system in the country; delivering the quality 
care Veterans deserve is not possible without innovative information 
technology and data sharing. VA's Electronic Health Record (EHR)--
Veterans Health Information Systems and Technology Architecture 
(VistA)--is the most widely used EHR in the United States, and VA is 
working rapidly to modernize it. VA is developing a new web application 
and services platform called the Enterprise Health Management Platform 
(eHMP). eHMP is the VistA application clinicians will use during their 
clinical interactions with Veterans. eHMP brings exciting new features 
to the clinician, including Google-like search capabilities and 
information buttons that help clinicians find needed information much 
faster than current systems. VA is already piloting eHMP, and expects 
to deploy it to 30 sites by the end of the calendar year, with full 
rollout--including regular updates--over the next three years.
    VA continues to work with DOD on health data interoperability, but 
it is important to note that the two Departments already share health 
care data on millions of Servicemembers and Veterans. In fact, the two 
Departments share more health data than any other health care entities 
in the Nation. In addition to sharing health care data, VA and DOD have 
also paved the way for standardizing health care data, so that 
regardless of what system a clinician uses, the data is available in 
the right place and in the right way; for example, Tylenol and 
acetaminophen appear in the same place in the record because the system 
understands, through our data standardization, that they are the same 
medication. Today, VA and DOD clinicians can use the Joint Legacy 
Viewer (JLV) to see VA and DOD data on a single screen in a 
Servicemember or Veteran's record. Eventually, eHMP will replace JLV 
and will allow clinicians to see VA, DOD, and third-party provider data 
in their regular clinical care tool.
    The Department does not object to providing a report. Costs of this 
report would be insignificant as the Department currently provides a 
similar report to Congress.
                draft bill cost-of-living-adjustment act
    The Draft bill on the ``Veterans' Compensation Cost-of-Living 
Adjustment Act of 2015,'' would require the Secretary of Veterans 
Affairs to increase, effective December 1, 2015, the rates of 
disability compensation for service-disabled Veterans and the rates of 
DIC for survivors of Veterans. This bill would increase these rates by 
the same percentage as the percentage by which Social Security benefits 
are increased effective December 1, 2015. The bill would also require 
VA to publish the resulting increased rates in the Federal Register.
    VA strongly supports this bill because it would express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children and 
would ensure that the value of their benefits will keep pace with 
increases in consumer prices.
    The cost of the cost-of-living adjustment (COLA) is included in 
VA's baseline budget because we assume a COLA will be enacted by 
Congress each year. Therefore, enactment of the draft bill which would 
extend the COLA adjustment through November 30, 2016, would not result 
in costs.
 draft to amend title 38, united states code, to modify the treatment 
 under contracting goals and preferences of the department of veterans 
 affairs for small businesses owned by veterans, to carry out a pilot 
  program on the treatment of certain applications for dependency and 
    indemnity compensation as fully developed claims, and for other 
                                purposes
Section 101
    Section 101 would expand the flexibility provided to a service-
disabled Veteran-owned small business (SDVOSB) to continue to hold that 
socioeconomic status upon the death of the service-disabled Veteran 
owner. Current law provides a transition period for SDVOSBs for up to 
10 years after the Veteran's death, if the Veteran had a service-
connected disability with a 100-percent rating or died as a result of a 
service-connected disability. This bill would create a similar 
transition period for three years, if the Veteran had a service-
connected disability with a rating of less than 100 percent and did not 
die as a result of a service-connected disability.
    VA supports this provision because, without the proposed transition 
period, the death of the Veteran owner could put at risk the jobs and 
livelihoods of the firm's employees, as well as the surviving spouse. 
The transition period provides the spouse a reasonable period of time 
to determine what should be done with the business after the Veteran's 
death.
    VA anticipates enactment of this provision would entail minor 
administrative costs. VA would incorporate this change into its 
existing application processes with no material addition to costs.
Section 102
    Section 102 would amend 38 U.S.C. Sec. 8127 by providing a 
transition rule for a member of the Armed Forces who owns at least 51 
percent of a small business and is killed in the line of duty. Such a 
Veteran's surviving spouse who acquires ownership interest in the small 
business would be treated as a service-disabled Veteran owner until the 
earliest of the following: 10 years after the Servicemember's death; 
the date on which the surviving spouse remarries; or the date on which 
the spouse no longer owns at least 51 percent of the small business. 
Such a Veteran's dependent child that acquires ownership interest in 
the small business would be treated as a Veteran owner for 10 years 
after the Servicemember's death or the date on which the child no 
longer owns at least 51 percent of the small business, whichever occurs 
first.
    VA supports the spirit behind this provision but notes two 
substantive concerns with the draft language. First, Congress sought to 
ensure that Veteran small business owners genuinely own and control the 
small business receiving benefits under the Veterans First Contracting 
Program. This would be a challenge for members of the regular Armed 
Forces, especially those serving in active duty abroad. Moreover, 
members of the Armed Forces are also Federal employees, which places 
limits on their ability to receive Federal contracts under conflict of 
interest rules. In practice, this rule would mainly apply to members of 
the National Guard and Army Reserve who own small businesses in their 
civilian lives, become activated, and are killed in the line of duty, 
leaving survivors to assume operational control of the firm as a 
service-disabled Veteran-owned small business. Second, if a dependent 
child owner is still a minor, this may complicate the actual operation 
of this rule because of limitations on a minor's capacity to enter into 
binding contracts or engage in commercial transactions as an owner. The 
firm may need to reside in a trust for the benefit of the dependent 
minor child with an adult trustee controlling the firm until the 
dependent reaches adulthood. VA would be pleased to provide technical 
assistance to seek resolution of these issues.
    VA anticipates enactment of this provision would entail minor 
administrative costs. VA would incorporate this change into its 
existing application processes with no material addition to costs.
Section 202
    Section 202 would require VA to submit a report on the standard of 
proof for service-connected disability compensation for military sexual 
trauma (MST)-based mental health conditions to the House and Senate 
Committees on Veterans' Affairs no later than 90 days after enactment. 
The report would include recommendations for an appropriate standard of 
proof and legislative actions, if necessary.
    VA believes this legislation is unnecessary as VA provided a report 
with this information to the House and Senate Appropriations Committees 
in March 2015 and can share it with other interested Congressional 
offices.
    No benefit or GOE costs would be associated with enactment of this 
section.
Section 203
    Section 203 would require VA to submit a report with data on 
compensation claims for MST-based PTSD to Congress no later than 
December 1, 2016 and each year thereafter through 2020. The report 
would include the following information from the preceding fiscal year:

    1. The number of MST-related PTSD claims submitted;
    2. The number and percentage of claims submitted by gender;
    3. The number of approved claims, including number and percentage 
by gender;
    4. The number of denied claims, including number and percentage by 
gender;
    5. The number of claims assigned to each rating percentage, 
including number and percentage by gender;
    6. The three most common reasons given for denial of such claims 
under 38 U.S.C. Sec. 5104(b)(1);
    7. The number of denials that were based on the failure of the 
Veteran to report for a medical examination;
    8. The number of MST-based PTSD claims resubmitted after denial in 
a previous adjudication and items 2-7 from this list for this subset of 
claims;
    9. The number of claims that were pending at the end of the fiscal 
year and separately the number of such claims on appeal; and
    10. The average number of days to complete MST-based PTSD claims.

    VA believes this legislation is unnecessary as VA provided a report 
with most of this information to the House and Senate Appropriations 
Committees in March 2015 and can share it with other interested 
Congressional offices. If additional information or data for subsequent 
years are needed, VA can provide this to interested Congressional 
offices without legislation.
    No benefit or GOE costs would be associated with enactment of this 
section.
Section 204
    Section 204 would direct VA to establish a one-year pilot program 
within 90 days of enactment to assess the feasibility and advisability 
of expediting the treatment of certain DIC claims, to include claims 
submitted:

    1. Within one year of the death of the Veteran upon whose service 
the claim is based;
    2. By dependents of Veterans who received benefits for one or more 
service-connected conditions as of the date of death;
    3. With evidence indicating the Veteran's death was due to a 
service-connected or compensable disability; and
    4. By a spouse of a deceased Veteran who certifies that he or she 
has not remarried since the Veteran's death.

    Section 204 would also require VA to submit a report to the House 
and Senate Committees on Veterans' Affairs within 270 days of 
completing the pilot program. The report would include:

    1. The number of DIC claims adjudicated under the pilot 
disaggregated by claims received by a spouse, child, or parent of a 
deceased Veteran;
    2. The number of DIC claims adjudicated but for which benefits were 
not awarded under the pilot disaggregated by claims received by a 
spouse, child, or parent of a deceased Veteran;
    3. A comparison of accuracy and timeliness of claims adjudicated 
under the pilot and DIC claims not adjudicated under the pilot;
    4. VA's finding with respect to the pilot; and
    5. Recommendations the VA may have for legislative or 
administrative action to improve processing of DIC claims.

    VA supports the intent of this legislation, but believes it is 
unnecessary. As discussed above, in fiscal year 2013, VBA's P&F Service 
reviewed the policies and procedures applicable to the adjudication of 
DIC claims to identify obstacles to timely processing. P&F Service 
determined that VA could quickly grant many DIC claims with little or 
no additional development, and that certain claim processing steps are 
redundant and appropriate for elimination. On March 22, 2013, P&F 
Service issued Fast Letter 13-04 (FL 13-04), Simplified Processing of 
Dependency and Indemnity Compensation (DIC) Claims, which instructs VBA 
field staff on the procedures to follow when processing claims.
    The new procedures require screening of claims at the intake point 
and limited or no development of additional evidence when information 
in VBA systems supports granting benefits. It also clarifies that VA 
grants DIC under 38 U.S.C. Sec. 1318 based upon total service-connected 
disability for a prescribed period before death in the same manner as 
if the death were service-connected. Accordingly, in these cases, our 
field staff will grant service-connected burial benefits and presume 
the permanence of total disability for purposes of establishing the 
survivor's entitlement to VA education and health care benefits. These 
new procedures allowed us to grant DIC benefits faster and without 
unnecessary development.
    Also, as discussed above, on July 7, 2014, VA automated some 
benefits to surviving spouses. VA can now automatically pay certain 
surviving spouses under section 1318. As part of VA's notice of death 
process, VA systems determine if the deceased Veteran met the 
requirements of section 1318 and if the surviving spouse met the 
relationship requirements. If the system determines that both 
requirements are met, it will automatically process and award DIC under 
section 1318 within six days of notification of the Veteran's death.
    Based on these changes and aggressive workload management plan in 
VA's Pension Management Centers, VA has reduced its pending DIC claim 
inventory by 55 percent from its peak of 19,100 claims to 8,600 claims. 
Average processing time for these claims has improved by 100 days from 
its peak of 168 days to 68 days while maintaining 99 percent accuracy.
    VA estimates no benefit or GOE costs would be associated with 
enactment of this section.
Section 205
    Section 205 would require VA, DOD, and military historians 
recommended by DOD to review the process used to determine if 
individuals who applied for Filipino Veterans Equity Compensation 
(FVEC) benefits served during World War II in accordance with the 
requirements to receive this benefit payment. Section 205 would also 
require VA to submit a report to the House and Senate Committees on 
Veterans' Affairs no later than 90 days after enactment. The report 
would detail any findings, actions taken, or recommendations for 
legislative action with respect to the review. If a new process is 
established as a result of this review, the process shall include 
mechanisms to ensure individuals who receive payments did not engage in 
any disqualifying conduct during their service, including collaboration 
with the enemy or criminal conduct.
    VA does not support this section. In determining whether a claimant 
is eligible for a VA benefit, including FVEC, VA is legally bound by 
service department determinations as to what service a claimant 
performed. VA regulations provide two methods for establishing service. 
Under 38 CFR Sec. 3.203(a), VA may accept evidence submitted by a 
claimant if the evidence is a document issued by a U.S. service 
department; contains the needed information as to length, time, and 
character of service; and, in VA's opinion, is genuine and accurate. 
Otherwise, under 38 CFR Sec. 3.203(c), VA must seek verification of 
service from the appropriate service department. These regulations are 
applicable to all claimants. For claims based on Philippine Service in 
World War II, the U.S. Army is the relevant service department, but VA 
requests verification from the National Personnel Records Center which, 
since 1998, has acted as the custodian of the U.S. Army's collection of 
Philippine Army and Guerrilla records.
    No benefit or GOE costs would be associated with enactment of this 
section.
Section 301
    Section 301 would require VA to conduct a study and report to 
Congress on matters relating to the interment of unclaimed remains of 
Veterans in national cemeteries under the control of the National 
Cemetery Administration (NCA), including: (1) determining the scope of 
issues relating to unclaimed remains of Veterans, to include an 
estimate of the number of unclaimed remains; (2) assessing the 
effectiveness of VA's procedures for working with persons or entities 
having custody of unclaimed remains to facilitate interment in national 
cemeteries; (3) assessing State and local laws that affect the 
Secretary's ability to inter such remains; and (4) recommending 
legislative or administrative action the VA considers appropriate.
    Section 301 would provide flexibility for VA to review a subset of 
applicable entities in the estimating of the number of unclaimed 
remains of Veterans as well as assess a sampling of applicable State 
and local laws.
    In December 2014, NCA published a Fact Sheet to provide the public 
with information on VA burial benefits for unclaimed remains of 
Veterans. NCA prepared the Fact Sheet in collaboration with 
representatives from NCA, VBA, and VHA. As well as being posted on VA's 
Web site, the Fact Sheet was widely distributed to targeted employees 
in VA, including Homeless Veteran Coordinators, Decedent Affairs 
personnel, VBA Regional Compensation Representatives, and NCA Cemetery 
Directors as well as shared in a GovDelivery message sent to over 
28,000 funeral director and coroner's office recipients who are 
entities that may come to NCA seeking assistance to ensure burial of a 
Veteran whose remains are unclaimed.
    NCA strongly supports the goal of ensuring all Veterans, including 
those whose remains are unclaimed and do not have sufficient resources, 
who earned the right to burial and memorialization in a national, 
State, or tribal Veterans cemetery are accorded that honor. NCA 
appreciates the continued Congressional support to meet the needs of 
Veterans whose remains are unclaimed. While NCA is remains concerned 
that the study may be unnecessary or premature at this time, we would 
appreciate working with the Committee to make sure any study that the 
Department is mandated to produce is targeting data that can be used to 
better serve these Veterans.
    Over the past several years, Congressional and Departmental actions 
have increased the Department's ability to ensure dignified burials for 
the unclaimed remains of eligible Veterans. The Dignified Burial and 
Other Veterans' Benefits Improvement Act of 2012 (Public Law 112-260) 
authorizes VA to furnish benefits for the burial in a national cemetery 
for the unclaimed remains of a Veteran with no known next-of-kin and 
where sufficient financial resources are not available for this 
purpose. Those benefits include reimbursements for the cost of a casket 
or urn, for costs of transportation to the nearest national cemetery, 
and for certain funeral expenses.
    NCA is pleased to report that our final rule was published on 
April 13, 2015, beginning today, we are able to accept requests for 
reimbursement for caskets or urns purchased for the interment of 
deceased Veterans who died on or after January 10, 2014, without next 
of kin, and where sufficient resources for burial are not available. As 
this new benefit is administered, NCA will have a new source for 
collecting data on the number of Veterans whose unclaimed remains are 
brought to NCA for interment. The data can be used to assist in 
targeting outreach efforts to partners and getting a fuller 
understanding of the issue.
    The Department continues to identify areas to recommend legislative 
or administrative action that would support dignified burial of 
unclaimed remains of Veterans. Two legislative proposals are included 
in VA's FY 2016 Budget Submission. Currently, VA may furnish a 
reimbursement for the cost of a casket or urn and for the cost of 
transportation to the nearest national cemetery. These benefits are 
based on the Veteran being interred in a VA national cemetery. The 
legislative proposals are to expand these two benefits to include those 
Veterans who are interred in a state or tribal organization Veteran 
cemetery.
    In conjunction with discussions we had last year with congressional 
staff, NCA reviewed its internal procedures and began to follow-up 
every thirty days with the public officials on any unclaimed remain 
cases shown as pending until the cases are scheduled for burial and the 
Veterans' remains are interred. While state and local laws designate 
who may act as an authorized representative to claim remains, NCA can 
work with any individual or entity that contacts us to determine a 
Veteran's eligibility for burial and scheduling the burial in a VA 
national cemetery.
    The great work of the Missing in America Project (MIAP) and 
individual funeral directors is invaluable in complementing VA's role 
of ensuring that all Veterans, including those whose unclaimed remains 
are brought to us, receive the proper resources to ensure receipt of a 
dignified burial. Over the past several years, NCA has developed a 
strong working relationship with funeral homes, coroner offices, and 
medical examiners, to actively provide responses to requests for 
eligibility reviews. In FY 2014, NCA processed 2,805 MIAP requests to 
determine eligibility for burial in a VA national cemetery, of which 
1,642 were verified as eligible.
    In light of VA's recent activities, detailed above, to implement 
legislation targeted at ensuring appropriate burial of the unclaimed 
remains of Veterans, NCA feels it is premature to undertake the 
proposed study. Furthermore, if legislation is passed requiring the 
study, we do not object to the proposed scope and content, we are 
concerned that the timeframe for reporting in the bill is unrealistic.
    To implement the mandatory requirements outlined in the bill, even 
with the flexibilities included in the bill language, the Department 
would be required to contract with one or more private entities to 
perform such a study. Survey instruments would need to be developed to 
assess the number of remains in the possession of funeral directors and 
other entities for individuals with no known next of kin, and an 
appropriate sample would have to be identified and a legal review of 
state and local laws conducted regarding unclaimed remains of Veterans.
    The bill provides a reporting timeframe of one year. The need to 
get formal clearances on survey instruments takes several months; 
therefore, a more realistic timeframe is two years.
    The bill does not identify a funding source for this mandate. NCA 
is still evaluating the cost associated with this legislation.
Section 401
    Section 401 would honor any person entitled under chapter 1223 of 
title 10, United States Code, to retired pay for nonregular service or 
who, but for age, would be entitled under this chapter to retired pay 
for nonregular service, as a Veteran. However, these individuals would 
not be entitled to any benefit by reason of this honor.
    VA does not support this section. It would conflict with the 
definition of ``Veteran'' in 38 U.S.C. Sec. 101(2) and would cause 
confusion about the definition of a Veteran and associated benefits. In 
title 38, United States Code, Veteran status is conditioned on the 
performance of ``active military, naval, or air service.'' Under 
current law, a National Guard or Reserve member is considered to have 
had such service only if he or she served on active duty, was disabled 
or died during active duty for training from a disease or injury 
incurred or aggravated in line of duty, or was disabled or died during 
inactive duty training from an injury incurred or aggravated in line of 
duty or from an acute myocardial infarction, a cardiac arrest, or a 
cerebrovascular accident. Section 401 would eliminate these service 
requirements for National Guard or Reserve members who served in such a 
capacity for at least 20 years. Retirement status alone would make them 
eligible for Veteran status.
    VA recognizes that the National Guard and Reserves have admirably 
served this country and in recent years have played an important role 
in our Nation's overseas conflicts. Nevertheless, VA does not support 
this bill because it represents a departure from active service as the 
foundation for Veteran status. This section would extend Veteran status 
to those who never performed active military, naval, or air service, 
the very circumstance which qualifies an individual as a Veteran. Thus, 
this section would equate longevity of reserve service with the active 
service long ago established as the hallmark for Veteran status.
    VA estimates that there would be no additional benefit or 
administrative costs associated with this section of the bill if 
enacted.

    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to working with the 
Committee.
                                 ______
                                 
    Additional Views Submitted After the Hearing by Hon. Robert A. 
        McDonald, Secretary, U.S. Department of Veterans Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Isakson. Senator Brown, would you have a question?

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. I do not, Mr. Chairman. Thank you.
    Chairman Isakson. Mr. McLenachen, did you not say in your 
statement you were deferring any conversation on the Ayotte-
Moran bill to Ms. Szybala?
    Ms. Szybala. Yes.
    Chairman Isakson. He gives you all the easy work, does he 
not, Ms. Szybala?
    Ms. Szybala. Yes. Absolutely.
    Chairman Isakson. Do you have any comment?
    Ms. Szybala. I do. I do. Basically, VA supports the goals 
of the bill, which are to give us more tools to achieve 
accountability and to hold those responsible for manipulating 
the wait lists and dis-serving veterans that way. Our problem 
with the bill is that we count four different ways in which it 
is constitutionally questionable, constitutionally debatable, 
and constitutionally attackable so that we are going to be tied 
up in litigation about this bill for a long time.
    The four ways, if you want me to go through them are--they 
are in David's written testimony, but we have ex post facto 
law, we have a retroactive law, we have a lack of due process, 
and we have--what is number 4--oh, we have unconstitutional 
takings under the Fifth Amendment.
    Chairman Isakson. Can I interrupt you there?
    Ms. Szybala. Sure. Please.
    Chairman Isakson. Has the VA ever considered establishing a 
rule that would allow it the ability to take back a bonus for 
somebody that was found to have deprived veterans of benefits 
that were intended for the veteran?
    Ms. Szybala. No. I am sure we could not do that by rule. We 
would need legislation to do that.
    Chairman Isakson. Let me explain why I made that comment.
    Ms. Szybala. Yes.
    Chairman Isakson. Every time the VA is here about something 
that is embarrassing, which is embarrassing for the VA and it 
is embarrassing for us in Congress, it is always ``somebody 
else did it,'' or ``something will not let me do it.'' I have 
not seen anybody come forward with a proposal stating, we would 
like to change the law to say X, Y, or Z dealing with taking 
this compensation situation.
    And, I am not afraid of going to the courts. I think it is 
about time that we--the courts are there--our Constitution has 
three branches of government. You are in the executive branch, 
I am the legislative, and the courts are the arbitrators in the 
judicial branch. I think it is about time agencies of 
government that are having problems with employees being non-
compliant with the rules of the Department or, in fact, doing 
their job, had regulations that had accountability in them and 
let us let the courts strike them down rather than just saying 
we cannot do it. I am going to see Secretary McDonald in about 
30 minutes and I am going to tell him the same thing about 
another subject.
    I appreciate the employees at the VA and I appreciate your 
leadership and what you all do, but it is time that instead of 
playing defense against us or trying to react to the concerns 
of our constituents that you all were proactive on making 
recommendations in terms of how you change the VA to eradicate 
the culture of some of these problems that are taking place 
over and over and over again.
    I do not mean to lecture to you. I am not blaming you, Ms. 
Szybala. But, I think it is time that you all--instead of 
telling me you want to have some comment on some legislation we 
put up, I would love to see you come forward with legislation 
that deals with some of the concerns we have had on 
construction, on bonuses, and on accountability for 
appointments. I apologize for lecturing, yet I wanted to get 
that in.
    Ms. Szybala. No, I appreciate that. If I may, there are 
ways in which we like this bill. We could use more tools in 
terms of making sure people are held accountable after the 
fact, when we find things like this out. The problem with this 
bill is that it goes too far back in the past. We would like it 
for now and the future, and we can work with you to try and get 
a bill that does it that way, that avoids the pitfalls we see 
here.
    Chairman Isakson. Well, forewarned is forearmed, so I think 
if you start working on getting the powers to be--and I am 
going to talk with Secretary McDonald in just a little bit--
start allowing you to think that way and bring some of those 
forward to us, we would love to have your backside on going 
after those things and having enforcement that actually works.
    Ms. Szybala. Thank you.
    Chairman Isakson. Thank you for your testimony.
    Does anybody else have a comment?
    [No response.]
    Chairman Isakson. Mr. McLenachen, you made a comment about 
S. 270. You said you were for it, but there was a reservation 
about some application. What was that?
    Mr. McLenachen. Sir, it is purely a technical matter as to 
how the language is written. I believe what Congress intends, 
or would intend, is something similar to bring us consistent 
with other Federal agencies, such as DOD, which has a place-of-
celebration type rule. As written, the draft bill would have us 
recognize any marriage as long as that marriage is valid in any 
State. So, we were questioning whether the intent is really as 
it is written, which would basically change marriage rules for 
all States, so----
    Chairman Isakson. If you would, if you would file that 
comment with us for the record----
    Mr. McLenachen. Yes, sir.
    Chairman Isakson [continuing]. With Mr. Bowman, my Staff 
Director, I would appreciate it.
    Mr. McLenachen. We would be happy to help out with 
addressing that.
    Chairman Isakson. Any other comment? [No response.]
    If not, I want to thank panel one for their expeditious and 
forthright testimony and call panel two.
    I'll also draft Senator Casey from Louisiana to be our new 
Chairman in about 8 minutes. [Laughter.]

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Well, it is Cassidy, so we had better get 
that right. [Laughter.]
    Chairman Isakson. Oh, what did I say? What did I say?
    Senator Cassidy. You said Casey.
    Chairman Isakson. Oh, I am sorry.
    Senator Cassidy. My wife----
    Chairman Isakson. I do not know why I would do that. Are 
you going to be here for a little bit?
    Senator Cassidy. I will be here for, like, 20 minutes.
    Chairman Isakson. Well, you and I will be leaving at about 
the same time, so--thanks for coming. [Pause.]
    I would like to welcome the second panel. What I am going 
to do, for all of your benefit, Senator Gillibrand is on the 
way. If she gets here during your testimony, we are going to 
allow her to interrupt that testimony and make her 
presentation.
    I have to walk out of here at 3:45 to meet with Secretary 
McDonald. Senator Cassidy, as long as he can stay, I am going 
to designate him to be the presiding officer. If he cannot stay 
any longer, then before I get back, I am going to designate him 
the authority to suspend the hearing until I do get back. Is 
that fair enough to everybody?
    [Panel nodding in agreement.]
    Chairman Isakson. Our second panel is made up of Alphonso 
Maldon, Jr., Chairman, Military Compensation and Retirement 
Modernization Commission; accompanied by Michael Higgins, 
Commissioner, Military Compensation and Retirement 
Modernization Commission.
    Jeffrey E. Phillips, Executive Director of the Reserve 
Officers Association.
    And, Aleks Morosky, Deputy Legislative Director, National 
Legislative Service, Veterans of Foreign Wars.
    Gentlemen, welcome. Mr. Higgins, we will hear from you 
first.
    Mr. Higgins. Sir, I will defer to my Chairman, Chairman 
Maldon.
    Chairman Isakson. You are the date, that is right. I 
forgot.
    Mr. Higgins. I am the date.
    Chairman Isakson. Mr. Maldon.

     STATEMENT OF ALPHONSO MALDON, JR., CHAIRMAN, MILITARY 
     COMPENSATION AND RETIREMENT MODERNIZATION COMMISSION; 
        ACCOMPANIED BY MICHAEL R. HIGGINS, COMMISSIONER

    Mr. Maldon. Thank you, Mr. Chairman. Chairman Isakson and 
Members of the Committee, Commissioner Higgins and I are 
honored to be here today and we thank you for the opportunity 
to speak to you about the work of the Commission and the 
recommendations that we have made.
    The all-volunteer force is without peer. Their unwavering 
commitment to excellence in the service of our Nation has never 
been clearer than during the past 13 years of war.
    As Commissioners, we recognize our obligation to craft a 
valued compensation system that is both relevant to 
contemporary servicemembers and able to operate in a modern and 
efficient manner. Our Commissioners are unanimous in our belief 
that the recommendations we offered in our report strengthen 
the foundation of the all-volunteer force, ensure our national 
security, and truly honor those who served and the family 
members who support them now and into the future.
    In particular, our recommendations safeguard education 
benefits to servicemembers, reduce redundancy, and ensure the 
fiscal sustainability of educational programs. DOD and the VA 
provide many programs that deliver educational benefits to 
servicemembers and veterans, including the Post-9/11 G.I. Bill, 
the Montgomery G.I. Bill-Active Duty, the Montgomery G.I. Bill-
Select Reserve, and the Reserve Education Assistance Program, 
as well as the tuition assistance. Streamlining these programs 
would improve the efficiency and fiscal sustainability of the 
overall education benefit program.
    Adjusting eligibility requirements for transferring Post-9/
11 G.I. Bill benefits better support critical mid-career 
retention and aligns with retention incentives in the 
Commission's retirement recommendations.
    Eliminating the housing stipend for transferred benefit 
encourages younger veterans to use the education benefit 
themselves while improving fiscal sustainability.
    Our recommendation also better prepares servicemembers for 
transition to civilian life by expanding education and granting 
States more flexibility to administer the Jobs for Veterans 
State Grant Program.
    DOD should require mandatory participation in the 
Transition GPS education track for servicemembers planning to 
attend school after separation or those who have transferred 
their Post-9/11 G.I. Bill benefits.
    The Department of Labor should permit State Departments of 
Labor to work directly with State VA offices to coordinate 
administration of the Jobs for Veterans State Grant Programs.
    One-stop Career Center employees should attend 
transitioning GPS classes to develop personal connections with 
transitioning veterans.
    A review of the core curriculum for Transition GPS should 
be required to re-evaluate whether the current curriculum 
accurately addresses the needs of transitioning servicemembers.
    DOD, VA, and DOL should be required to produce a one-time 
joint report regarding the challenges employers face when 
seeking to hire veterans.
    In closing, Mr. Chairman, we again thank you for the 
opportunity to be here today. It has been our honor and 
privilege to serve American servicemembers, veterans, and their 
families as we have assessed the current compensation and 
retirement programs, deliberated the best path to 
modernization, and offered our recommendations. We are 
confident that our recommendations, if adopted, will indeed 
serve our servicemembers in a positive, profound, and lasting 
way.
    We are pleased to answer any questions you have, Mr. 
Chairman.
    [The prepared statement of Mr. Maldon follows:]
    Prepared Statement of Alphonso Maldon, Jr., Chairman, Military 
 Compensation and Retirement Modernization Commission; accompanied by 
                    Michael R. Higgins, Commissioner
Representative of:
Hon. Alphonso Maldon, Jr., Chairman
Hon. Larry L. Pressler
Hon. Stephen E. Buyer
Hon. Dov S. Zakheim
Mr. Michael R. Higgins
General Peter W. Chiarelli, United States Army (Ret.)
Admiral Edmund P. Giambastiani, Jr., United States Navy (Ret.)
Hon. J. Robert Kerrey
Hon. Christopher P. Carney

    Chairman Isakson, Ranking Member Blumenthal, distinguished Members 
of the Committee: We are honored to be here and thank you for the 
opportunity to testify today.
    Our All-Volunteer Force is without peer. This fact has been proven 
during the last 42 years and decisively reinforced during the last 13 
years of war. It is our obligation to ensure the Nation has the proper 
resources to support our veterans. Those resources include a valued 
compensation system that is relevant to contemporary Servicemembers and 
veterans, and that is operated in a modern and efficient manner. We are 
unanimous in our belief that our recommendations strengthen the 
foundation of the All-Volunteer Force and ensure our national security, 
now and into the future.
    Our work represents the most holistic and comprehensive review of 
military compensation and benefits since the inception of the All-
Volunteer Force. Our Interim Report, published in June, 2014, documents 
the relevant laws, regulations, and policies; associated appropriated 
Federal funding; and historical and contextual backgrounds of more than 
350 compensation programs. Consistent with our Congressional mandate, 
programs were reviewed to determine if modernization would ensure the 
long-term viability of the All-Volunteer Force, enable the quality of 
life for members of the Armed Forces and the other Uniformed Services, 
and achieve fiscal sustainability for compensation and retirement 
systems.
    Our report is informed by our life-long experiences, but more 
importantly by the insights of a broad range of Servicemembers, 
veterans, retirees, and their families. More than 150,000 current and 
retired Servicemembers responded to the Commission's survey. The 
Commission visited 55 military installations, affording us the 
opportunity to discuss compensation issues with Servicemembers 
worldwide. We developed an ongoing working relationship with more than 
30 Military and Veteran Service Organizations. We also received input 
from more than 20 Federal agencies; several Department of Defense 
working groups; and numerous research institutions, private firms, and 
not-for-profit organizations.
    Our recommendations align compensation and benefit programs to the 
preferences of the modern Force and societal shifts since the inception 
of the All-Volunteer Force. By maintaining or improving benefits, while 
concurrently reducing costs, our recommendations address the ongoing 
tension between maintaining Servicemember benefits and reducing 
personnel budgets to meet the demands of the new fiscally constrained 
environment.
    11. safeguard education benefits for servicemembers by reducing 
redundancy and ensuring the fiscal sustainability of education programs
    DOD and the VA provide many programs that deliver educational 
benefits to Servicemembers and veterans. Current education assistance 
programs include the Post-9/11 GI Bill, the Montgomery GI Bill Active 
Duty, the Montgomery GI Bill Selected Reserve, the Reserve Education 
Assistance Program, and Tuition Assistance. There are duplicative and 
inefficient education benefits that should be streamlined to improve 
the sustainability of the overall education benefits program.
    Montgomery GI Bill Active Duty should be sunset on October 1, 2015. 
Reserve Education Assistance Program (REAP) should be sunset, 
restricting any further enrollment and allowing those currently 
pursuing an education program with REAP to complete their studies. 
Already enrolled Servicemembers who elect to switch to the Post-9/11 GI 
Bill should receive a full or partial refund of the $1,200 that was 
paid to buy in to the MGIB-AD. Eligibility requirements for 
transferring Post-9/11 GI Bill benefits should be increased to 10 years 
of service, plus an additional commitment of 2 years of service. The 
housing stipend for dependents should be sunset on July 1, 2017. 
Eligibility for unemployment compensation should be eliminated for 
anyone receiving housing stipend benefits under the Post-9/11 GI Bill. 
When providing feedback in comments to the Commission, Servicemembers 
repeatedly emphasized the importance of education benefits as 
recruiting and retention tools. Ensuring the robustness of education 
programs is one of the best ways to guarantee the future of the All-
Volunteer Force. This recommendation would also support GI Bill 
benefits, including transferability, while improving their fiscal 
sustainability.
 12. better prepare servicemembers for transition to civilian life by 
expanding education and granting states more flexibility to administer 
               the jobs for veterans state grants program
    DOD, in partnership with the Department of Labor, the VA, and the 
Small Business Administration, maintains the Transition GPS program to 
help Servicemembers and their families prepare for a successful 
transition to civilian life. Transition GPS services are delivered 
through a series of workshops administered by each Service. The DOL 
administers One-Stop Career Centers which offer employment services for 
job seekers across the country, including veterans after they have 
transitioned to civilian life. These facilities are part of state 
workforce agencies or employment commissions and are partially funded 
through a number of grants under DOL's Jobs for Veterans State Grants 
program. Despite these services, transitioning from military service to 
civilian life is more difficult than it needs to be. DOD should require 
mandatory participation in the Transition GPS education track for 
Servicemembers planning to attend school after separation or those who 
have transferred their Post-9/11 GI Bill benefits. The Department of 
Labor should permit state departments of labor to work directly with 
state VA offices to coordinate administration of the Jobs for Veterans 
State Grants program. Furthermore, One-Stop Career Center employees 
should attend Transition GPS classes to develop personal connections 
with transitioning veterans. A review of the core curriculum for 
Transition GPS should be required to reevaluate whether the current 
curriculum accurately addresses the needs of transitioning 
Servicemembers, and DOD, VA, and DOL should be required to produce a 
one-time joint report regarding the challenges employers face when 
seeking to hire veterans.
    Thank you again for the opportunity to testify regarding our 
recommendations. We also want to thank all who contributed to our final 
report. The Commission is grateful to have been given the opportunity 
to make recommendations to strengthen the best All-Volunteer Force in 
the world. Ensuring our Servicemembers, veterans, retirees, and their 
families' get the support they need is a responsibility the Commission 
took very seriously. Thank you to all those who serve, those who have 
served, and the families that support them.

    Chairman Isakson. Thank you very much, Mr. Maldon, for your 
testimony.
    I am going to ask Mr. Phillips, if he would, give Senator 
Gillibrand his seat. Senator Gillibrand.
    Mr. Phillips. It would be my honor.
    Chairman Isakson. This is a non-conventional meeting of the 
Veterans' Affairs Committee, I can tell you that. [Laughter.]
    Mr. Phillips. We are flexible.
    Senator Gillibrand. Thank you.
    Chairman Isakson. Roberts Rules of Order do not include all 
of this, but we have all got a SASC meeting today----
    Senator Gillibrand. Yes.
    Chairman Isakson. We are meeting here and there are a lot 
of other important meetings. We want to make sure you are 
recognized to present your bill, understanding that when you 
complete your presentation, I am going to turn over the 
chairmanship of the Committee to Mr. Cassidy, who will finish 
the hearing, as long as he can stay.
    So, Senator Gillibrand from New York, you are on.

             STATEMENT OF HON. KIRSTEN GILLIBRAND, 
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman, and I do thank 
you for letting me come now. We are in the middle of the Armed 
Services markup, so it was for good reason.
    Today's hearing on S. 681, the Blue Water Navy Vietnam 
Veterans Act of 2015, is a very important piece of legislation 
that I have talked to veterans over the last 10 years about. 
This piece of legislation would ensure that thousands of brave 
veterans who were exposed to Agent Orange during the Vietnam 
War receive VA care for illnesses related to their Agent Orange 
exposure.
    Agent Orange was dangerous. It was toxic. It was poisonous. 
It filled the air and poisoned the water and severely damaged 
the health of the people who were exposed to it. The U.S. 
Government has recognized the harmful effects of Agent Orange 
since the 1960s and the VA actively provides care and coverage 
to many soldiers who were exposed to Agent Orange.
    The problem we face today is that under current VA rules, 
the only U.S. veterans who are counted as having been exposed 
to this deadly chemical are the people who were actually on the 
ground, on Vietnamese soil, and the people who served on boats 
on Vietnam rivers, referred to as Brown Water Veterans. But, 
the current VA rules exclude the thousands of Navy veterans who 
were stationed on ships just off the Vietnamese coastline. This 
does not make any sense and it is not fair to these men and 
women.
    Agent Orange did not discriminate between those who stood 
on boats on rivers and those who stood on boats offshore. So, 
why should the VA discriminate between the two?
    Because of this arbitrary and bureaucratic rule, thousands 
of our Navy veterans are suffering. It is time to right this 
wrong. Let us cut the red tape that is causing additional 
suffering.
    Bobby Condon is one of those veterans. He is from Brooklyn. 
He joined the Navy when he was a teenager and he went to 
Vietnam at the age of 18 because he wanted to serve our 
country. Like countless others, Bobby was exposed to Agent 
Orange in Vietnam. He served on the U.S.S. Intrepid, which is 
now a world class museum on the Hudson River in New York City, 
which my little boys love.
    Bobby moved propeller planes and bomber jets on the 
Intrepid's flight deck. These planes had dropped Agent Orange 
and after their missions were done still contained its residue. 
It was Bobby's job to handle these planes. Bobby was a serial 
nail biter, and he believes that Agent Orange toxins seeped 
into his body when he bit his nails. Bobby is in his late 60s 
now and suffers from leukemia, a disease linked to Agent Orange 
exposure. He has been dealing with it for almost 20 years.
    So, what do you think the Department of Veterans Affairs 
did when Bobby first went to them for coverage? They said, 
sorry, your boat was here, not here, so we cannot help you. 
Sorry, you did not have boots on the ground. All those Blue 
Water Navy veterans like Bobby were being let down. Bobby said 
it best. He said, ``All I wanted is what I deserve.''
    We have an obligation to give back to the brave men and 
women who risked their lives for us, because each day that we 
delay passage of this bill, Vietnam veterans continue to become 
ill and go bankrupt from trying to pay medical bills because 
they are unable to receive coverage from the VA.
    Mr. Chairman, because of this urgent issue, I request that 
this Committee mark up this legislation and expeditiously 
report it favorably to the floor for consideration by the full 
Senate.
    I would also like to add to the record remarks by Senator 
Daines, who is the cosponsor of this bill. He is extremely 
grateful that this hearing is being held, and he fundamentally 
believes that our veterans do not deserve subpar care. He 
believes it is unacceptable that a technicality in the law and 
a dysfunctional Federal bureaucracy has resulted in the 
prolonged suffering of thousands of our Nation's heroes. He 
knows this legislation would make a difference. I submit his 
statement for the record.

    [The prepared statement of Senator Steve Daines of Montana 
can be found in the Appendix.]

    Senator Gillibrand. Thank you, Mr. Chairman, and thank you 
for your indulgence.
    Chairman Isakson. Well, thank you, Senator Gillibrand. For 
your information, the Committee will have a markup on your bill 
and the others that are being presented today sometime in the 
month of June.
    Senator Gillibrand. Thank you.
    Chairman Isakson. You will be notified, as well as Senator 
Daines. We appreciate your interest in the Committee and the 
veterans.
    Senator Gillibrand. Thank you very much.
    Chairman Isakson. Mr. Phillips, at this point in time, I am 
going to use executive privilege and turn over to Senator 
Cassidy the gavel to conduct the rest of the hearing until I 
get back, with explicit instructions to adjourn the hearing if 
I do not get back and everybody is through saying what they 
have got to say. Is that fair enough?
    Just 1 second, Mr. Phillips.
    Senator Cassidy [presiding]. Mr. Phillips, you are next.

 STATEMENT OF JEFFREY E. PHILLIPS, EXECUTIVE DIRECTOR, RESERVE 
                      OFFICERS ASSOCIATION

    Mr. Phillips. Senator Cassidy, distinguished Members of the 
Senate Committee on Veterans' Affairs, and hard working staff, 
thank you for inviting the Reserve Officers Association of the 
United States to testify on issues that affect the National 
Guard and Reserve of our Nation's Armed Forces.
    From north to south, east to west, America's young men and 
women have for more than two centuries affirmed the wisdom of 
our founders in their willingness to engage boldly, selflessly, 
and with great fidelity in the defense of our way of life. 
Among them are those in our Reserve components whose yearning 
for service finds outlet in a particularly demanding regimen. 
They must balance military service, always a consuming and 
uncompromising business, with the demands of a civilian work 
life and the care of their families. They ask only for the 
opportunity, the requisite tools and training, and good 
leadership.
    It is the privilege of us in the advocacy community, such 
as ROA and our fellow service organizations, to look past 
official messaging, seek beyond official policy and existing 
law, and identify opportunities to improve both our Nation's 
resourcing and support of these young patriots and also their 
very employment in the furtherance of our national security.
    The Selected Reserves contribute more than 820,000 members 
of our Armed Forces. Since 9/11, more than 900,000 members of 
the Guard and Reserve have been activated for service in these 
wars. These men and women serve us every day, in remote places 
as well as cities in turmoil right here at home. Each act of 
service incurs personal risk, voluntarily accepted.
    Do you know that many of these members of the Guard and 
Reserve will never be veterans in the eyes of the law? It is on 
behalf of these patriots, as well as a matter of sheer honor, 
that ROA supports S. 743, Honor America's Guard and Reserve 
Retirees Act of 2015.
    A friend of mine, Bonnie Carroll, founded Tragedy 
Assistance Program for Survivors after her husband, an Army 
officer, was killed in a military plane crash. TAPS is expert 
in the care of survivors. They focus on supporting those who 
have lost a loved one in military service, yet provide 
expertise to all who ask. Bonnie herself served 32 years in the 
military, in both the Air National Guard and the Air Force 
Reserve. Because of the requirement to have so many days on 
active duty, she is technically not a veteran. Bonnie is 
focused on others. She would never ask for anything for 
herself. ROA supports this legislation for her and the many 
others like her.
    Title 38 U.S.C. 101 defines a veteran as a person who 
served in the active military, naval, or air service, and who 
was discharged or released therefrom under conditions other 
than dishonorable. The word ``active'' is left very generally 
here. Ladies and gentlemen, is there any doubt that Reserve 
component members have met and do meet this definition?
    S. 743 helps recognize the fidelity of service demonstrated 
by members of our Reserve components. We urge passage.
    Another bill that supports equity is S. 681, the Blue Water 
Navy Vietnam Veterans Act of 2015. The Department of Veterans 
Affairs in 1991 extended presumption of Agent Orange exposure 
to Vietnam veterans, yet some veterans who were exposed to 
toxins such as Agent Orange while serving in trust and good 
faith have yet to be served in return.
    Blue Water veterans of the naval services were likely 
exposed to Agent Orange, and the Institute of Medicine 
recommended these veterans not be excluded from presumption of 
exposure. Air Force Reserve C-123 air crews were also exposed 
to Agent Orange. They deserve inclusion for service disability 
in connection with Agent Orange exposure, and ROA is working on 
that.
    Many warriors since World War I have been exposed to toxins 
and related risks, be it mustard gas, asbestos, Agent Orange, 
and so forth. We must be accountable for this exposure and the 
resultant effects. We urge the DOD, working with VA, to 
maintain registries of toxin exposure that would help in 
identifying maladies and establishing connections as well as 
treatments, and perhaps offer lessons helpful in the 
responsible use of toxins.
    Finally, S. 602, the G.I. Bill Fairness Act of 2015, will 
correct a disparity, likely one made unintentionally, between 
active and Reserve component members. A Reservist placed on 
orders for medical care no longer earns education benefits. An 
active component servicemember placed in a similar medical 
status does continue to earn education benefits. ROA supports 
the reform offered in S. 602.
    Senator, my time is up, and so we respectfully request our 
written testimony be submitted for the record.
    ROA, chartered by Congress in 1950 to support our national 
defense and those who serve in the Reserve components, 
appreciates the opportunity to respond to the proposed 
legislation today and looks forward to helping the Committee in 
its vitally important work.
    Thank you.
    [The prepared statement of Mr. Phillips follows:]
Prepared Statement of Jeffrey E. Phillips, Executive Director, Reserve 
               Officers Association of the United States
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned, non-commissioned and warrant 
officers of our Nation's seven uniformed services. ROA was founded in 
1922 during the drawdown years following the end of World War I. It was 
formed as a permanent institution dedicated to national defense, with a 
goal to teach America about the dangers of unpreparedness. Under ROA's 
1950 congressional charter, our purpose is to promote the development 
and execution of policies that will provide adequate national defense. 
We do so by developing and offering expertise on the use and resourcing 
of America's reserve components.
    The association's members include Guard and Reserve Soldiers, 
Sailors, Marines, Airmen, and Coast Guardsmen who frequently serve on 
active duty to meet critical needs of the uniformed services. ROA's 
membership also includes commissioned officers from the United States 
Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security.
President:
        Brigadier General Michael Silva, U.S. Army Reserve (Ret.)
                202-646-7706
Executive Director:
        Jeffrey Phillips
                202-646-7726
Legislative Director:
        Lieutenant Colonel Susan Lukas, U. S. Air Force Reserve (Ret.)
                202-646-7713
               disclosure of federal grants or contracts
    The Reserve Officers and is a member-supported organization. ROA 
has not received grants, contracts, or subcontracts from the Federal 
Government in the past three years. All other activities and services 
of the associations are accomplished free of any direct Federal 
funding.
    On behalf of our members, the Reserve Officers Association thanks 
the Committee for the opportunity to submit testimony on legislation 
proposed by Congress, the Department of Defense and the Military 
Compensation and Retirement Modernization Commission.
                 s. 602, g.i. bill fairness act of 2015
    ROA wholeheartedly supports this proposal to continue eligibility 
for the Post-9/11 GI Bill when a member of the reserve component is 
receiving medical care under Title 10 United States Code (U.S.C.) 
12301(h). Placing reserve component servicemembers on these active duty 
orders is done for administrative purposes and Guard and Reserve 
members should not lose eligibility for education benefits. The change 
in status from one type of order to 10 United States Code 12301(h) is 
done to unencumber direct operation support billets. The change from 
one type of active duty order to another type of order should not be 
seen as change to a lesser duty status. The proposed legislation 
removes the disparity between the reserve component and active 
component, since active duty servicemembers continue to earn education 
benefits when they are in the same medical care status. Title 38 U.S.C. 
3301, which is addressed in the bill, already includes detainee status, 
10 U.S.C. 12301(g), and, therefore, does not need to be part of the 
G.I. Bill Fairness Act of 2015.
          s. 681, blue water navy vietnam veterans act of 2015
    ROA urges Congress to support Blue Water Navy Vietnam Veterans who 
were exposed to Agent Orange when ships manufactured fresh water by 
taking sea water, contaminated with Agent Orange off of the coast of 
Vietnam. This occurred when the rain washed Agent Orange through water 
tributaries to the South China Sea. On board ship, potable water (sea 
water distilled one time) is used for showers, shaving, cooking, 
coffee, laundry and dishwashing, which explains how sailors were 
directly exposed to the contaminated water. Agent Orange is a 
nonsoluble salt that migrates to the sides of the distillation 
equipment. It builds up over time increasing the potency of the 
chemical. The distillation equipment is cleaned on a 36 month regular 
overhaul schedule which means sailors on ship are exposed to Agent 
Orange for a protracted period of time. The Department of Defense does 
not have a toxic exposure policy to identify and study servicemembers 
who are exposed to toxic chemicals even though exposure to toxins has 
occurred in every modern war. A policy that tracks exposure could 
ultimately reduce health care costs through the collection of 
verifiable data rather than rely on designation of presumption status 
through the Department of Veterans Affairs.
    military compensation and retirement modernization commission--
                           education benefits
    Sec 1101: The commission recommendation sunsets the Montgomery G.I. 
Bill for Reserve Educational Assistance Program (MGIB-REAP) in favor of 
the Post-9/11 G.I. education bill. Making this change would end 
education benefits much sooner for Guard and Reserve under the Post-9/
11 option. MGIB-REAP allows servicemembers to use the benefit 10 years 
from the day they leave the Selected Reserve or the day they leave the 
Individual Ready Reserve. For the Post-9/11 education benefit, they 
have 15 years from the last day of their active duty order. For 
example, a reservist is on active duty orders for 90 days until 
March 25, 2015. This means the reservist can use Post-9/11 education 
benefits until March 25, 2030. Under the same orders the reservist 
earns MGIB-REAP and retires from the Selected Reserve on April 1, 2025. 
The reservist's MGIB-REAP benefit can be used 10 years after 
retirement, until April 1, 2035. Guard and Reserve members work at two 
jobs, their civilian job and as reserve component servicemembers. Guard 
and Reserve members have clearly earned both benefits and should be 
able to use the education benefit that best serves their education 
goals or the Post-9/11 G.I. bill should be adjusted to use the same 
MGIB-REAP expiration of benefits criteria for Guard and Reserve.
    Sec 1103: This section applies to the Selected Reserve and 
Individual Ready Reserve when they agree to remain a member of the 
Selected Reserve for at least 4 years after completion of the education 
or training for which the tuition charges are paid. The change allows 
the service Secretary to deny tuition assistance if the education or 
training does not contribute to the servicemember's professional 
development. ROA agrees tuition assistance for professional development 
is reasonable but we are concerned with the subjective manner that 
``professional development'' may be defined. For example, a 
noncommissioned officer is a personnel specialist and is pursuing a 
bachelor of science degree in management with George Mason University, 
which requires a class in calculus. A determination could be made that 
calculus is not considered professional development for a servicemember 
in the personnel career field. The class, if taken in isolation, would 
not qualify for tuition assistance. To overcome that possibility, ROA 
recommends changing the proposed legislation to include any courses 
required by a degree that is considered ``professional development.''
    Sec 1108: ROA has received feedback from our members who state 
transferability of the Post-9/11 G.I. Bill entitlement with a housing 
stipend is a motivating reason why they volunteer for deployments. This 
section terminates the monthly housing stipend beginning on July 1, 
2017. ROA is concern 2017 does not give servicemembers enough time to 
absorb this cost through their budget, savings, or investment planning. 
If Congress goes forward with this change, then ROA recommends 
termination be extended to July 1, 2021 vice July 1, 2017 to ensure all 
family members now matriculated are covered under the current plan.
military compensation and retirement modernization commission (mcrmc)--
                         transition assistance
    SEC 1204: This section recommends, ``The Secretary of Defense, in 
consultation with the Secretary of Veterans Affairs and the Secretary 
of Labor, shall conduct a review of the Department of Defense 
Transition GPS Program Core Curriculum * * * '' and the proposal 
includes several matters that should be reviewed. ROA is concerned that 
the proposed legislation does not include a review of the effectiveness 
of the program for Guard and Reserve servicemembers. Transition Goals, 
Plans, Success (GPS) is divided into several sessions covering 
finances, family adjustments, VA benefits, employment, education and 
small business startups that are very appropriate subjects for active 
component servicemembers who are leaving the service. However, when 
someone in the reserve components separates at the end of their orders, 
they remain in the military and return to their unit. ROA believes the 
proposed legislation should rewrite MCRMC legislative proposal SEC 
1204(a)(2)(A) to change ``* * * needs of members of the Armed Forces 
transitioning out of military service.'' to ``* * * needs of members of 
the Active and Reserve Components of the Armed Forces transitioning out 
of military service.'' This change would more clearly identify that 
Guard and Reserve needs would be considered as a separate category of 
the review.
              department of defense legislative proposals
    Section 514: This section recommends the same legislation as S. 602 
discussed previously.
    Section 522: This proposed change adds two involuntary call-up 
categories (10 U.S.C. 12304a and 12304b) to education benefits in Title 
10, Chapter 1606 and this is supported by ROA. The change is for when a 
servicemember is responding to a major disaster or emergency (123041) 
or a preplanned mission in support of the combatant commanders 
(12304b). This would ensure Title 10 legislation, that created new 
provisions for involuntary call-up in 2011, is included for 
servicemembers to regain lost payments and lost entitlement time for 
the Montgomery G.I. Bill--Selected Reserve (MGIB-SR) benefits. It is 
important that an involuntary call-up should not allow benefits to be 
lost through no fault of the servicemember. This proposal would ensure 
all involuntary service does not result in servicemembers absorbing 
negative impacts to their education benefits, such as, course 
cancellations, tuition repayments or loss of entitlement time.
    Section 542: ROA included the legislative fix to exempt two duty 
statuses added in 2011 to the 5-year reemployment limit in ROA's 2015 
Legislative Plan. The change is for duty status when a servicemember is 
responding to a major disaster or emergency (123041) or a preplanned 
mission in support of the combatant commanders (12304b). USERRA 
significantly strengthens and expands the employment and reemployment 
rights of all uniformed servicemembers. Reemployment rights extend to 
persons who have been absent from a position of employment because of 
``service in the uniformed services,'' which is through the performance 
of duty on a voluntary or involuntary basis. Until the addition of two 
involuntary duty statuses, all involuntary service was exempted from 
the five-year limit but the latest changes were not added to the 
proposed legislative provision. It is important that an involuntary 
call-up should not put an individual beyond the five-year limit and 
cause the individual to lose his or her right to reemployment.
    Section 545: The proposed change to exclude Guard and Reserve 
members from pre-separation counseling when on full-time training duty, 
annual training duty, and attending service school, has merit on the 
face of it, but ROA believes servicemembers should have the option to 
attend pre-separation counseling, if they so need. It is hard to 
anticipate everyone's unique needs and a blanket exclusion from 
receiving the counseling may mean servicemembers do not receive needed 
information.
                 discussion draft legislative proposals
    S. 743: The proposed bill to recognize a reserve component member 
as a veteran, but without benefits, is a legislative goal of The 
Military Coalition (TMC). The TMC, in a letter to bill sponsors, which 
ROA supported, stated, ``The individuals covered by your legislation 
have already earned most of the benefits granted to veterans by the 
Department of Veterans Affairs, and yet they do not have the right to 
call themselves veterans because their service did not include 
sufficient duty under Title 10 orders. Because of this they feel 
dishonored by their government. Your legislation simply authorizes them 
to be honored as ``veterans of the Armed Forces'' but prohibits the 
award of any new benefit. The `Honor America's Guard-Reserve Retirees 
Act of 2015' is a practical way to honor the vital role members of the 
Reserve Components have had in defending our Nation throughout long 
careers of service and sacrifice. And it can be done at no-cost to the 
American tax-payer because of your legislation.''
                               conclusion
    ROA appreciates the opportunity to submit testimony and looks 
forward to working with Congress, whereby, we can offer our support and 
perspective of the reserve components.

    Senator Cassidy. Thank you, Mr. Phillips.
    Mr. Morosky.

   STATEMENT OF ALEKS MOROSKY, DEPUTY LEGISLATIVE DIRECTOR, 
     NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS

    Mr. Morosky. Good afternoon, Mr. Chairman. On behalf of the 
men and women of the Veterans of Foreign Wars and our 
Auxiliaries, I would like to thank you for the opportunity to 
testify on today's pending legislation.
    I would like to open by saying that the VFW generally 
supports all bills and proposals under discussion today and 
thanks the Committee for its good work in bringing them 
forward. Due to time constraints, however, I will focus the 
majority of my statement on the areas in which we believe they 
may be further strengthened.
    The Charlie Morgan Military Spouses Equal Treatment Act: 
The VFW supports this legislation, which amends Title 38 to 
align the definition of marriage with the Supreme Court's 
ruling on the Defense of Marriage Act. Simply put, if a veteran 
is legally married in a State that recognizes same-sex 
marriage, we believe the VA should provide benefits to his or 
her spouse or surviving spouse the same way it does for every 
other legally married veteran.
    The G.I. Bill Fairness Act: The VFW supports this 
legislation, which would require VA to consider time spent by 
members of the Reserve component receiving medical care for 
service-connected injuries for the purposes of determining 
eligibility for the Post-9/11 G.I. Bill. We believe the time it 
takes to recuperate from service-connected injuries is still 
time in service to the country and that Reservists and 
Guardsmen should be recognized for that sacrifice.
    Furthermore, we urge Congress to address another inequity 
that we have identified in Post-9/11 G.I. Bill eligibility 
determination. The VFW believes that any member of the Armed 
Forces who was wounded in action should be deemed 100 percent 
eligible, regardless of how long they served on active duty.
    S. 627: The VFW strongly supports the intent of this 
legislation, which would require the Secretary to retroactively 
rescind bonuses paid to VA employees who were later found to 
have manipulated wait time data by purposefully omitting any 
veteran's name from the electronic wait list as identified by 
an investigation by the Inspector General. The VFW strongly 
believes that employee accountability is critical to correcting 
past problems at VA and restoring trust of the veterans that 
they serve. Employees must realize that deliberately delaying 
or withholding care from a veteran is unacceptable and will not 
be tolerated under any circumstances, much less rewarded.
    With that said, the VFW also recognizes that many front-
line employees may have been coerced into these dishonest 
practices by their superiors. For far too long, whistleblower 
protections were not properly enforced at VA, and lower-level 
employees were often subjected to intimidation and threats of 
reprisal by their superiors if they did not comply with 
business practices that may have been dishonest. For this 
reason, we ask that the IG report also be required to determine 
which, if any, employees were coerced into their actions by 
their superiors and allow the Secretary to make a decision on 
whether or not those employees should be spared punishment on 
that basis.
    The Blue Water Navy Vietnam Veterans Act: The VFW strongly 
supports this legislation, which would extend presumptive 
service connection in health care for Agent Orange-related 
illnesses to Blue Water Navy veterans. We have long maintained 
that it is arbitrary and unjust that veterans who serve aboard 
ships in the coastal waters of veteran are denied presumptive 
benefits associated with Agent Orange exposure.
    The 21st Century Veterans Benefits Delivery Act: The VFW 
supports this important legislation, but has two suggestions 
which we believe would strengthen it further. First, we would 
ask that the bill be amended to indicate that VA shall notify 
the veteran of their right to an in-person hearing and shall 
grant such a request. Second, while the VFW supports the 
Comptroller General audit provision, we are not certain that 
the Comptroller can hire sufficient subject matter experts to 
conduct the review in the allotted time. For this reason, we 
would suggest that the Committee consider narrowing the scope 
of the study or extending the amount of time that the 
Comptroller has to conduct the review.
    The VFW generally supports all MCRMC and DOD 
recommendations except Section 545, which would allow DOD to 
not offer TAP to certain Reserve component members who are not 
activated. Although we understand that there are certain 
operational limitations for Reserve units that make it 
difficult for them to offer the full TAP course, we believe a 
better alternative, in our opinion, would be offering a 
condensed TAP course to these servicemembers.
    Finally, the draft legislation, the VFW supports all 
sections of this bill except Section 205, for which we have no 
position. Also, we support Section 206, which would require VA 
to submit reports on its disability medical exams process and 
the extent to which it is able to prevent unnecessary medical 
examinations. We would suggest, however, that the reporting 
requirement also include how many specialty examinations were 
ordered in cases where the veteran had already submitted a 
disability benefits questionnaire completed by a non-Department 
physician. This will help us understand the extent to which the 
information submitted in those cases is accepted by VA as 
adequate for deciding claims.
    Mr. Chairman, Members of the Committee, this concludes my 
statement and I am happy to answer any questions you may have. 
Thank you.
    [The prepared statement of Mr. Morosky follows:]
    Prepared Statement of Aleks Morosky, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of The United States
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee, On behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on today's pending 
legislation.
  s. 270, charlie morgan military spouses equal treatment act of 2015
    The VFW supports this legislation, which amends title 38, United 
States Code, to align the definition of marriage with the Supreme 
Court's ruling of the Defense of Marriage Act. Simply put, if a veteran 
is legally married in a state that recognizes same-sex marriage, the 
Department of Veterans Affairs (VA) is obligated to provide survivor 
benefits to his or her spouse or surviving spouse the same way it does 
for every other legally married veteran. The VFW believes that a 
veteran is a veteran and their benefits should be provided fairly 
across the board.
                 s. 602, g.i. bill fairness act of 2015
    The VFW supports legislation requiring VA to consider time spent by 
members of the reserve components while receiving medical care for 
service-connected injuries for purposes of determining eligibility for 
the Post-9/11 GI Bill. In 2002, the Assistant Secretary of Defense for 
Reserve Affairs accurately stated, ``the current reserve component 
status system is complex, aligns poorly to current training and 
operational support requirements, fosters inconsistencies in 
compensation and complicates rather than supports effective 
budgeting.'' There is no better illustration of this statement than the 
fact that recovering guardsmen and reservists are ineligible for the 
same GI Bill benefits as their active duty counterparts. We urge 
Congress to act swiftly to end this unequal treatment by passing 
S. 602.
    Furthermore, we urge Congress to draft legislation that addresses 
additional GI Bill benefits inequities between war veterans from the 
reserve component, non-wartime veterans, and dependents. Currently, a 
Marine reservist could potentially deploy to a combat zone, receive a 
Purple Heart and still only receive 60 percent of his or her Post-9/11 
GI Bill. Similarly, a Guardsman, who deploys twice to a combat zone, 
may only receive 80 percent of his or her Post-9/11 GI Bill benefit. 
Meanwhile, a dependent of an active duty veteran who may never have 
deployed to combat at all, could receive 100 percent of the Post-9/11 
GI Bill benefit, regardless of the dependent's affiliation with the 
military in their adult life. The eligibility requirement for reserve 
component members is inherently unjust, and we ask Congress to increase 
Post-9/11 GI Bill benefits for reserve component members who serve in a 
combat zone, especially for those wounded in action.
s. 627, to require the secretary of veterans affairs to revoke bonuses 
 paid to employees involved in electronic wait list manipulations, and 
                          for other purposes.
    The VFW supports the intent of this legislation which would require 
the Secretary to retroactively rescind bonuses paid to VA employees who 
are later found to have manipulated wait time data by purposefully 
omitting any veteran's name from the electronic wait list, as 
identified by an investigation by the Inspector General (IG).
    The VFW strongly believes that employee accountability is critical 
to correcting past problems at VA and restoring the trust of the 
veterans they serve. Employees must realize that deliberately delaying 
or withholding care from a veteran is unacceptable and will not be 
tolerated under any circumstances, much less rewarded. In addition, 
supervisors who were aware of data manipulation practices by the 
employees below them must also be held equally accountable, as provided 
for in this legislation.
    With that said, the VFW also recognizes that many front-line 
employees may have been coerced into these dishonest practices by their 
superiors. For far too long, whistleblower protections were not 
properly enforced at VA, and lower level employees were often subjected 
to intimidation and threats of reprisal by their superiors if they did 
not comply with business practices that may have been dishonest. The 
VFW believes that this culture is changing at VA. Still, we believe 
employees who may have acted out of fear of reprisal were not directly 
responsible for the data manipulation that took place at some 
facilities. For this reason, we ask that the IG report also be required 
to determine which if any employees were coerced into their actions by 
their superiors, and allow the Secretary to make a decision on whether 
or not those employees should be spared punishment on that basis.
          s. 681, blue water navy vietnam veterans act of 2015
    The VFW strongly supports this legislation, which would require VA 
to include territorial seas as part of the Republic of Vietnam, 
extending presumptive service connection and health care for Agent 
Orange-related illnesses to Blue Water Navy veterans. We have long 
maintained that it is arbitrary and unjust that veterans who served 
aboard ships in the coastal waters of Vietnam are denied presumptive 
benefits associated with Agent Orange exposure. We believe that those 
veterans were potentially exposed to significant levels of toxins, and 
should be granted the same presumption of service connection as their 
counterparts who served on the mainland of Vietnam.
          s. 1203, 21st century veterans benefits delivery act
    This legislation would revise or add many provisions regarding the 
way in which the Department of Veterans Affairs administers veterans' 
claims for benefits, and the VFW worked closely with Senators Heller 
and Casey during its drafting. While the VFW supports this bill, we 
need to ensure its language is perfectly clear. Therefore, we recommend 
the Committee amend two sections of the bill to ensure veterans are 
fully aware of their rights and that the proposed Comptroller General 
audit is effective:

    Section 103 allows the Board of Veterans Appeals to use video 
teleconferencing (VTC) as the default method for hearings. While 
conducting hearings though VTC will expedite the adjudication of claims 
and eliminate substantial travel costs to veterans and the 
Administration, we feel that veterans should be made aware of the 
option to attend hearings in person. Therefore, we recommend the 
Committee amend the bill to indicate that the VA ``shall'' notify the 
veteran of their right to an in-person hearing and ``shall'' grant such 
a request.
    Section 201 requires the U.S. Comptroller General to audit all 
Veterans Benefits Administration Regional Offices (VARO) to assess the 
consistency of rating decisions. A thorough study would require the 
collection of a representative sample of decisions by disability to 
review them for similarities and note different outcomes. The VFW does 
not oppose the provision, but we worry that the Comptroller cannot hire 
sufficient subject matter experts to conduct the review in the time 
allotted. The Committee should consider whether another option may be 
more feasible, such as narrowing the scope of the study or extending 
the amount of time the Comptroller has to conduct the review.
  draft bill, veterans' compensation cost-of-living adjustment act of 
                                  2015
    The VFW strongly supports this legislation which will increase VA 
compensation for veterans and survivors, and adjust other benefits, by 
providing a cost-of-living adjustment (COLA) beginning December 1, 
2015.
    Disabled veterans, along with their surviving spouses and children, 
depend on their disability and dependency and indemnity compensation to 
bridge the gap of lost earnings and savings caused by the veteran's 
disability. Each year, veterans wait anxiously to find out if they will 
receive a cost-of-living adjustment. There is no automatic trigger that 
increases these forms of compensation for veterans and their 
dependents. Annually, veterans wait for a separate Act of Congress to 
provide the same adjustment that is automatically granted to Social 
Security beneficiaries.
    The VFW is pleased that this legislation does not contain the 
``rounding down'' of the COLA increase. This is nothing more than a 
money-saving device that comes at the expense of veterans and their 
survivors.
     military compensation and retirement modernization commission 
                         legislative proposals
Recommendation 11
    The Commission recommended that the VA consolidate all education 
benefits into a single program, extend the time commitment required to 
obtain the transferability benefit and eliminate the Basic Housing 
Allowance for dependents. The VFW played an integral role in passing 
the Post-9/11 G.I. Bill and we have a vested interest in ensuring that 
the veterans who utilize this robust benefit receive quality 
educational and vocational training outcomes. Military and veterans' 
education benefits provide a critical tool to ensure that those who 
have defended our Nation can compete for the best jobs when they leave 
service. We believe the country has a vested interest in ensuring that 
Federal education dollars for our military men and women are not 
abused.
    The Commission takes issue with a prioritization of veterans' needs 
and the Defense Department's incentive to allow servicemembers to 
transfer their GI Bill benefits to their dependents. The G.I. Bill's 
primary use should be to help veterans reintegrate into civilian life 
by providing the education and skills necessary to gain meaningful 
employment, but providing transferability of one's G.I. Bill benefit 
has been a critical tool in retaining mid-career servicemembers. The 
G.I. Bill must be a transition benefit first, and the transition aspect 
should never provide a greater benefit to dependents than it does to 
veterans.
    The Commission recommended ``duplicative education assistance 
programs should sunset to reduce administrative costs and to simplify 
the education benefits system.'' To do so, Congress would have to 
choose between two options. First, extend full Post-9/11 G.I. Bill 
benefits to all servicemembers and veterans, including all reserve 
component members. The second option would be to create a scaled system 
in which certain categories of veterans will receive different 
percentages of the G.I. Bill depending on whether they served on active 
duty, reserve status or during a time of war, similar to how VA awards 
a certain percentage of the Post-9/11 G.I. Bill to reserve component 
servicemembers today. If these programs are set to expire, Congress 
needs to ensure that war veterans, including guardsmen and reservists, 
should not receive less of a benefit than dependents or other veterans.
Recommendation 12
    The VFW supports the Commission's recommendations for Congress to 
reevaluate the current Transition Goals, Plans, Success (GPS) 
curriculum, encourage state collaboration in coordinating the Jobs for 
Veterans State Grants (JVSG) program, encourage employees to attend 
Transition GPS classes and require a joint report from Department of 
Defense (DOD), VA, and Department of Labor (DOL) on the challenges 
employers face when seeking to hire veterans. Over the past few years, 
this Committee's work has produced a significant evolution in the way 
the military prepares transitioning servicemembers for civilian life. 
Positive changes include mandatory Transition Assistance Program (TAP) 
for all servicemembers, the creation of the Off-Base Transition 
Training (OBTT) pilot program, and a complete redesign of a TAP 
curriculum. The Commission's recommendations will build on the good 
work the Committee and agencies have already accomplished.
    The VFW supports ensuring that transitioning servicemembers have 
access to the full suite of transitional training, should they so 
choose, because transitioning servicemembers have no reasonable way to 
anticipate the specific challenges they will face after leaving the 
military. However, the VFW understands the operational limitations in 
mandating such participation across the military. That is why the VFW 
supports supplementing the mandatory portion of TAP with access to all 
the track curricula through online resources. DOD recently took a major 
step by allowing transitioning servicemembers to audit the modules 
through the secure Joint Knowledge Online (JKO) portal. The VFW stands 
firm on the idea that online resources must be seen as a supplement to 
in-person TAP, not a replacement.
    The VFW believes that DOD must fully implement its information 
sharing agreement with DOL to ensure that state workforce development 
agencies would have consistent access to the names of veterans leaving 
the military and relocating to their areas. When armed with this 
information, employment counselors could reach out directly to recently 
transitioned veterans and speak to them face to face to ensure that 
they fully understand what is available to them locally. Unfortunately, 
the proposed information sharing agreement was delayed, and only 
started as a pilot in January of this year. DOL first informed the VFW 
that it was working to codify the agreement in 2012. It is now 2015. At 
this point, the VFW believes it is unacceptable that DOD and DOL have 
yet to implement this concept fully.
    Another solution is to continue to bolster the post-service 
availability of TAP. By facilitating large-scale, community-based TAP 
classes, OBTT serves veterans who would not have had access to the 
material, or who could only receive comparable information by meeting 
one on one with employment counselors at an American Jobs Center. 
Moreover, the program was very cost effective, costing only $52,052 to 
administer the entire pilot. Unfortunately, the OBTT pilot expired in 
January 2015, and DOL will not have information on employment outcomes 
for participants for another year. The VFW believes that OBTT should be 
a permanent program, but until we have final data on the OBTT pilot, 
Congress should pass an extension of the pilot.
   department of defense legislative proposals--regarding education 
  benefits, transition assistance program and advisory board on dose 
                             reconstruction
Section 114
    As previously mentioned, the VFW supports amending Title 38 so that 
reserve component members who spend time on active duty for the purpose 
of receiving medical care accrue time for the GI Bill eligibility. We 
agree with DOD and Senator Wyden that reserve component members, who 
answer the call to active duty and served under similar conditions as 
their active counterparts, deserve to have their service equally 
honored.
Section 522
    The VFW supports amending Chapter 1606 of title 10, so 
servicemembers who are unable to complete their studies due to 
mobilization do not lose valuable G.I. Bill benefits. Occasionally 
servicemembers receive mobilization orders in the middle of the 
semester and have no choice but to immediately drop their classes. 
Schools or the Federal Government should never penalize servicemembers 
for answering the call to service. Therefore, we recommend that the 
Committee adopt DOD's proposal to amend title 10, United States Code, 
12304a and 12304b to ensure a servicemember's education benefits are 
not lost when called to active duty.
Section 542
    We support amending section 4312 of title 38 to ensure that the 
time servicemembers spend on involuntary mobilization orders does not 
count toward the cumulative 5-year service limit under Uniformed 
Service Employment and Reemployment Rights Act (USERRA). In order to 
maintain your right for reemployment under USERRA, your cumulative 
periods of uniformed service, relating to the employer relationship for 
which you seek reemployment, must not exceed five years. This proposal 
will ensure that Congress's original intent to exempt all involuntary 
service from the 5-year limit is consistent with DOD practices under 
sections 12304a and 12304b of title 10.
Section 545
    The VFW opposes any effort to limit any servicemember's access to 
the Transition Assistance Program. Reserve component servicemembers 
often face unique challenges when bouncing back and forth from active 
to reserve duty. Many reserve component members do not realize the 
rights, resources, and benefits that Congress has created for them. 
Unfortunately, reserve component members already have limited, if any, 
access to the services provided by the Transition Assistance Program. 
Before Congress grants DOD the authority to further exempt reserve 
component members from receiving TAP, we believe that Congress and DOD 
should collaborate to find new ways to extend TAP to reserve component 
members. One possible solution would be to create a pilot program where 
the military services offer a 1-day condensed TAP class that reserve 
units could provide their members on a drill weekend. A special TAP 
class would ensure that reserve component members understand the 
resources available to them for when they mobilize and transition back 
to reserve status successfully, without interrupting the unit's annual 
training schedule.
   draft bill, to amend title 38, united states code, to modify the 
treatment under contracting goals and preferences of the department of 
veterans affairs for small businesses owned by veterans, to carry out a 
 pilot program on the treatment of certain applications for dependency 
  and indemnity compensation as fully developed claims, and for other 
                               purposes.
    The VFW supports section 101, which would allow the surviving 
spouse of a deceased veteran business owner to continue operating the 
business as a service-disabled veteran-owned small business (SDVOSB) 
for a period of three years following the veteran's death. Current law 
only allows a surviving spouse to do so if the veteran was 100 percent 
disabled or died from a service- connected disability. This is a 
necessary protection that allows for a transition period for the 
bereaved spouse to restructure the business as necessary. The VFW 
believes that this protection should be extended to all surviving 
spouses under the SDVOSB program.
    Section 102 would allow the surviving spouse or dependent child of 
a servicemember who owns a business and is killed in the line of duty 
to continue operating the business as though it were owned by a veteran 
with a service-connected disability. This status would last until the 
dependent relinquishes at least 51 percent ownership, the spouse 
remarries, or after a period of ten years. The VFW supports this 
section.
    Section 201 would clarify that VA has a duty to assist by obtaining 
a medical opinion for veterans making service-connected disability 
claims related to military sexual trauma (MST), when the medical 
evidence does not contain a diagnosis or opinion by a mental health 
professional. The VFW supports this section. In addition, we strongly 
believe that the evidentiary burden placed on the veteran in MST claims 
remains unrealistically high for many. For this reason, we continue to 
support S. 685, the Ruth Moore Act.
    Sections 202 and 203 would require VA to submit reports to Congress 
on disability claims related to MST. The VFW supports these sections.
    The VFW supports section 204, which would require VA to carry out a 
pilot program to assess the feasibility and advisability of expediting 
certain claims for dependency and indemnity compensation (DIC). We feel 
this is a common sense step toward more quickly adjudicating DIC claims 
where the veteran is already receiving disability compensation and the 
cause of death is clearly listed as having been due to one of his or 
her disabilities. In such cases, there is no reason to make the 
veteran's survivors wait any longer than necessary for their benefits.
    Section 205 provides for a review of determination of certain 
service in the Philippines during World War II. The VFW holds no 
position on this section.
    Section 206 would require VA to submit reports on its disability 
medical exams process and the extent to which it is able to prevent 
unnecessary medical examinations. The VFW supports this section, as 
these reports will help improve the disability examinations process, 
reducing the overall time necessary to decide claims. We would suggest, 
however, that the reporting requirement also include how many specialty 
examinations were ordered in cases where the veteran had already 
submitted a disability benefits questionnaire completed by a non-
Department physician. This will help us understand the extent to which 
the information submitted in those cases is accepted by VA as adequate 
for deciding claims.
    The VFW supports section 301, which would require the Secretary of 
Veterans Affairs to conduct a study on identifying, claiming and 
interring unclaimed remains of veterans. The private sector has worked 
very hard to ensure dignified burials for veterans whose remains have 
gone unclaimed. This bill will require VA to recommend legislation or 
administrative actions that could take place to make the process of 
claiming remains for burial more standardized and timely.
    Finally, the VFW supports section 401, which would give the men and 
women who serve our Nation in the reserve component the recognition 
they deserve. Many who serve in the Guard and Reserve are in positions 
that support the deployments of their active duty comrades to make sure 
the unit is fully prepared when called upon. Unfortunately, some of 
these men and women who serve at least 20 years and are entitled to 
retirement pay, TRICARE, and other benefits, are not considered 
veterans according to the letter of the law. This provision would grant 
Guard and Reserve retirees the proper recognition as veterans.

    Chairman Isakson, Ranking Member Blumenthal, this concludes my 
testimony and I am happy to answer any questions you or any other 
Members of the Committee may have.

    Senator Cassidy. Thank you.
    Senator Murray, would you like to go?
    Senator Murray. Whichever way you like.
    Senator Cassidy. If you are ready, please do.

        HON. PATTY MURRAY, U.S. SENATOR FROM WASHINGTON

    Senator Murray. I am ready. Mr. Chairman, thank you very 
much. I really appreciate the opportunity. Welcome to all of 
our panelists today.
    Mr. Morosky, in your testimony about S. 627, you mentioned 
that VFW believes the culture at VA is changing. As you know, 
changing culture is incredibly hard, especially at an 
organization as large as the VA. If change is starting to 
happen, we certainly want to protect that progress and 
encourage more. What is VFW seeing that shows the culture at VA 
is finally changing, and what do you believe is causing that 
change?
    Mr. Morosky. We believe that the changing of culture is a 
big priority for Secretary McDonald, that his ``I.C.A.R.E.'' 
philosophy and the idea that he is approachable as the 
Secretary is helping employees feel as though they can approach 
their superiors. Again, it is a very long process. It does not 
happen overnight. We recognize that the effort is being made to 
really make the Department more veteran-centric as opposed to 
centered around the bureaucracy that is in place.
    Senator Murray. And, you are beginning to see that. Well, 
we want to make sure we encourage that----
    Mr. Morosky. Yes.
    Senator Murray [continuing]. So, if you have any thoughts 
about encouraging that ongoing, let us know.
    Mr. Morosky. Yes. Thank you.
    Senator Murray. The Transition Assistance Program is really 
critical in helping our servicemembers leaving the military and 
entering the civilian world. Constantly reviewing and updating 
and expanding the TAP curriculum is really key to keeping it 
relevant and useful for our separating servicemembers, which I 
am sure you all agree with that.
    Mr. Phillips, I wanted to ask you, in your testimony, you 
talk about the importance of specifically reviewing whether the 
program is meeting the needs of Guard and Reserve, because, as 
you know, Reserve members face a lot of challenges. They are 
far from a VA or a military base. They return to communities 
very different than when they left, and they frequently have a 
lot of interruption between their education and their job. So, 
there are a lot of challenges there and I wanted to ask you, is 
the structure of the program working for Reservists so they can 
complete TAP before demobilizing?
    Mr. Phillips. Senator, thank you for the question and thank 
you for most of the answers. [Laughter.]
    You went through some of the chief challenges.
    Senator Murray. Yes.
    Mr. Phillips. We think the TAP has gotten better as it has 
aged and is evolving in the right direction. One of our chief 
concerns is that we ensure that the language portrays the 
differentiation of active and Reserve----
    Senator Murray. So, it is actually named----
    Mr. Phillips. It is actually named to put it in front of 
people that there is a differentiation here.
    Senator Murray. Mm-hmm.
    Mr. Phillips. Do I have an organic complaint, as it were, 
against TAP? No. I think since I had seen it initiated years 
and years ago, it has come a long way.
    One of the aspects of receiving TAP as you leave service is 
you may well be in a facility better equipped to provide the 
requisite TAP than when you go home.
    Senator Murray. Mm-hmm. OK.
    Mr. Phillips. Does that answer your question?
    Senator Murray. Yes, it does. Thank you very much.
    Mr. Maldon, first of all, I want to commend you and the 
rest of the Commission for the very thoughtful and important 
report that you submitted. I think we all appreciate the 
overwhelming amount of work that everybody put into this, so 
thank you.
    Retaining good servicemembers is a major challenge for our 
military, as many of them, we know, leave after their first 
enlistment. To help with this, you recommend increasing the 
length of service requirement to transfer the G.I. Bill 
benefits to dependents. How many additional servicemembers do 
you expect would stay in the military, who would not have 
stayed otherwise, who would stay on as the result of that 
change?
    Mr. Maldon. Senator Murray, it is hard to say how many 
would stay on, quite candidly. We believe that by making that 
change, it certainly does not hurt retention. We believe that 
it gives the services an added flexibility that they had asked 
us for--asked the Commission for, if we give them the----
    Senator Murray. So, that is one of the things they 
requested?
    Mr. Maldon. That is one of the things that the services 
requested, is they wanted more flexibility so that they can 
manage the force profile. We believe that it would certainly 
help with that mid-career group of servicemembers that we 
wanted to retain, is by changing it from six-plus-four to ten-
plus-two.
    Senator Murray. OK. Thank you. Thank you very much, and 
thank you all for your testimony today.
    Mr. Maldon. Thank you, Senator.
    Senator Murray. Mr. Chairman, thank you for accommodating 
me. I appreciate it.

    Senator Cassidy. Mr. Morosky, you mentioned culture changes 
in the VA. Are there other issues besides a culture change? 
What comes to mind, I was reading about Matthew Ridgway who in 
a hundred days took a broken Army in Korea and formed it back 
into a fighting unit with high morale that was incredibly 
effective. Now, granted, the VA is--we do not have people 
walking around the VA corridors with hand grenades hanging 
around their neck. I get that. But, still, sometimes there are 
systemic problems that thwart even the best leadership. Do you 
see any of those?
    Mr. Morosky. Mr. Chairman, sometimes we refer to it as the 
frozen middle. We feel as though the people at VA's central 
office are certainly making a concerted effort and the 
Secretary has made it a priority to change culture, and we feel 
that a lot of the front-line people who work at VA can see this 
and want the culture to change, but there is--the middle 
management seems to be the biggest challenge, in our opinion, 
in terms of having that filter from the Secretary's level down 
to the point of service.
    Senator Cassidy. So, it comes to mind, Ridgway, apparently, 
when asked what the counterattack plans were, was told there 
were none. He then replaced the officer who had not developed 
such plans.
    So, I guess there is a sense in which you have to have the 
ability to replace those middle management who are not doing 
their job. I think with even all the scandals, only three 
people have been let go. So, I take it you would probably favor 
those bills which would increase accountability for that middle 
management?
    Mr. Morosky. Absolutely, sir, and that includes the bill 
today that deals with the bonus recision.
    Senator Cassidy. Got you. Thank you.
    Mr. Maldon, I really appreciate your work. Now, I am 
skimming over this, trying to understand--I forget if it was 
Mr. Phillips or Mr. Morosky's comments upon Mr. Maldon. Are 
both of you OK with the Commission's recommendation of 
transferability of G.I. benefits? You mentioned, I think, Mr. 
Maldon, that this has been an important tool in mid-career 
retention, correct?
    Mr. Maldon. Yes, Mr. Chairman, that is correct. The 
transferability is, in fact, important to retention.
    Senator Cassidy. And I think it was you, Mr. Morosky--I was 
not quite sure you all were completely in line with their 
recommendation. Did I misunderstand your testimony?
    Mr. Morosky. When it comes to G.I. Bill benefits, Mr. 
Chairman, we just want to make sure that if there are ways that 
cost is being looked at, that veterans are always the first 
priority. We are not opposed to dependents having benefits 
transferred, but we just want to make sure that the benefit 
remains there for the veteran as the first priority.
    Senator Cassidy. OK. Mr. Maldon, is there anything in your 
kind of recommendations that would make that not the case?
    Mr. Maldon. That is a negative, Mr. Chairman. We believe 
that the transferability recommendations that we made do just 
that. They do not do anything to harm the veterans at all. It 
will not affect or have an impact on retention.
    Senator Cassidy. Now, let me ask you gentlemen--and anyone 
can answer because I just do not know this--I was struck that 
all of you are advocating that when somebody goes on health 
leave, they would continue to have eligibility for their 
educational benefits. It makes total sense to me, but is there 
not a provision now where if somebody is injured, say, for 
example, they lose a leg, and formerly they did something which 
required their ability to ambulate, so now they would have some 
rehab that would kick in to help them adjust to life without a 
leg, but also to have a career that would not require them to 
ambulate. Is everybody with me so far?
    Now, that seems kind of part and parcel of post-service 
educational programs. Now, I think you, Mr. Maldon, spoke of 
the need to reduce duplication. So, is there any duplication 
there would be in the rehab of somebody from a medical event 
along with the G.I. Bill? I do not know this. I am asking for 
my own information. Can anybody address that, or did I not make 
my question clear enough?
    Mr. Morosky. VA also has another program, sir, called 
vocational rehabilitation, which allows for disabled 
servicemembers to learn vocational skills that can accommodate 
their disabilities.
    Senator Cassidy. Now, vocational rehab, I usually think in 
terms of, OK, I used to do things with two hands, and now I am 
going to learn how to do them with one hand. It is a little bit 
different than, OK, I used to carry pipes but now I am going to 
go back and get a history degree. Do you follow what I am 
saying?
    Mr. Morosky. Yes, sir.
    Senator Cassidy. So, is there an education--I do not know--
is there an educational program for those in rehab beyond 
vocational rehab, or, rather, that would be duplicative of any 
other G.I. Bill? I am gathering not from the stares I am 
getting.
    Mr. Maldon. To my knowledge, Mr. Chairman, there is not.
    Senator Cassidy. That would be the only reason I could 
imagine that anyone would not take your suggestions in terms of 
extending the G.I. benefits after a health event.
    Mr. Phillips.
    Mr. Phillips. Senator, if I were to characterize vocational 
rehab, it is not just the body, but the spirit, and it is also 
a retuning of the soldier, sailor, airman, Marine's mind to be 
able to take account of the new physical situation this person 
finds him or herself in and adjust to that, not just 
physically, but in the way of going about their life and moving 
on to the next stage.
    What we perhaps could do better at is melding both 
education of the mind, G.I. Bill, and vocational 
rehabilitation, when it is appropriate, with the soldier or the 
servicemember who is going through that kind of transition.
    Senator Cassidy. I totally get that. Yes. That just makes 
total sense to me.
    Well, folks, Senator Isakson is not back yet, so I am going 
to call a recess until he returns, because I know he has 
questions that he would like to ask.
    But, again, thank you for all your service and for all you 
do representing our veterans. Thank you.
    Oh, I am told by somebody behind the chair whom you cannot 
see----
    [Laughter.]
    Senator Cassidy [continuing]. That we can go ahead and 
adjourn. So, thank you all very much.
    [Whereupon, at 4:02 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


   Prepared Statement of Hon. Steve Daines, U.S. Senator from Montana

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Prepared Statement of Hon. Chris Gibson, U.S. Representative 
                             from New York

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
              Prepared Statement of Air Force Association
    Chairman Isakson and Ranking Member Blumenthal, The Air Force 
Association thanks you for your support of the Veterans of the Air 
Force, their families and survivors.
    We are grateful for your unwavering commitment to the men and women 
who have defended our Nation, and appreciate the priority Congress has 
given Veterans issues in the past decade. We acknowledge the 
increasingly difficult budget choices before you in these times. We 
also appreciate this opportunity to give the Air Force Association's 
views on the following matters.
                   Reserve Component on Medical Hold
    Members of the National Guard or Reserve who are disabled on active 
duty orders and receiving medical care (this is called ``medical hold'' 
status), should not lose eligibility for Post-9/11 GI Bill benefits.
    Currently, when a Guard or Reserve servicemember is injured or 
wounded in a combat theatre, the member transitions on orders to a 
medical hold status. This stops accrual of active duty time that would 
count toward Post-9/11 GI Bill benefits, and even if the member returns 
to service, none of the time spent in medical hold qualifies.
    AFA believes fixing this oversight in current statute would allow 
all servicemembers to continue to accrue the educational benefits 
earned in service while receiving medical care from the Department of 
Defense (DOD).
 Military Compensation and Retirement Modernization Commission (MCRMC) 
                            Recommendations
    The MCRMC recommends a number of steps toward reducing redundancy 
in GI Bill programs. AFA generally supports these recommendations, as 
long as those already pursuing an education plan are allowed to finish 
their courses, and servicemembers who are using Montgomery GI Bill and 
other education benefits are grandfathered with those benefits.
    AFA also supports the MCRMC recommendation to increase the 
eligibility requirements for transferring Post-9/11 GI Bill benefits to 
10 years of service, and the sunset on housing stipend for dependents 
as long as those already under contract are grandfathered into those 
contracts.
    The MCRMC recommended DOD track the education levels of 
servicemembers leaving the service, as well as the education levels of 
servicemembers who transfer their Post-9/11GI Bill to their dependents. 
It also recommended the VA collect information related to: course 
completion rates, course dropout rates, course failure rates, 
certificates and degrees being pursued, and employment rates after 
graduation, including that information in an annual report to the 
Congress. AFA agrees to this tracking as well as the recommendation to 
better prepare servicemembers for transition to civilian life by 
expanding education and granting states more flexibility to administer 
state grants programs.
                       DOD Legislative Proposals
    AFA supports DOD's proposals giving Service Secretaries greater 
flexibility to test and evaluate alternative career retention options 
under the Career Intermission Pilot Programs, to bolster reemployment 
rights of those in the Reserve Component and confidential reporting in 
sexual assault cases.
    Thank you again for your support of our force, and for the 
opportunity to offer this testimony from the Air Force Association.
                                           Scott Van Cleef,
                                             Chairman of the Board.
                                 ______
                                 
Prepared Statement of American Federation of Government Employees, AFL-
                  CIO and the AFGE National VA Council
                  
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                  
                                 ______
                                 
   Prepared Statement of Blue Water Navy Vietnam Veterans Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Prepared Statement of Concerned Veterans for America
  s. 270: charlie morgan military spouses equal treatment act of 2015
To amend title 38, United States Code, to revise the definition of 
        spouse for purposes of veterans benefits in recognition of new 
        State definitions of spouse, and for other purposes.
    CVA has NO POSITION on this legislation.
                  s. 602: gi bill fairness act of 2015
To amend title 38, United States Code, to consider certain time spent 
        by members of reserve components of the Armed Forces while 
        receiving medical care from the Secretary of Defense as active 
        duty for purposes of eligibility for Post-9/11 Educational 
        Assistance, and for other purposes.
    CVA has NO POSITION on this legislation.
 s. 627: a bill to require the secretary of veterans affairs to revoke 
      bonuses paid to employees involved in electronic wait list 
                 manipulations, and for other purposes.
To require the Secretary of Veterans Affairs to revoke bonuses paid to 
        employees involved in electronic wait list manipulations, and 
        for other purposes.
    Last year it was revealed that wait list manipulations on the part 
of high-ranking VA employees had resulted in deaths as veterans waited 
for the care they needed. This was done in order to make it appear as 
if arbitrarily imposed wait time-reduction goals were being met, given 
that the annual bonuses paid to those officials depended in part on 
that reduction. It seems absurd, then, that these officials could still 
be eligible to a bonus despite their poor behavior, particularly as it 
has been revealed that the bonuses were paid out on the basis of an 
untruth.
    By requiring the VA Secretary to identify individuals who were 
involved in wait list manipulation and also received a bonus in part 
because of the omission, this bill ensures that such behavior is not 
rewarded. The bill would allow for proper investigation into all cases, 
and balances employee protections with proper accountability. Those 
individuals identified and found to be guilty after an investigation 
will be required to repay that bonus.
    CVA SUPPORTS this legislation.
        s. 681: the blue water navy vietnam veterans act of 2015
To amend title 38, United States Code, to clarify presumptions relating 
        to the exposure of certain veterans who served in the vicinity 
        of the Republic of Vietnam, and for other purposes.
    CVA has NO POSITION on this legislation.
   draft legislation: the 21st century veterans benefits delivery act
To amend title 38, United States Code, to improve the processing by the 
        Department of Veterans Affairs of claims for benefits under 
        laws administered by the Secretary of Veterans Affairs, and for 
        other purposes.
    The VA claims backlog has long been an issue. Veterans are often 
forced to wait for months--and sometimes years--to have their claims 
adjudicated and receive benefits that they deserve. Over the past few 
years, VA has paid lip service to the issue, but little real progress 
has been made. VA continues to play a shell game, shifting numbers 
around, but doing little to ensure that veterans are cared for.
    This legislation would make needed and sensible improvements to the 
claims system, and could potentially speed up claims processing, 
thereby allowing veterans to receive a decision on their claims and get 
on with their lives. The reporting requirements that are embedded in 
this bill are especially important to re-build the trust in VA that has 
been eroded due to the recent scandals. These reporting requirements 
will help shed light on the issues in VBA, and the systemic changes 
that this bill would implement will make strides toward rectifying 
problems in order to help ensure that the backlog is eliminated, and 
remains so.
    CVA SUPPORTS this legislation.
draft legislation: veterans compensation cost-of-living-adjustment act 
                                of 2015
To provide for an increase, effective December 1, 2015, in the rates of 
        compensation for veterans with service-connected disabilities 
        and the rates of dependency and indemnity compensation for the 
        survivors of certain disabled veterans, and for other purposes.
    CVA has NO POSITION on this legislation.
     military compensation and retirement modernization commission 
 legislative proposals--regarding commission recommendations 11 and 12 
                          (sections 1101-1204)
    The recommendations offered by the Military Compensation and 
Retirement Modernization Commission (MCRMC) are, by and large, common-
sense proposals which would streamline servicemember benefits while 
continuing to provide a robust benefits package, ensuring the 
continuing viability of an all-volunteer force. Recommendations 11 and 
12 are no exception. The rationalization of education benefits makes 
them more user friendly, by eliminating programs that offer less 
benefit to servicemembers. They make better use of taxpayer dollars as 
well, by eliminating redundant BAH payments to dependents of 
servicemembers after 2017. Furthermore, by increasing the time in 
service needed to transfer the Post-9/11 GI Bill to dependents, 
servicemembers are encouraged to remain in the military, reducing 
turnover and keeping experienced NCOs and officers in service.
    In terms of transition, the Transition Assistance Program (TAP) 
provides important information to servicemembers as they separate from 
active duty. CVA does, however, have some reservations about making the 
educational portion of TAP mandatory. While we understand that the 
reason for this is to require commanders and line leaders to allow 
transitioning servicemembers to attend, ``check-the-box'' training 
often has the counter effect of causing servicemembers to resent the 
training, rather than gleaning the information they need.
    CVA SUPPORTS this legislation, with some reservations.
   department of defense legislative proposals--regarding education 
  benefits, transition assistance program, and advisory board on dose 
         reconstruction (sections 514, 522, 542, 545, and 1041)
    CVA has NO POSITION on this legislation.
  discussion draft including provisions derived from s. 151, s. 241, 
                 s. 296, s. 666, s. 695, s. 743, s. 865
    To amend title 38, United States Code, to modify the treatment 
under contracting goals and preferences of the Department of Veterans 
Affairs for small businesses owned by veterans, to carry out a pilot 
program on the treatment of certain applications for dependency and 
indemnity compensation as fully developed claims, and for other 
purposes.
    CVA has NO POSITION on this legislation.
                                 ______
                                 
 Prepared Statement of Paul R. Varela, Assistant National Legislative 
                  Director, Disabled American Veterans
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee: Thank you for inviting the DAV (Disabled American Veterans) 
to testify at this legislative hearing, and to present our views on the 
bills under consideration. As you know, DAV is a non-profit veterans 
service organization comprised of 1.2 million wartime service-disabled 
veterans. DAV is dedicated to a single purpose: empowering veterans to 
lead high-quality lives with respect and dignity.
               s. 151, the filipino veterans promise act
    This bill would require the Secretary of Defense to establish a 
process to determine whether individuals claiming certain service in 
the Philippines during World War II are eligible for certain benefits 
despite not being on the so-called ``Missouri List.'' The Secretary of 
Defense, in consultation with the Secretary of Veterans Affairs and 
such military historians as the Secretary of Defense would consider 
appropriate, would establish a process to determine whether a covered 
individual served as described in subsection (a) or (b) of section 107 
of title 38, United States Code, for purposes of determining whether 
these individuals would be eligible for benefits described within 
relevant subsections.
    DAV has received no resolution from our membership on this topic; 
thus, DAV takes no position on this bill.
             s. 241, the military family relief act of 2015
    This bill would authorize the Secretary of Veterans Affairs to pay 
temporary DIC to the surviving spouse of a veteran if, at the time of 
death, the veteran was in receipt of or entitled to receive 
compensation for a service-connected disability rated as total for at 
least one year preceding the veteran's death. Payments made on this 
temporary basis would not be made in excess of six months.
    Delays in the adjudication of benefits, particularly those to 
survivors can have serious adverse consequences. Providing temporary 
payments could provide welcome relief to survivors while their claims 
are being processed.
    DAV supports this bill, because it is alignment with our mission to 
support the needs of survivors of veterans who died as a result of 
service-connected disabilities.
s. 270, the charlie morgan military spouses equal treatment act of 2015
    S. 270 would amend title 38, United States Code, to revise the 
definition of spouse for purposes of veterans' benefits in recognition 
of new State definitions of spouse.
    Section 101 of title 38, United States Code would be amended to 
reflect that an individual would be considered a `spouse' if a marriage 
of the individual is considered valid under the laws of any State, thus 
making same-sex spouses eligible for benefits under title 38.
    DAV has received no approved resolution from our membership on this 
topic; thus, DAV takes no position on this bill.
 s. 296, the veterans small business opportunity and protection act of 
                                  2015
    This bill would amend title 38, United States Code, section 8127, 
to enhance Department of Veterans Affairs business-related protections 
in instances of death of service-connected disabled veteran business 
owners. The bill would also extend these business-related protections 
to survivors of active duty servicemembers who are killed in the line 
of duty.
    These amendments would make changes to the eligibility period for 
the Department of Veterans Affairs' (VA's) service-disabled small 
business contracting goals and preferences program. The surviving 
spouse of a service-disabled veteran who acquires the ownership 
interest in a small business of the deceased veteran would retain the 
ability to operate as a veteran-owned small business for a period of 
ten years following the veteran's death, if such veteran was either 
100% disabled or died from a service-connected disability; or for three 
years after such death, if the veteran was less than 100% disabled and 
did not die from a service-connected disability.
    In instances when a servicemember is killed in the line of duty, VA 
small business contracting goals and preferences would also extend to 
the surviving spouse or dependent. The survivor would be recognized as 
a small business by VA beginning on the date of the servicemember's 
death and end on the earlier of either the date on which the surviving 
spouse remarries or relinquishes, or the date on which the surviving 
dependent relinquishes, an ownership interest in the small business 
concern, and no longer owns at least 51 percent of such small business 
concern; or ten years after the servicemember's death.
    DAV supports this bill in accordance with resolution No. 150, as 
adopted at our most recent national convention held in Las Vegas, 
Nevada, August 9-12, 2014. This resolution calls on Congress to support 
legislation to provide for a reasonable transition period for all 
service-disabled veteran-owned small businesses following the death of 
disabled veteran owners.
                s. 602, the gi bill fairness act of 2015
    This bill would amend title 38, United Stated Code, to consider 
certain time spent by members of reserve components of the Armed Forces 
receiving medical care from the Secretary of Defense as active duty for 
purposes of eligibility for Post-9/11 educational assistance.
    The bill would amend subsection 3301(1)(B) of title 38, United 
States Code, by inserting the content of subparagraph 12301(h) of title 
10, United States Code to the existing language in this subsection. 
Adding this language in the subsection would validate as active duty 
time for the purposes of Post-9/11 educational assistance any period(s) 
spent by servicemembers (including Guard and Air National Guard members 
in certain circumstances) receiving authorized medical care, undergoing 
medical evaluations for disability, or completing a required Department 
of Defense health care study, which may include an associated medical 
evaluation of the member.
    The bill would provide for a retroactive application of this 
amendment as if the amendment were enacted immediately after the 
enactment of the Post-9/11 Veterans Educational Assistance Act of 2008, 
Public Law 110-252.
    DAV has received no approved resolution from our membership on this 
particular topic, but would not oppose passage of such legislation.
    S. 627, to require the Secretary of Veterans Affairs to revoke 
bonuses paid to employees involved in electronic wait list 
manipulations, and for other purposes
    S. 627 would require the Secretary of Veterans Affairs to revoke 
bonuses paid to employees who were involved in direct or indirect 
manipulation of patient care waiting lists during a specified period.
    DAV has received no resolution from our membership on this topic; 
thus, DAV takes no position on this bill.
           s. 666, the quicker veterans benefits delivery act
    This bill would amend title 38, United States Code, section 5125, 
to improve the treatment of medical evidence provided by non-Department 
of Veterans Affairs medical professionals in support of veterans' 
claims for disability compensation.
    The bill would eliminate the VA practice of ordering unnecessary 
compensation and pension examinations. Unnecessary examinations lead to 
delays in delivery of benefits, tie up VA resources and add to the 
frustration of veterans who in many cases have provided sufficient 
medical evidence to support the claim. Requesting a VA examination when 
acceptable medical evidence already has been supplied creates the 
impression that private evidence is less valuable than evidence 
produced internally by VA.
    DAV continues to press for changes that improve and streamline the 
claims processing system. This legislation would give due deference to 
private medical evidence that is competent, credible, probative, and 
otherwise adequate for rating purposes.
    DAV is pleased to provide our support for this bill, consistent 
with Resolution No. 192, which calls on Congress to support meaningful 
reform in the Veterans Benefits Administration's (VBA) disability 
claims process. On April 14, 2015, DAV testified before the House 
Subcommittee on Disability and Memorial Affairs in support of a similar 
bill, H.R. 1331.
        s. 681, the blue water navy vietnam veterans act of 2015
    This bill would amend title 38, United States Code, to expand the 
accepted presumptions to justify service connection from exposure to 
herbicides containing dioxin, including Agent Orange deployed by 
American forces during the Vietnam War.
    This legislation would extend existing health care and compensation 
benefits to certain veterans who served ``in the territorial seas of 
such Republic.'' S. 681 would extend eligibility for VA benefits 
retroactively to September 25, 1985.
    DAV supports this legislation as it is consistent with DAV 
Resolution No. 072, passed at our most recent National Convention, held 
August 9-12, 2014, in Las Vegas, Nevada.
      s. 695, the dignified interment of our veterans act of 2015
    This bill would require the VA Secretary to study and report to 
Congress on matters relating to the interment of veterans' unclaimed 
remains in national cemeteries under the control of the National 
Cemetery Administration.
    The study would assess the scope of the issues relating to 
veterans' unclaimed remains, including the estimated number of such 
remains; the effectiveness of VA procedures for working with persons or 
entities having custody of unclaimed remains to facilitate the 
interment of such remains in national cemeteries; and the state and 
local laws that affect the Secretary's ability to inter unclaimed 
remains in such cemeteries.
    The report would provide recommendations for appropriate 
legislative or administrative action to improve areas where 
deficiencies are identified.
    DAV has no resolution pertaining to this recommendation, but would 
not oppose passage of this bill.
     s. 743, the honor america's guard-reserve retirees act of 2015
    This bill would bestow the designation of ``veteran'' to any person 
who is entitled to retired pay for non-regular (reserve) service or who 
would be so entitled, but for age.
    The bill stipulates that such person would not be entitled to any 
benefit by reason of such recognition.
    DAV has no resolution pertaining to this matter.
     s. 865, to amend title 38, united states code, to improve the 
   disability compensation evaluation procedure of the secretary of 
veterans affairs for veterans with mental health conditions related to 
            military sexual trauma, and for other purposes.
    This bill would improve VA disability compensation evaluation 
procedures in the case of veterans with mental health conditions 
related to military sexual trauma (MST).
    For decades, VA treated claims for service connection for mental 
health problems resulting from MST in the same way it treated all 
claimed conditions--the burden was on the claimant to prove the 
condition was related to service. Without validation from medical, 
investigative or police records, claims were routinely denied. More 
than a decade ago, VA relaxed its policy of requiring medical or police 
reports to show that MST occurred. Nevertheless, thousands of claims 
for mental health conditions resulting from MST have been denied since 
2002 because claimants were unable to produce evidence that assaults 
occurred. Between 2008 and 2012, grant rates for Post Traumatic Stress 
Disorder (PTSD) resulting from MST were 17 to 30 percent below grant 
rates for PTSD resulting from other causes.
    Unfortunately, victims of MST often do not report such trauma to 
medical or police authorities. Lack of reporting results in a 
disproportionate burden placed on veterans to produce evidence of MST. 
Full disclosure of incidents occurring during service tend to be 
reported years after the fact, making service connection for PTSD and 
other mental health challenges exceedingly difficult.
    Establishing a causal relationship between certain injuries and 
later disability can be daunting due to lack of records or human 
factors that obscure or prevent documentation or even basic 
investigation of such incidents after they occur. Military sexual 
trauma is ever more recognized as a hazard of service for one percent 
of men serving and 20 percent of women, and later represents a heavy 
burden of psychological and mental health care for the VA.
    An absence of documentation of military sexual trauma in the 
personnel or military unit records of injured individuals prevents or 
obstructs adjudication of claims for disabilities of this deserving 
group suffering the after effects associated with military service, and 
may interrupt or prevent their care by VA once they become veterans. 
The VA has issued a regulation that provides for a liberalization of 
requirements for establishment of service connection due to personal 
assault, including MST, even when documentation of an ``actual 
stressor'' cannot be found, but when evidence in other records exists 
of a ``marker'' indicating that a stressor may have occurred. DAV fully 
supports this relaxed evidentiary practice, consistent with DAV 
Resolution No. 086.
    S. 865 would seek to further relax the evidentiary standard for 
``stressor'' requirements. It would provide that any veteran who claims 
that a covered mental health condition was incurred in or aggravated by 
MST during active military, naval, or air service would require the 
Secretary to accept as sufficient proof of service connection, a 
diagnosis of such mental health condition by a mental health 
professional, together with satisfactory lay or other evidence of such 
trauma and an opinion by the mental health professional that such 
covered mental health condition is related to such MST.
    The circumstances of MST would need to be consistent with the 
conditions or hardships of such service, notwithstanding the fact that 
no official record exists of such incurrence or aggravation in such 
service. Every reasonable doubt would be resolved in favor of the 
veteran. In the absence of clear and convincing evidence to the 
contrary, and provided that the claimed MST was consistent with the 
circumstances, conditions, or hardships of the veteran's service, the 
veteran's lay testimony alone would establish the occurrence of the 
claimed MST.
    Service connection of a covered mental health condition could be 
rebutted by clear and convincing evidence to the contrary. The 
Secretary would also be required to record, in full, the reasons for 
granting or denying service connection in each case.
    Under this bill, a covered mental health condition would be defined 
as PTSD, anxiety, depression, or other mental health diagnosis 
described in the current version of the Diagnostic and Statistical 
Manual of Mental Disorders published by the American Psychiatric 
Association, that the Secretary determines to be related to MST.
    MST would be defined as a psychological trauma, which in the 
judgment of a mental health professional, resulted from a physical 
assault of a sexual nature, battery of a sexual nature, or sexual 
harassment which occurred during active military, naval, or air 
service.
    This bill would require the Secretary to provide a report on 
implementation of this measure and its impact on claims filed that deal 
with MST, beginning on December 1, 2016, through 2020.
    Enacting this legislation would ease some of the evidentiary 
requirements for those veterans filing claims for service-connection 
suffering the aftereffects of a MST. It would bolster the weight 
afforded to lay evidence. When the lay evidence is corroborated by a 
mental health professional and a diagnosis is made of one of the 
covered mental health conditions, the Secretary would be authorized to 
grant service-connection for the claim.
    Enactment of this legislation would result in two separate 
adjudication procedures for veterans filing claims related to MST 
versus veterans filing claims related to combat, or exposure to hostile 
military or terrorist activity. Those currently filing claims for PTSD 
unrelated to MST are required to have their diagnosis confirmed by VA 
psychiatrists or psychologists, or through psychiatrists or 
psychologists with whom VA has contracted.
    DAV Resolution No. 086, approved by our membership at our most 
recent national convention, supports the purposes of this bill.
    We believe VA should address a disparity in current regulation by 
making similar the adjudication of all stressor-related mental health 
disabilities. Accordingly, we recommend the following changes:

    To ensure parity among veterans claiming mental health-related 
disabilities as a result of MST, combat, and exposure to hostile 
military or terrorist activity, title 38, Code of Federal Regulations 
should be amended to read as follows:

        3.304 Direct service connection; wartime and peacetime.
          (3) If a stressor claimed by a veteran is related to the 
        veteran's fear of hostile military or terrorist activity and a 
        certified mental health professional, including a VA 
        psychiatrist or psychologist, or a psychiatrist or psychologist 
        with whom VA has contracted, confirms that the claimed stressor 
        is adequate to support a diagnosis of Post Traumatic Stress 
        Disorder.

VA should accept and rate claims using private medical evidence for 
qualifying disabilities related to MST, combat, or exposure to hostile 
military or terrorist activity when received by a certified mental 
health professional, that is competent, credible, probative, and 
otherwise adequate for rating purposes.
    A similar bill, H.R. 1607, was introduced in the House. DAV was 
pleased to provide our testimony to the Subcommittee on Disability and 
Memorial Affairs on April 14, 2015, concerning this bill, which we 
supported.
      draft bill, the 21st century veterans benefits delivery act
    This bill would increase efficiencies within the Transition 
Assistance Program Global Positioning System (TAP GPS) program and 
other functions of VBA's benefit claims process.
    Section 101 of the bill would mandate that TAP be made available 
through the e-Benefits Web site to provide servicemembers and families 
with the option to participate online.
    This enhancement to the TAP program does not appear to compromise 
the requirements set forth under title 10, United States Code, section 
1144. DAV would recommend the online option be offered when a 
transitioning servicemember is unable to attend the formal class, but 
not be substituted for the requirement to attend in person.
    The bill would also require the Secretary of Defense to provide a 
report on the participation in TAP of veterans' service organizations 
(VSOs). The report would evaluate Department of Defense (DOD) 
compliance with directives contained within the ``Installation Access 
and Support Services for Nonprofit Non-Federal Entities,'' memorandum 
dated December 23, 2014, including the number of military bases that 
have complied with the directives, and the number of VSOs that have 
been present during portions of the TAP GPS presentations.
    DAV supports this provision consistent with national resolution NO. 
053, as adopted at our most recent national convention held in Las 
Vegas, Nevada, August 9-12, 2014. This resolution urges Congress to 
monitor the review of Transition GPS program, its workshops, training 
methodology, and delivery of services; the collection and analysis of 
course critiques; and to ensure the inclusion of DAV and other veterans 
service organizations in workshops, in order to confirm the program is 
meeting its objective and to enable follow-up with participants to 
determine if they have found gainful employment.
    Section 102 would require the Secretary to explain to claimants, 
upon receipt of decisions regarding their claims, the benefits of 
filing an appeal within 180 days. This provision would amend title 38, 
United States Code, section 5104, to require explanation of the 
procedures for obtaining appellate review.
    DAV has received no approved resolution from our membership on this 
topic, but would not oppose passage of this section.
    Section 107 would authorize the Board of Veterans' Appeals (BVA) to 
schedule video conference hearings. This language would give the BVA 
the authority to schedule such hearings in the first instance, but 
would preserve the appellant's right to an in-person hearing. We 
strongly support an appellant's right to request the type of hearing 
best suited to their needs.
    DAV supports this provision of the bill.
    Section 201 would require the Comptroller General of the United 
States to complete an audit of the regional offices of the Veterans 
Benefits Administration. The audit would include examination of 
consistency of claims decisions; and identify ways to improve 
consistency and best practices, including management practices that 
distinguish higher performing regional offices from others.
    DAV has received no approved resolution from our membership 
covering this issue, but would not oppose passage of such legislation.
    Section 202 of the bill would require VA to establish a training 
program for veterans service center managers, and would include 
employees in successor positions within regional offices of the 
Veterans Benefits Administration. This training program would place 
emphasis on matters pertaining to managerial and other skills for those 
in leadership.
    DAV has received no approved resolution pertaining to this issue, 
but would not oppose passage of this section.
    Section 203 would require the Secretary of Veterans Affairs, for 
each systemic analysis of operations that is completed by a Veterans 
Service Center Manager (VSCM) in a regional office (RO), also include 
an analysis of the communication between the regional office and 
veterans service organizations and case workers employed by Members of 
Congress.
    This section of the bill seeks to analyze the communication between 
those referenced above. Within VA ROs, the Secretary requires VSCMs to 
collect various forms of data and information to assess and report on 
overall performance and trends. This provision seeks to require that VA 
report on the effectiveness of communications amongst stakeholders.
    DAV has received no resolution from our membership pertaining to 
this issue, but would not oppose passage of this section.
    Section 204 would require the VA Inspector General (IG) to conduct 
a review of the practices of regional offices regarding the use of 
suspense dates during the disability claim assessment process. The 
intent of this legislation is unclear, but we presume that IG would be 
expected to report on whether VBA is following its own protocol for 
specific controls established for claims processing.
    DAV has received no approved resolution from our membership 
pertaining to this issue, but would not oppose its passage.
    Section 205 would require Secretary to submit to Congress a report 
on the capacity of the Veterans Benefits Administration to process 
claims for benefits during the next one-year period.
    This report would contain the number of claims Secretary expects 
VBA to process, the number of full-time equivalent employees who are 
dedicated to processing such claims, an estimate of the number of such 
claims a single full-time equivalent employee of the Administration can 
process in a year, and an assessment of whether the Administration 
requires additional or fewer full-time equivalent employees to process 
such claims during the next 1-year, 5-year, and 10-year periods.
    DAV recommends that any such report also include, in addition to 
the number of claims, the number of issues the Secretary expects to 
process, the number of issues granted or denied and the error rate per 
issue.
    DAV has received no approved resolution from our membership 
pertaining to this issue, but would not oppose passage of such 
legislation.
    Section 206 would require the Secretary to complete the revision to 
VBA's resource allocation model within 180 days after enactment of this 
legislation. Congress would also require the Secretary to provide a 
report on the newly revised resource allocation model.
    Although we welcome and look forward to changes of VBA's resource 
allocation model, mandating its completion within a specified period 
may lead VA to implement hasty and less comprehensive changes.
    DAV has received no approved resolution from our membership 
pertaining to this issue, would not oppose passage of this section, but 
would encourage the Committee to consider the potential effect of 
mandating the completion of the resource allocation model within 180 
days after enactment of governing legislation.
    Section 207 would require the Secretary to submit a report to 
Congress on the current functionality of the Veterans Benefits 
Management System (VBMS). It would also solicit recommendations to 
improve VBMS from VBA employees and VSO's that use the system. We would 
recommend that any report not only contain the functionality and 
progress of VBMS, but also review the anticipated enhancements to this 
platform and its interoperability with other systems within the VA.
    DAV has voiced concerns that there are functions within the VA, 
specifically those performed by the Board of Veterans Appeals (Board), 
that are essential to the processing of appeals that must become more 
seamless and interoperable with VBMS. We have recommended additional 
funding for VBMS to support the full range of benefits and claims 
process improvements.
    DAV has received no resolution pertaining to this issue, but would 
not oppose passage of this section.
    Section 208 would require the Secretary of Veterans Affairs to 
produce a report to Congress no later than 90 days after the enactment 
of this legislation detailing a plan to reduce the inventory of claims 
pending for Dependency and Indemnity Compensation and Pension benefits.
    Delays in the adjudication of benefits, particularly those for 
survivors, can mean serious adverse financial consequences. The death 
of a spouse means a significant loss in household income. Losing one's 
spouse already creates an emotional hardship which should not be 
compounded by an unnecessary delay in the approval of survivor 
benefits.
    Although DAV has received no resolution from our membership on this 
particular topic, we would welcome the findings of this report and the 
Secretary's plan to process these claims more expeditiously.
    Section 209 would require the Secretary to include in each Monday 
Morning Workload Report of VBA the number of claims for benefits that 
have been received by all regional offices and that are pending 
decisions, disaggregated by various categories. We recommend the 
language be amended to include information for the number of issues as 
well as the number of claims pending adjudication.
    DAV has received no resolution pertaining to this issue, but would 
not oppose passage of this section.
    Section 210 would require the Secretary, on an Internet Web site of 
the Department, to make available to the public internal reports 
entitled ``Appeals Pending'' and ``Appeals Workload by Station.'' We 
recommend the language be amended to include information for the number 
of issues as well as the number of appeals pending appellate review.
    DAV has no resolution pertaining to this issue, but would not 
oppose passage of this section.
    Section 211 would modify an existing pilot program that concerns 
the use of contract physicians to perform disability examinations. It 
would permit licensed and duly recognized physicians to perform 
examinations at any location in any state, the District of Columbia, or 
a Commonwealth, territory or possession of the United States so long as 
the examination is within the scope of the authorized duties stipulated 
under the contract. It would alleviate the jurisdictional obstacles in 
areas where physicians are not licensed within a particular 
jurisdiction.
    DAV supports this provision of the bill. We do not have a specific 
resolution on this issue, but in general it improves VA's ability to 
provide contract examinations for disability compensation purposes.
    Section 301 would require the appointment of liaisons by the 
Secretary of Defense, Commissioner of Social Security and the 
Administrator, National Archives and Records Administration, to work in 
coordination with the VA for the purpose of improving records transfers 
and claims processing efficiencies.
    DAV has no resolution pertaining to this issue, but would not 
oppose passage of this section.
    Section 302 would require the Secretaries of the VA and DOD to 
submit a report to Congress that outlines their plans for 
interoperability of electronic health records of each Department. This 
report would require specific timelines and milestones to achieve the 
goal of interoperability.
    We believe it is important that the transfer of health records from 
DOD to VA be accomplished seamlessly so that the transition of military 
members to civilian life can be improved. The movement of information 
is critical in the case of wounded and injured military personnel 
transitioning to veteran status, as well as for Guard and reserve 
component members who are in rotational assignments and combat 
deployments.
    DAV supports this provision of the bill.
  draft bill, veterans' compensation cost-of-living-adjustment act of 
                                  2015
    If introduced, this draft bill would provide for an increase, with 
no ``round down'' requirement, effective December 1, 2015, in the rates 
of compensation for veterans with service-connected disabilities and 
the rates of dependency and indemnity compensation (DIC) for the 
survivors of certain disabled veterans.
    Mr. Chairman, DAV strongly supports this legislation, especially 
since it does not mandate that the cost-of-living adjustment (COLA) be 
rounded down to the next lowest whole dollar amount. DAV recognized 
this same accomplishment by this Committee last year when the COLA for 
2014 was enacted and excluded the round-down provision.
    Many disabled veterans and their families rely heavily or solely on 
VA disability compensation, or DIC payments, as their only means of 
financial support, and they have struggled during these difficult 
times. While the economy has faltered, their personal economic 
circumstances have been negatively affected by rising costs of many 
essential items, including food, medicines and gasoline.
    As inflation becomes a greater factor, it is imperative that 
veterans and their dependents receive a full COLA. On the strength of 
DAV Resolution No. 071, DAV supports enactment of this legislation.
      recommendations of the military compensation and retirement 
                        modernization commission
    Recommendation 11 seeks to safeguard education benefits for 
Servicemembers by reducing redundancy and ensuring the fiscal 
sustainability of education programs. In an effort to accomplish these 
objectives, more stringent restrictions would be placed on availability 
of the active duty Tuition Assistance program to active duty 
servicemembers.
    The recommendation also proposes increases in active duty service 
commitments from six years with a four year re-up, to ten years with a 
two year re-up as a prerequisite to transfer Post-9/11 GI Bill benefits 
to eligible dependents. It would eliminate the housing stipend for 
dependents and prohibit the receipt of unemployment benefits when a 
housing stipend is received under Post-9/11.
    It would require reports on those using educational benefits, with 
reports to be supplied by schools. Montgomery GI Bill Active Duty 
(MGIB-AD) and Reserve Educational Assistance Program (REAP) would be 
sunset as all current and future educational programs would fall under 
the Post-9/11 GI Bill.
    DAV takes no position on this recommendation.
    Recommendation 12 seeks to better prepare servicemembers for 
transition to civilian life by expanding education and granting states 
more flexibility to administer the Jobs for Veterans State Grants 
(JVSG) program.
    If enacted into law, it would require active duty servicemembers to 
attend the educational track, which is now optional within TAP GPS, if 
servicemembers plan to use their educational benefits, or if they have 
transferred their benefits to a qualified dependent. The TAP GPS 
program would also be reviewed by DOD, VA, DOL and SBA to determine if 
the current curriculum most accurately addresses the needs of 
transitioning servicemembers.
    The recommendation also calls for relevant statutes to be amended 
to permit state departments of labor, or their equivalent agencies, to 
work directly with state Veterans Affairs directors or offices to 
coordinate implementation of the JVSG program.
    DAV does not oppose this recommendation. Requiring active duty 
servicemembers to attend a class within TAP focused on the use of their 
educational benefits seems beneficial overall. Additionally, continuous 
review of the TAP GPS program to ensure its relevance and effectiveness 
seems like a necessary function to keep pace with change.
    Finally, enacting legislation that improves coordination between 
state departments of labor of veterans affairs to enhance facilitation 
of the JVSG program could streamline processes resulting in better 
employment opportunities for veterans.
              department of defense legislative proposals
    Section 514 of the DOD legislative proposal parallels the language 
of S. 602, the GI Bill Fairness Act of 2015, discussed above.
    Section 522 of the DOD legislative proposal seeks to amend chapter 
1606 of title 10, United States Code. The amendment would add language 
to preclude the loss of entitlement to and payment for the Montgomery 
GI Bill Selected Reserve (MGIB-SR). This amendment would preserve MGIB-
SR benefits for servicemembers in instances when they are called to 
active duty in support of a major disasters or emergencies, or when 
they are ordered to active duty for pre-planned missions in support of 
combat commands.
    DAV has received no approved resolution from our membership on this 
topic; thus, DAV takes no position on this bill.
    Section 542 of the DOD legislative proposal would amend section 
4312, title 38, United States Code, governing reemployment rights of 
persons who serve in the uniformed services.
    DOD proposes to add the language of sections 12304(a) and 12304(b) 
of title 10, United States Code, noting that this additional language 
would complete the list of current involuntary mobilization authorities 
that are exempt from the five-year limit imposed by the Uniformed 
Services Employment and Reemployment Act (USERRA). We believe this 
amendment would further reemployment safeguards afforded to 
servicemembers who are involuntarily called to active duty with limited 
notice provided to an employer.
    DAV has received no resolution from our membership pertaining to 
this particular topic, but would not oppose passage of such 
legislation.
    Section 545 of the DOD legislative proposal would amend section 
1142 of title 10, United States Code, relative to pre-separation 
counseling to servicemembers being released from service prior to the 
completion of 180 days of active duty. DOD proposes to clarify that 
pre-separation counseling services would not be provided to a member 
who is being discharged or released before the completion of that 
member's first 180 ``continuous'' days of active duty.
    DAV has no resolution from our membership pertaining to this topic, 
but would not oppose passage of such legislation.
    Section 1041 of the DOD legislative proposal seeks eliminate the 
requirements set forth by the Radiation Dose Reconstruction Program . 
DOD recommends the repeal of the statutory requirement for an advisory 
board of the Radiation Dose Reconstruction Program. DOD contends the 
advisory board has achieved its objectives and that its functions can 
still be accomplished through interagency collaboration, rather than 
through the advisory board.
    DAV has no resolution pertaining to this issue and takes no 
position. However, DAV Resolution No. 187, speaks directly to the issue 
of atomic veterans' radiation exposure. Our resolution calls on 
Congress to support legislation authorizing presumptive service 
connection for all radiogenic diseases.
    Military servicemembers have participated in test detonations of 
nuclear devices and served in Hiroshima or Nagasaki, Japan, following 
the detonation of nuclear bombs, including clean-up operations at test 
sites. The government knew or should have known of the potential 
hazards to the health and well-being of these servicemembers.
    VA cites that approximately 50 claimants have obtained disability 
compensation or dependency and indemnity compensation pursuant to 
Public Law 98-542.
    Considerable resources have been expended by our government to 
provide dose reconstruction estimates which do not accurately reflect 
actual radiation dose exposure. DAV encourages Congress to enact 
legislation that provides presumptive service connection to atomic 
veterans for all recognized radiogenic diseases. Furthermore, all 
veterans involved in clean-up operations following the detonation of 
nuclear devices should be considered atomic veterans for all benefits 
and services provided by VA.

    Mr. Chairman, this concludes DAV's testimony. Thank you for 
inviting DAV to submit this statement for the record of today's 
hearing.
                                 ______
                                 
Prepared Statement of Enlisted Association of the National Guard of the 
                         United States (EANGUS)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of Thomas J. Snee, M.Ed, NCCM (SW), USN, (Ret), 
       National Executive Director, The Fleet Reserve Association
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
organization serving enlisted men and women in the active, Reserve, and 
retired communities plus veterans of the Navy, Marine Corps, and Coast 
Guard. The Association is Congressionally Chartered, recognized by the 
Department of Veterans Affairs (VA) and entrusted to serve all veterans 
who seek its help.
    FRA was started in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    The Association testifies regularly before the House and Senate 
Veterans' Affairs Committees, and the Association is actively involved 
in the Veterans Affairs Voluntary Services (VAVS) program. A member of 
the National Headquarters' staff serves as FRA's National Veterans 
Service Officer (NVSO) and as a representative on the VAVS National 
Advisory Committee (NAC). FRA's NVSO also oversees the Association's 
Veterans Service Officer Program and represents veterans throughout the 
claims process and before the Board of Veteran's Appeals. For 2014, 144 
FRA Shipmates and members of the Auxiliary provide 13,470 volunteer 
hours of support at 59 VA facilities throughout the country, enabling 
FRA to achieve VAVS ``Associate Servicemember'' status.
    FRA became a member of the Veterans Day National Committee in 
August 2007, joining 24 other nationally recognized Veterans Service 
Organizations (VSO) on this important committee that coordinates 
National Veterans' Day ceremonies at Arlington National Cemetery. The 
Association is a leading organization in The Military Coalition (TMC), 
a group of 33 nationally recognized military and veteran's 
organizations collectively representing the concerns of over five 
million members. FRA senior staff members also serve in a number of TMC 
leadership positions.
    The Association's motto is ``Loyalty, Protection, and Service.''
                              introduction
    Distinguished Committee Chairman Johnny Isakson, Ranking Member 
Richard Blumenthal and other Members of the Committee; thank you for 
the opportunity to present the Association's views on specific pending 
and draft legislation, and recommendations 11 and 12 of the Military 
Compensation and Retirement Modernization Commission (MCRMC). Before 
addressing specific issues, it's important to note that veteran's 
benefits are earned through service and sacrifice in the defense of 
this great Nation and are not ``entitlements'' or ``social welfare'' 
programs. FRA will oppose any across-the-board budget driven cuts that 
lumps veteran's programs with unrelated civilian programs and 
completely rejects any efforts that would ask veterans to do their 
``fair share'' in deficit reduction.
              agent orange blue water navy reform (s. 681)
    The Association wishes to thank Senator Kristin Gillibrand (N.Y.) 
for introducing the ``Blue Water Navy Vietnam Veterans Act'' (S. 681). 
Representative Chris Gibson (NY) is sponsoring identical legislation in 
the House (H.R. 969) that was introduced with 131 original co-sponsors 
and currently has 218 co-sponsors. This legislation clarifies a 
presumption for filing disability claims at the VA for ailments 
associated with exposure to the Agent Orange herbicide during the 
Vietnam War. This legislation would reverse current policy so Blue 
Water veterans who only served on ships off the coast and have health 
problems commonly associated with herbicide exposure will be eligible 
for service-related VA medical and disability benefits. Many of these 
veterans are now senior citizens and the time to help them is now!
    From 1964-1975 more than 500,000 servicemembers were deployed off 
the coast of Vietnam, and many may have been exposed to Agent Orange, a 
herbicide used in Vietnam. Past VA policy (1991-2001) allowed 
servicemembers to file claims if they received the Vietnam Service 
Medal or Vietnam Campaign Medal. But VA implemented a ``boots on the 
ground'' limitation on obtaining an Agent Orange presumption 
connection.
    FRA is concerned about the December 2013 report from the National 
Academy of Sciences on the health effects from exposure to herbicides 
used during military operations in Vietnam. The study is mandated by 
the Agent Orange Act of 1991 (P.L. 102-4) and the Veterans Education 
and Benefits Expansion Act of 2001 (P.L. 107-103). This provision in 
the public law sunsets September 30, 2015 and should be extended.
    The study provides limited or suggestive evidence that some Vietnam 
veterans exposed to Agent Orange herbicide have a higher incidence of 
stroke after age 70. The study also notes that the possibility of 
adverse health effects in offspring of Vietnam veterans is a high 
priority with veterans, but notes that this is a very elusive outcome 
to establish or refute.
    The Association appreciates the establishment of a presumptive 
service-connection for Vietnam veterans who have B cell leukemia, 
Parkinson's disease or ischemic heart disease. These diseases are 
related to exposure to Agent Orange. Former VA Secretary Eric 
Shinseki's decision is a major step in the right direction, but FRA is 
advocating for a broader Agent Orange service-connection.
    However, a January 2013 VA statement referencing a careful review 
of another IOM report in 2011, entitled, ``Blue Water Navy Vietnam 
Veterans and Agent Orange Exposure,'' indicates that there is 
insufficient evidence to establish a presumption of exposure to 
herbicides for Vietnam veterans who served off the Vietnam coast during 
the conflict.
    FRA believes that decision maintains the status quo regarding 
disability claims of these so-called ``Blue Water'' veterans and that 
the IOM report validated the 2002 Royal Australian Navy study that 
confirmed the desalinization process used on Australian and U.S. Navy 
ships actually magnified the dioxin exposure. The Association continues 
to seek a legislative remedy to reverse current policy so Blue Water 
veterans and military retirees who have health problems commonly 
associated with herbicide exposure will be eligible for service-related 
VA medical and disability benefits.
    The Association notes the VA's efforts to expand presumption to 
ships exposed to Agent Orange during the Vietnam era. In January 2012, 
the VA added 47 ships to its list of Navy and Coast Guard vessels that 
may have been exposed to the Agent Orange herbicide. The list expanded 
as VA staff determined that a ship anchored, operated close to shore or 
traveled on the inland waterways and was exposed to the toxic 
herbicide. While the expanded VA policy to include veterans who sailed 
on ``inland waterway'' ships is significant, FRA believes it does not 
go far enough. The Association has received hundreds of calls from 
``blue water sailors'' and their surviving spouses, stating that due to 
service on ``their ships'' in Vietnam waters (Tonkin Gulf), they too 
suffer or have died from many of the illnesses associated to presumed 
exposure to herbicides as their ``brown water'' and ``boots on the 
ground'' counterparts. Many want to forget about the Vietnam War. But 
we should never forget those who served during the Vietnam War.
                       gi bill fairness (s. 602)
    FRA wants to thank Senators Ron Wyden, (Ore.), and John Boozman, 
(Ark.), for introducing the ``GI Bill Fairness Act'' (S. 602) that 
would ensure wounded Guardsmen and Reservists receive the GI Bill 
benefits they've earned.
    Members of the Guard or Reserve who are wounded in combat are often 
given orders under 10 U.S.C. 12301(h) for their recovery, treatment and 
rehabilitation. Unfortunately, Federal law does not recognize such 
orders as eligible for Post-9/11 GI Bill education assistance, meaning 
that unlike other members of the military, these Reserve Component 
members actually lose benefits for being injured in the line of duty. 
The GI Bill Fairness Act would end that unequal treatment and ensure 
these servicemembers are eligible for the same GI Bill benefits as 
active duty members of the military. FRA believes this is common sense 
legislation to fix a problem and ensure these servicemembers get the 
benefits they deserve.
    FRA has signed onto a Military Coalition (TMC) letter of support 
for the ``Military Spouses Equal Treatment Act'' (S. 270) and the 
Association has not taken a position on S. 627.
                            mcrmc background
    The FY 2013 National Defense Authorization Act (H.R. 4310--P.L. 
112-239) establishes the Military Compensation and Retirement 
Modernization Commission (MCRMC), but limits its recommendations from 
being a BRAC-like endorsement, as originally proposed, in its review of 
the current compensation and military retirement system. FRA believes 
it's important that this distinguished Committee and its House 
counterpart maintain oversight over commission recommendations that 
fall under its jurisdiction. While FRA supports many of the 
Commission's recommendations it was noted that no enlisted personnel 
were appointed to serve on the Commission. Nearly 75 percent of the 
current active force is enlisted and therefore should have 
representation on this Commission.
    FRA wants to thank the members of the Commission and their staff 
for allowing FRA to have input while the report was being written. The 
Commission met with 97 other advocacy groups as well. The MCRMC visited 
55 military installations, received more than 150,000 survey responses 
from active duty and retirees, and held eight Town Hall meetings in 
their efforts to understand the complexity of the military compensation 
and retirement systems.
                           mcrmc final report
    The report makes 15 major recommendations intended to improve the 
cost-effectiveness of quality benefits for those who currently serve, 
have served and will serve in the future. This Distinguished Committee 
has asked for FRA's position on recommendation 11 and 12.
    MCRMC Recommendation 11 proposes that Congress ``Safeguard 
education benefits for Servicemembers by reducing redundancy and 
ensuring fiscal sustainability of education programs.'' FRA supports 
consolidating multiple educational benefit programs into a single 
package with benefits eligibility and scope based on the length and 
type of duty performed.
    The Commission recommends a number of steps toward reducing 
redundancy in GI Bill programs. FRA supports many of the specific 
proposals and offers these comments for the Committees' consideration.
    Montgomery GI Bill (MGIB) and the Reserve Educational Assistance 
Program (REAP) should stop any further enrollment and permit those 
currently using these programs to complete their studies. Those only 
using the Post-9/11 GI Bill should receive a full or partial refund of 
the $1,200 they paid to become eligible for MGIB benefits.
    MCRMC also recommends eligibility requirements for transferring 
Post-9/11 GI Bill benefits should be increased to 10 years plus an 
additional commitment of two years. FRA opposes this change in that it 
devalues the program. Currently, servicemembers must serve 6 years and 
agree to serve 4 more to make dependents eligible for transfer of 
benefits.
    MCRMC further recommends that housing stipends for dependents be 
eliminated. FRA again opposes budget-driven cuts to benefit programs. 
The Association also supports restoring the Reserve Montgomery GI Bill 
benefits to at least 47 percent of active duty MGIB benefits. The 
Reserve MGIB program paid 47 percent of the Active Duty MGIB for the 
first 14 years of its existence (1985-1999). Thereafter, the National 
Guard and Reserve components reduced funding down to 21 percent of the 
Active Duty MGIB. The reason for the steep decline in these benefits is 
that the program competes directly for funding against annual 
discretionary reserve pay and benefit accounts. The Active Duty MGIB 
and the Post-9/11 GI Bill, are mandatory funding programs.
    Consistent with the MCRMC's basic recommendation about educational 
benefit programs redundancy, FRA could support a Reserve MGIB program 
as an initial entry benefit for reservists that was part of an 
overarching military education program that would include benefits 
adequate enough to maintain and support the All-Volunteer Force.
    FRA supports MCRMC Recommendation 12 and suggests that mandatory 
GPS should also include spouses and that the program should be adjusted 
to include programs that benefit the entire family. Further local 
branches of military/veterans organizations should also be involved in 
the transition from military to civilian life. Affiliating with one or 
more of organizations can provide critical transition assistance such 
as contacts in the local community, and camaraderie with fellow 
veterans.
                           draft legislation
    FRA wants to express its appreciation for having the opportunity to 
comment on draft legislation that includes provisions from other bills. 
The draft bill includes provisions from the ``Veterans Small Business 
Opportunity and Protection Act'' (S. 296), sponsored by Sen. Dean 
Heller (NV), that recognizes the surviving spouse of a service-
connected disabled veteran, who acquires the ownership interest in a 
small business of the deceased veteran as such veteran.
    When a Veteran small business owner with a service-connected 
disability of less than 100 percent dies from causes unrelated to 
service, the spouse immediately loses those benefits. FRA supports this 
legislation, sponsored by Sen. Dean Heller (NV) that will help veteran 
owned family businesses remain eligible for small business benefits.
    The Association supports the ``Honor America's Guard-Reserve 
Retirees Act'' (S. 743), which recognizes servicemembers in the reserve 
components the status as a veteran. Under current law, a reserve 
component servicemember who has served honorably for twenty or more 
years, earning the right to retire, is not considered a veteran. FRA 
believes that for those who serve honorably in the Guard or Reserve 
components for 20 or more years and who have met the requirements as a 
retiree should be granted the title as veteran.
    FRA supports the ``Quicker Veterans Benefits Delivery Act'' 
(S. 666), sponsored by Sen. Al Franken (Minn.) that intends to improve 
the disability claims backlog by removing bureaucratic red tape that 
allows Veterans to see local doctors for their initial diagnosis and 
avoid long wait times at VA hospitals.
    The Association supports the ``Dignified Interment of Our Veterans 
Act'' (S. 695), sponsored by Sen. Patrick Toomey (Penn.) that requires 
the VA to report to Congress on issues relating to the interring of 
veterans' unclaimed remains in national cemeteries under the auspices 
of the National Cemetery Administration. The Missing in America Project 
conducted research that suggests there are remains of about 47,000 
veterans stored throughout the United States that have yet to be 
identified and/or claimed.
    FRA supports the ``Ruth Moore Act'' (S. 865), sponsored by Sen. Jon 
Tester (Mt.) that makes it easier for veterans to qualify for 
disability benefits by reducing their burden of proof for incidents of 
military sexual trauma. The legislation is named after Navy Veteran, 
Ruth Moore, who is a survivor of military sexual assault. This 
legislation will also require the VA to report military sexual trauma 
claim statistics annually to Congress.
                               conclusion
    In closing, allow me again to express the sincere appreciation of 
the Association's membership for all that you and the Members of the 
Senate Veterans' Affairs Committees and your outstanding staff do for 
our Nation's veterans.

    Our leadership and Legislative Team stand ready to work with the 
Committees and their staffs to improve benefits for all veterans who've 
served this great Nation.
                                 ______
                                 
 Testimony for the Record of Jamie Tomek, Chair, Government Relations 
              Committee, Gold Star Wives of America, Inc.
    Thank you for the opportunity to submit Testimony for the Record 
for the Joint Senate and House Veterans' Affairs Committee hearing on 
Wednesday, May 13, 2015.
    Gold Star Wives of America, Inc. (GSW) was founded in 1945 and is a 
Congressionally Chartered Veterans Service Organization which serves 
the surviving spouses of military servicemembers and veterans who died 
in service to this Great Nation.
s. 270, the charlie morgan military spouses equal treatment act of 2015
    This bill changes the Title 38 requirement that a spouse must be of 
the opposite sex and amends current law so that the determination of 
whether or not a marriage is valid is determined by the laws 
administered by the Secretary of the Department of Veterans Affairs 
rather than a variety of state, territory and local laws. GSW concurs 
with this proposed legislation.
              21st century veterans benefits delivery act
Sec 208. Report on Plans of Secretary of Veterans Affairs to Reduce 
        Inventory of Claims for Dependency and Indemnity Compensation 
        and Claims for Pension Congress is requesting that the 
        Department of Veterans Affairs provide a plan to reduce the 
        inventory of claims for Dependency and Indemnity Compensation 
        and Pensions.
    Timely processing of Dependency and Indemnity Compensation (DIC) 
claims and timely receipt of DIC is critical to many surviving spouses. 
DIC is often the only income a surviving spouse receives and delay in 
processing and sending DIC causes a significant financial crisis.
    GSW concurs with the need for this plan.
                            discussion draft
Sec 102. Treatment of Businesses after Deaths of Servicemember-owners 
        for Purposes of Department of Veterans Affairs Contracting 
        Goals and Preferences

    S. 296--Sec 102 of the Discussion Draft became S. 296. S. 296, 
Sec 3 (i) reads:

          ``(i) Treatment of businesses after death of servicemember-
        Owner.--(1) If a member of the Armed Forces owns at least 51 
        percent of a small business concern and such member is killed 
        in line of duty * * * ''

    The wording ``such member is killed in the line of duty'' should be 
amended to read ``and such member dies in the line of duty.'' The word 
``killed'' excludes all those who die on active duty. GSW has 
encountered this problem with killed vs. died in the past and the error 
is usually unintentional and due to not understanding the legal 
difference between the two words. Other than the issue stated above GSW 
concurs with this legislation.
Sec 204. Pilot Program on Treatment of Certain Applications for 
        Dependency and Indemnity Compensation as Fully Developed Claims

        ``(b)(4) in the case that the claimant is the spouse of the 
        deceased veteran, certifies that he or she has not remarried 
        since the date of the veteran's death.''

    Surviving spouses who remarry at or after the age of 57 may receive 
Dependency and Indemnity Compensation. The above paragraph should be 
amended to add this information. Other than the issue stated above GSW 
concurs.
          mcrmc legislative proposal recommendations 11 and 12
Sec 1104 and 1105. Post-9/11 GI Bill Transferability
    Servicemembers may transfer their post-9/11 education benefits to a 
family member but will incur an increase in their service obligation. 
GSW concurs with this proposal.
                                reports
    There are numerous provisions in these proposals requiring a 
variety of different reports. Reports such as those mentioned herein 
are expensive and after a period of time are no longer needed or used. 
Such reports should have a termination date stated initially and if the 
report is still needed after the termination date action may be taken 
to extend the termination date.
                        surviving spouse issues
    There are numerous issues in the above reports pertaining to 
education benefits. Since education issues are being addressed the 
following issue concerning the Gunnery Sergeant John David Fry 
Scholarship/Post-9/11 GI Bill could easily be addressed with those 
issues.
Gunnery Sergeant John David Fry Scholarships/Post-9/11 GI Bill for 
        Surviving Spouses
    We are very grateful for Congress' recent approval of the Gunnery 
Sergeant John David Fry Scholarships or Post-9/11 GI Bill for the Post-
9/11 surviving spouses of those who died on active duty. The Fry 
Scholarships became available to surviving spouses effective in 
January 2015 and are available to a surviving spouse for 15 years after 
the death of his or her military spouse. If a surviving spouse's 
military spouse died early in the post-9/11 era, the surviving spouse 
does not have enough time to complete a 4 year college degree. Please 
extend the time limit for using the Fry Scholarship benefits from 15 
years after the death of the military spouse to 20 years after the 
death of the military spouse.
                                 ______
                                 
    Prepared Statement of David Stacy, Government Affairs Director, 
                         Human Rights Campaign
    Mr. Chairman and Members of the Committee: My name is David Stacy, 
and I am the Government Affairs Director for the Human Rights Campaign, 
America's largest civil rights organization working to achieve lesbian, 
gay, bisexual and transgender (LGBT) equality. On behalf of our 1.5 
million members and supporters nationwide, I am honored to submit this 
statement into the record for this important hearing on pending 
benefits legislation that will impact our veterans. Today I will 
specifically speak in support of the Charlie Morgan Military Spouses 
Equal Treatment Act of 2015. Our veterans and their families have 
sacrificed deeply in service to our country. The Charlie Morgan Act 
promotes fundamental fairness and ensures that all veterans, regardless 
of who they love or where they live, receive the benefits that they 
have earned and deserve.
    Following the U.S. Supreme Court decision in U.S. v. Windsor, which 
invalidated Section 3 of the Defense of Marriage Act (DOMA), the 
Federal Government--including the Department of Veterans' Affairs--
began recognizing same-sex spouses for the purposes of Federal benefits 
and services. However, for LGBT veterans access to these benefits is 
far from universal. Current statutory language limits eligibility for 
veterans' benefits to those living in states that recognize their 
marriage. This means that despite sweeping advances in equality and 
marriage recognition over the past decade, thousands of same-sex 
married couples living in states that do not recognize their marriage 
are denied access to these benefits including burial rights and home 
loan guaranty benefits.
    Veterans' benefits provide critical medical and financial support 
for veterans and their families. For veterans struggling with injury or 
disability as a result of service, these benefits can be a lifeline. 
For many active duty servicemembers, these benefits are a promise that 
their loved ones will be taken care of if they don't make it home. 
However, despite their service and sacrifice some veterans and 
servicemembers continue to be denied these most basic assurances.
    This denial is not only fundamentally unfair, it also promotes an 
arbitrarily discriminatory system that harms veterans and their 
families solely based on geography.
    Recognizing this, the Department of Defense has implemented a 
policy recognizing all same-sex marriages of enlisted servicemembers 
regardless of the state where the family lives. This policy promotes 
consistency and fairness and recognizes the mobility that we so often 
ask of our servicemembers. The failure of the Federal Government to 
provide uniform benefits to all veterans results in a frustrating and 
harmful scenario for many LGBT servicemembers. Due to these conflicting 
policies, upon retirement many veterans' families will lose benefits 
over night. This not only frustrates common sense, but disrespects the 
service and sacrifice of our veterans as well as their families.
    The harm of these denials results in daily hardships for too many 
families. Despite the Supreme Court decision in U.S. v. Windsor, eight 
year Army veteran Earl Rector was denied a VA home loan in Texas with 
his husband Alan. The couple had legally married in Washington State 
and returned to Dallas to purchase a home. Despite meeting every other 
qualification, the Department of Veterans' Affairs denied the loan, 
leaving Earl with no recourse or assistance. Under the current 
discriminatory statute Earl and Alan were considered to be legal 
strangers by the Department simply because of their home state. Despite 
years of service, Earl was forced to secure a costly private mortgage 
to purchase the home.
    Earl and Alan are not alone. These daily denials are disrespectful, 
costly, and too often heartbreaking. Chief Warrant Officer Charlie 
Morgan passed away believing that her wife and daughter would go 
unrecognized and receive none of the benefits that she had earned 
during her years of service. No servicemember should face this stark 
discrimination at a time when they need support the most. We have made 
a promise to all of our veterans who faithfully serve our country 
alongside their families. It is time to keep this promise.

    I appreciate the opportunity to offer this testimony today and urge 
Congress put an end to this harmful discrimination against our brave 
service men and women.
                                 ______
                                 
     Prepared Statement of Military Officers Association of America
    Chairman Isakson, Ranking Member Blumenthal: The Military Officers 
Association of America (MOAA) is pleased to present its views on 
veterans' benefits legislation under consideration by the Committee 
today, May 13, 2015.
    MOAA does not receive any grants or contracts from the Federal 
Government.
 military compensation and retirement modernization commission (mcrmc)
    MCRMC Recommendation 11 proposes that Congress ``Safeguard 
education benefits for Servicemembers by reducing redundancy and 
ensuring fiscal sustainability of education programs.''
    MOAA has long supported consolidating multiple educational benefit 
programs in a single platform under Title 38 with benefits eligibility 
and scope based on the length and type of duty performed.
    Specifically, the MCRMC recommends a number of steps toward 
reducing redundancy in GI Bill programs. MOAA endorses most of the 
specific proposals and offers these comments for the Committee's 
consideration.
    Montgomery GI Bill and REAP. MCRMC recommendation: Montgomery GI 
Bill--Active Duty (Chap. 30, 38 U.S.C.) should be sunset on 
1 October 2015. The Reserve Educational Assistance Program (REAP) 
(Chap. 1607, 10 U.S.C.) should be sunset restricting any further 
enrollment and allowing those currently pursuing an education program 
with REAP to complete their studies. Servicemembers who switch to the 
Post-9/11 GI Bill should receive a full or partial refund of the $1,200 
they paid to become eligible for MGIB benefits. The refund should be 
proportional to the amount of the Post-9/11 GI Bill benefit used.
    MOAA concurs. The Post-9/11 GI Bill should be the sole educational 
platform for supporting recruitment, retention and re-adjustment 
outcomes for the All-Volunteer Force. Servicemembers with MGIB-AD or 
REAP entitlement should be grandfathered with those benefits; under 
current policy they may elect to convert to the new GI Bill, if 
eligible. $1200 refunds are already authorized for MGIB-AD holders who 
make an irrevocable election to the new GI Bill and consume all 36 
months of their entitlement. MOAA recommends making $1200 refund rules 
clearer and simpler.
    Transfer Eligibility of Educational Benefits. MCRMC recommends 
eligibility requirements for transferring Post-9/11 GI Bill benefits 
should be increased to 10 YOS plus an additional commitment of 2 YOS. 
This change strengthens transferability as a true retention tool and 
aligns transferability eligibility to the Commission's Recommendation 
on retirement.
    MOAA does not support the transferability recommendation. Congress 
provided statutory authority for the Dept. of Defense (DOD) to 
determine the optimal service obligation for eligible servicemembers to 
transfer new GI Bill benefits to dependents. MOAA recommends DOD review 
its policy/procedures and adjust transferability service commitments to 
support career force retention as necessary.
    Housing Stipend. MCRMC recommends the housing stipend for 
dependents should be sunset on July 1, 2017.
    MOAA has no position on sunsetting the housing stipend for future 
Post-9/11 GI Bill transfer contracts entered into on/after 1 July 2017. 
However, MOAA strongly objects to any cancellation of the housing 
stipend under transferability contracts in place before 1 July 2017. 
DOD should not break faith on existing transfer agreements including 
the housing stipend (BAH) after 1 July 2017. In cases where service 
extension agreements have already been signed and/or fulfilled for 
transferability, BAH for dependents must be honored, and servicemembers 
with such contracts should not have to meet a new threshold of service.
    Unemployment Compensation. MCRMC recommends eligibility for 
unemployment compensation should be eliminated for anyone receiving 
housing stipend benefits under the Post-9/11 GI Bill.
    MOAA objects to the proposal. Housing stipends start and stop in 
synch with academic and training calendars. Unemployment compensation 
is needed for veterans, including veterans with dependents, to meet 
financial obligations during breaks in full-time study or training.
    Tracking Education Levels. DOD should track the education levels of 
Servicemembers leaving the Service, as well as the education levels of 
Servicemembers who transfer their Post-9/11GI Bill to their dependents. 
MOAA supports.
    Report to Congress. The VA should collect information related to, 
but not limited to, graduation rates, course competition rates, course 
dropout rates, course failure rates, certificates and degrees being 
pursued, and employment rates after graduation, and include that 
information in an annual report to the Congress.
    MOAA supports. The Departments of Defense, Veterans' Affairs and 
Education must build on their ongoing efforts to track outcomes from 
military tuition assistance (TA) and GI Bill programs.
    Non-Personally Identifiable Information. Educational institutions 
should be required to provide non-personally identifiable information 
on students who receive Post-9/11 GI Bill and TA benefits, when 
requested by DOD or VA.
    MOAA supports. Allow the collection of non-personally-identifiable 
veteran data by the Department of Education.
   montgomery gi bill--selected reserve (mgib-sr) (chapter 1606, 10 
    u.s.c.). the mcrmc did not make a recommendation re the mgib-sr.
    MOAA position. The MGIB-SR program paid nearly 50 cents to the 
dollar compared to the MGIB-AD for the first 14 years of its existence 
(1985-1999). Thereafter, the Services and their National Guard and 
Reserve components allowed the program to dwindle to a current ratio of 
22 cents to the dollar compared to the MGIB-AD. The reason for the 
steep decline in these benefits over time is the program competes 
directly for funding against annual discretionary reserve pay and 
benefit accounts. The MGIB-AD and the Post-9/11 GI Bill, on the other 
hand, are mandatory funding programs under Title 38. As a Title 10 
discretionary program DOD has declined to sustain the MGIB-SelRes as a 
recruitment tool.
    Consistent with the MCRMC's basic recommendation to eliminate 
educational benefit programs redundancy, MOAA has long maintained that 
the MGIB-SR should be re-codified as a sub-chapter in Chapter 33, 38 
U.S.C. as an initial entry benefit for reservists. A single GI Bill 
platform with benefits scaled to the length and type of duty performed 
is needed to support All Volunteer Force manpower in the 21st century.
   department of defense legislative proposals--regarding education 
  benefits, transition assistance program, and advisory board on dose 
         reconstruction (sections 514, 522, 542, 545, and 1041)
    DOD Legislative Proposal Section 514. Expansion of Service 
Qualifying for Post-9/11 GI Bill Entitlement. DOD proposes to add 
Section 12301(h), 10 U.S.C. as qualifying active duty service for 
reservists who are receiving authorized medical care--medical hold 
status--for Post-9/11 GI Bill entitlement purposes.
    Members of the National Guard or Reserve who are disabled on active 
duty orders and receiving medical care should not lose eligibility for 
Post-9/11 GI Bill benefits.
    The DOD's Reserve Forces Policy Board recommended to the Secretary 
of Defense a change in law on the basis of equity. MOAA agrees. 
Currently, when a Guard or Reserve servicemember is injured or wounded 
in a combat theatre, the member is transitioned on orders to a medical 
hold status under 10 U.S.C. 12301(h). This stops accrual of active duty 
time that would count toward Post-9/11 GI Bill entitlement. If the 
member is not discharged but returns to service, none of the time spent 
in medical hold counts as qualifying service. In effect, the reserve 
member is penalized for a line-of-duty wound, injury or illness. 
Coincidentally, if the same member were discharged from service because 
of the disability, the member would earn 100% of the benefit--assuming 
30 days continuous active duty service.
    Reservists continue to honorably serve wherever and whenever they 
are needed. Closing this oversight in current statute would allow all 
servicemembers to continue to accrue the educational benefits earned in 
service while receiving medical care from the DOD under Section 
12301(h) of Title 10.
    MOAA strongly supports S. 602, the GI Bill Fairness Act of 2015, 
which would implement DOD's recommendation for reservists in medical 
hold status.
    Section 522. Recovery of MGIB-Selected Reserve (MGIB-SR) Benefits 
for Service on Active Duty under Recently Added Authorities. DOD 
proposes that Sections 12304a and 12304b of 10 U.S.C. would be added to 
existing authorities in Chapter 1606, 10 U.S.C. so that reservists 
called to active duty under these sections may regain lost MGIB-SR 
after release from active duty.
    Section 12304a authorizes the involuntary activation of a National 
Guard or Reserve member by the Secretary of Defense when a state 
Governor requests Federal assistance in responding to a major disaster 
or emergency. Reservists may serve a continuous period of active duty 
of not more than 120 days under the authority. Under a catastrophic 
event like Hurricane Katrina reservists may need to be activated for a 
period of time that would compel them to repeat a course of study or 
training.
    Section 12304b authorizes Secretaries of the Military Departments 
to order as many as 60,000 members of the Selected Reserve to active 
duty to augment the active forces for missions in support of a 
combatant command for up to 365 days without the consent of the member. 
By law, such missions must be preplanned and budgeted in Service budget 
submissions and members must be notified 180 days prior to their 
activation. Reservists may be activated if an exception to policy is 
approved by the Secretary of Defense. When this happens, servicemembers 
may be forced to lose academic credit for withdrawal from a course. DOD 
anticipates that few reservists would be affected over the next few 
years but wants to protect their earned benefits.
    MOAA supports the DOD proposal. Reservists called to operational 
duty under Sections 12304a and 12304b should not lost entitlement to 
MGIB-SR benefits during their active duty service.
    The ``operational reserve'' policy was promulgated by former 
Secretary of Defense Bob Gates on January 17, 2007. It specifies that 
members and units of the National Guard and Reserve can expect to serve 
up to one year on active duty to perform operational missions for every 
six years of service in the Selected Reserve--``one year mobilized to 
every five years demobilized ratio.'' DOD's recommendation springs from 
acknowledgement that additional call-up authorities provided by 
Congress should not be a cause for them to lose earned MGIB-SR 
benefits.
    That said, MOAA believes that the DOD recommendation on Sections 
12304a and 12304b is too narrowly drawn. MOAA recommends that Sections 
12304a and 12304b be added to the Post-9/11 GI Bill under Section 3301, 
38 U.S.C. By any reasonable interpretation of Congress' intent for 
Sections 12304a and 12304b, missions that would be performed under such 
orders are operational missions for the purpose of defending or 
protecting the homeland or augmenting active force missions that are 
pre-planned and budgeted.
    In MOAA's view, reservists who serve aggregates of 90 days of 
active duty under Sections 12304a and 12304b should be entitled to 
Post-9/11 GI Bill benefits. Our recommendation is consistent with the 
MCRMC's view on education benefits, discussed earlier, to eliminate GI 
Bill programs redundancy and rely on Chapter 33, 38 U.S.C. as the GI 
Bill educational platform for the All Volunteer Force.
    Section 542. Update Involuntary Mobilization Authorities Exempted 
from the USERRA Five-year Limit. DOD proposes to add references to 
Sections 12304a and 12304b of 10 U.S.C. to complete the list of current 
statutory authorities exempt from the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) five-year limitation under Chapter 43, 
38 U.S.C.
    Congress enacted the USERRA to protect members of individuals who 
perform or have performed service on active duty from employment 
discrimination on the basis of their uniformed service in accordance 
with Sections 4301-4335, 38 U.S.C. As DOD notes, the USERRA is 
``intended to ensure that these uniformed servicemembers are not 
disadvantaged in their civilian careers because of their service; are 
promptly reemployed in their civilian jobs upon their return from duty; 
and are not disadvantaged against in employment because of their 
military status or uniformed service obligations.''
    Adding Sections 12304a and 12304b is consistent with Congress' 
intent for protecting uniformed servicemembers when called to active 
duty. MOAA strongly supports amending the USERRA to include Sections 
12304a and 12304b, 10 U.S.C.
    Section 545. Pre-Separation Counseling for Members of the National 
Guard and Reserves on Continuous Active Duty. DOD proposes to 
``expressly exclude'' any period of active duty for training (ADT) from 
receiving transition assistance program (TAP) services. TAP is provided 
to members who are being discharged or released before the completion 
of that member's first 180 days active duty.
    According to DOD, the ``first 180 days'' can be misinterpreted to 
mean the first 180 cumulative days on active duty as in the case of 
National Guard and Reserve members.
    MOAA accepts the proposal to clarify the intent to exclude an 
initial period of active duty training (ADT) in the calculation of 
service to qualify for TAP services.
    We point out that the DOD and Services could use the proposed 
change to ``game'' the system by putting reservists on ADT and active 
duty orders in connection with an operational call-up.
    There are numerous examples of call-ups executed during OIF-OEF in 
the last decade that involved blended ADT and active duty orders. These 
appear to have been used to align the call-ups with available funding 
sources and to manage the numbers of National Guard and Reserves who 
were to be counted on ``active duty'' for operational purposes.
    MOAA is concerned that the proposed change could be used against 
reservists during extended call-ups to deny their access to TAP re-
adjustment services. MOAA, therefore, opposes the proposal as written. 
MOAA recommends the Committee review this matter with the Armed 
Services Committee to ensure Guard and Reserve members who are on 
active duty to perform operational missions are not denied TAP upon the 
completion of 180 days of continuous active duty.
    Section 1041. Repeal the Authority for the Federal Advisory 
Committee Act Board on Radiation Dose Reconstruction Program. DOD 
proposes to repeal the FACA advisory board for the Radiation Dose 
Reconstruction Program. DOD asserts the board has achieved its 
objectives and its functions can now be more effectively conducted 
through an interagency effort rather than through a FACA advisory 
board.
    DOD notes that the Veterans' Advisory Board on Dose Reconstruction 
(VBDR), a Federal Advisory Committee, provides technical assistance on 
DOD's Radiation Dose Reconstruction Program and the Dept. of VA's 
radiological disease claims processing procedures. DOD is requesting 
that that review and oversight functions of the VBDR be transferred to 
the Secretaries of Defense and Veterans Affairs.
    MOAA is not opposed to sunsetting the Federal Advisory Board on 
Radiation Dose Reconstruction. MOAA, however, would recommend the 
Committee consider the potential value in re-casting the VBDR charter 
with a broader mission of advising the Secretaries of Defense and 
Veterans Affairs on toxic exposures. The experience of our Nation's 
warriors over the past 25 years with exposures to burn pits, chemical 
weapons, hazardous military materials, spent uranium rounds, 
biologicals, and other toxic materials suggests that a Federal Advisory 
Board would be of value to the respective departments, servicemembers, 
veterans and their families.
    S. 681, Blue Water Navy Vietnam Veterans Act of 2015 (Senators 
Gillibrand, D-NY, Tester, D-MT and Moran, R-KS. S. 681 would authorize 
Agent Orange-related benefits to Navy veterans who served in the 
territorial waters of Vietnam during that conflict. Despite scientific 
studies confirming their likely onboard exposure to dioxin and other 
chemicals that make up Agent Orange, these veterans have been denied 
access to service-related disability and other benefits arising from 
illnesses presumed caused by the exposure.
    MOAA has long maintained that these veterans deserve equal 
treatment with other veterans who set ``boots on the ground'' during 
the Vietnam War. That limitation was arbitrary, unfair and not based on 
science.
    MOAA strongly supports S. 681 and urges the Committee favorably 
report the bill as soon as possible.
    S. 1203, The 21st Century Veterans Benefits Delivery Act (Senators 
Heller, R-NV and Casey, D-PA). S. 1203 builds upon Senator Heller and 
Casey's legislation passed in the last session of Congress to advance 
practical, low-cost solutions to resolve the backlog of veterans' 
claims in the Department of Veterans Affairs (VA). The bill also sets 
out supporting initiatives that can improve the efficiency and 
effectiveness of procedures and practices to sustain the claims system 
for the future.
    The 21st Century Veterans Benefits Delivery Act includes provisions 
beneficial to our Nation's veterans that will enable easier access to 
information on their claims through the eBenefits portal and speed 
access to hearings when they appeal a claim. The legislation also 
brings needed reforms to VA regional offices' practices that are 
designed to increase the accuracy and efficiency of their work on 
behalf of veterans and improve transparency. Additionally, S. 1203 
requires government agencies to cooperate in the collection and 
transmission of information needed by the VA to decide veterans' 
claims, and for other purposes.
    MOAA is very grateful that Senators Heller and Casey's offices 
actively consulted with us and our partner veteran service 
organizations to improve the draft legislation and make it responsive 
to the needs of our veterans.
    MOAA strongly supports the 21st Century Veterans Benefits Delivery 
Act, S. 1203, and urges the Committee to favorably report the bill at 
the earliest opportunity.
    discussion draft legislation including provisions derived from 
                         various senate bills.
    S. 241, the Military Family Relief Act of 2015 (Senators Tester, D-
MT and Moran, R-KS), would provide for the payment of temporary 
Dependency and Indemnity Compensation (DIC) to a surviving spouse of a 
veteran upon the death of the veteran, and for other purposes. MOAA 
strongly supports S. 241.
    S. 296, the Veterans Small Business Opportunity and Protection Act 
of 2015 (Senator Heller, R-NV and Manchin, D-WV) would assist surviving 
spouses and dependents of service-disabled veteran-owned businesses 
after the veteran dies from the disability or in the line of duty, and 
for other purposes. MOAA supports S. 296.
    S. 666, the Quicker Benefits Delivery Act of 2015 (Senator Franken, 
D-MN) would require (instead of permit) the consideration of non-Dept. 
of VA medical professionals evidence in support of claims for 
disability compensation submitted by veterans, and for other purposes. 
MOAA strongly supports S. 666.
    S. 695, the Dignified Interment of Our Veterans Act of 2015 (Sen. 
Toomey, R-PA) would require the Secretary of Veterans Affairs to 
conduct a study on matters relating to the burial of unclaimed remains 
of veterans in national cemeteries, and for other purposes. MOAA 
supports S. 695.
    S. 743, Honor America's Guard-Reserve Retirees Act of 2015 (Senator 
Boozman, R-AR) would honor as a veteran members of the National Guard 
or Reserves who are entitled to or in receipt of retired pay for non-
regular (reserve) service but who had not served on active duty.
    National Guard and Reserve members who complete a full career in 
reserve status and are receiving or entitled to a military pension, 
government health care and specific earned veterans' benefits under 
Title 38 are not ``veterans of the Armed Forces of the United States,'' 
in the absence of a qualifying period of active duty.
    Due to military accounting and funding protocols, many reservists 
actually have performed operational missions during their careers but 
orders often were issued under other than a Title 10 active duty 
authority. S. 743 would honor these retired servicemembers as veterans 
but preclude award of any veterans' benefits they are not already 
entitled to as a result of their service. MOAA strongly supports 
passage of S. 243.
                                 ______
                                 
         Prepared Statement of Bryan Polisuk, General Counsel, 
              United States Merit Systems Protection Board

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of John B. Wells, USN (Ret), Executive Director, 
                       Military-Veterans Advocacy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Scott Levins, Director, National Personnel 
      Records Center, National Archives and Records Administration

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Peter J. Duffy, Colonel, USARMY (Retired), 
 Legislative Director, National Guard Association of the United States
    As Legislative Director of the National Guard Association of the 
United States, I thank you for the honor of submitting testimony with 
Senate Committee on Veterans' Affairs on pending benefits legislation. 
This testimony will respond to Chairman's request to address S. 602;the 
G.I. Bill Fairness Act of 2015; the legislative proposals to implement 
Recommendations 11 and 12 of the Military Compensation and Retirement 
Modernization Commission (MCRMC); and the legislative proposals from 
the Department of Defense (DOD) regarding Education Benefits, 
Transition Assistance Program and Advisory Board on Dose Reconstruction 
(sections 514,522542,545 and 1041).This statement will also comment on 
S. 865--the Ruth Moore Act of 2015.Thank you for this opportunity.
                     ngaus strongly supports s. 602
    NGAUS strongly supports S. 602 which would amend the Post-9/11 
Veterans Educational, Assistance Act of 2008 (Public Law 110-252) to 
recognize time National Guard and Reserve members serve on active duty 
receiving medical care as ``active duty'' for the purposes of 
eligibility for education assistance and to retroactively apply the 
amendment to the enactment date of Public Law 110-252 (hereinafter 
referred to as the Post-9/11 G.I. Bill).
    In order for members of the reserve components to qualify for 
educational benefit purposes under the Post-9/11 G.I. Bill as currently 
written, they must serve on active duty served under section 608,12301 
(a), 12301 (d),12301 (g),12302, or 12304 or section 712 of title 14. 
See 38 U.S.C. Section 3301(1) (B). Active duty service for medical 10 
U.S.C. Section 12301(h) is not included because that authority did not 
exist when Post-9/11 G.I. Bill was enacted.
    10 U.S.C. 12301(h) was enacted to authorize National Guard and 
Reserve members to remain on active duty for full pay and allowances 
for treatment and evaluation of their service-connected injuries and 
for other medical purposes. This addressed an ongoing problem during 
the wars of our members returning to their civilian lives unable to 
earn a living because of their debilitating but treatable injuries.
    When Congress enacted 10 U.S.C. 12301(h) during the ongoing OIF/OEF 
wars, it did not contemporaneously amend the existing Post-9/11 GI Bill 
in title 38 to qualify reserve component active duty served under 10 
U.S.C. 12301(h) for educational benefits. This appears to have been an 
oversight during a very busy time.
    NGAUS strongly supports this bill because the length of time 
reserve-component members serve on qualifying active duty determines 
their level of eligibility for education assistance. All active duty 
days need to be counted.
    Active-duty members receive full credit for education assistance 
for their time spent receiving medical care for service-connected 
injuries. In fairness, National Guard and Reserve members deserve the 
same.
    Not allowing educational benefits to apply to active duty served by 
the reserve components on for medical treatment discriminates harshly 
against our Guard and Reserve wounded warriors who have bravely served 
the Nation. This needs immediate correction that S. 602 would do with 
full retroactivity to the enactment of the Post-9/11 G.I. Bill.
    Please support this legislation and urge your colleagues to do the 
same.
     recommendation 11 of the military compensation and retirement 
                        modernization commission
    NGAUS concurs with recommendation 11 and the legislative proposal 
to implement if with a few exceptions.
    When enacting the consolidation recommendation, Congress needs to 
grandfather all in place service agreements relative to the transfer of 
Post-9/11 G.I. Bill benefits to dependents to include grandfathering 
any BAH currently being received by dependents.
    The Post-9/11 G.I. Bill benefit must also be amended to cover all 
National Guard Title 32 active duty period of 90 consecutive days or 
longer responding to a national emergency pursuant to orders issued 
under the authority of Title 32 section 502 (f). This will compensate 
for benefits National Guard members would lose with the recommended 
elimination of REAP.
    With respect to Army's Federal Tuition Assistance referenced in the 
MCRMCV report, the current program needs to restore the full benefit 
for the Army National Guard before being allowed to go forward as it is 
currently administered.
    On Jan. 1, 2014 the Army imposed restrictions on utilization of the 
FTA for all Army components which prohibits use of FTA until one year 
after completion of Advanced Individual Training (AIT) or Basic Officer 
Leadership Course (BOLC). This has been particularly harmful to the 
ARNG participation in FTA which has declined by 18 percent and reduced 
total course enrollment by 31 percent. Consequently, the ARNG 
distributed only $59.98 million of the $73.8 million appropriated in 
2014 for that purpose.
    The Army's Federal Tuition Assistance (FTA) program has provided 
valuable financial assistance to citizen soldiers of the Army National 
Guard (ARNG) to advance their professional development as a soldier 
with benefits of up to $250 per semester credit hour or $167 per 
quarter credit hour not to exceed $4,500 a year; and 100 percent of 
high school equivalency tuition and fees up to $4,000 annually.
    The optimal time for ARNG soldiers to enroll in full time education 
programs is immediately after completion of their initial entry 
training. Immediate utilization of the FTA following initial training 
has not only been a valuable recruiting tool for the citizen soldier 
but it has effectively placed soldiers on a fast career development 
track. ARNG soldiers are in a better position than their active duty 
counterpart to enroll as full-time students while serving in the 
military.
    Soldiers receiving FTA within two years of accession have a higher 
retention rate than those not using FTA; soldiers using FTA within 
three years of enlistment have higher commission rates and are more 
likely to be higher quality accessions based on AFQT scores.
    Congress must assure restoration of FTA for the ARNG by rescinding 
the one year wait restriction imposed by the Army and return authority 
to the Army National Guard to implement a Federal tuition assistance 
policy that addressees the unique needs of the Guard soldier.
     recommendation 12 of the military compensation and retirement 
    modernization commission--making transition assistance programs 
                    mandatory but with improvements
    NGAUS concurs with this recommendation in theory but the practice 
needs amending to provide transition assistance services to separating 
members of the military closer to their homes which in truth may be as 
far as a continent away from the active installation hosting the 
Transition Assistance Program (TAP) they attended.
    Mental health providers in Florida reported last year that they 
treat veterans returning home to Florida after separating from the 
military who were totally unaware of the community mental health 
services available in that state.
    Mental health is only one of the services that a veteran may seek 
once home. They would also profit from awareness of what, where and 
from whom local employment and veteran assistance services are 
available. Receiving briefings from local personnel who will be 
administering these programs in their communities would allow our 
veterans to associate a face with a service. This would only enhance 
accession of those services as transition may require.
    Each state likely has the existing force structure through it 
National Guard Joint Force Headquarters to provide a facility and 
personnel for administering portions of TAP better delivered at the 
state level that could connect to local state and Federal agency staff 
who likely have been delivering similar transition briefs to 
demobilizing Guard members throughout the war years.
    This would provide a proven alternative or adjunct to existing TAP 
operations. One with the potential to save money for the government and 
likely anxiety on the part of the returning veteran with the better 
connectivity to in state resources that it would provide.
              department of defense legislative proposals
    NGAUS applauds and thanks DOD for this proactive effort in behalf 
of the reserve components that addresses problems that have emerged 
during the wars or are likely to emerge with future deployments.
Section 514
        please refer to the discussion above relative to s. 602.
    NGAUS certainly supports the DOD proposal to amend 38 U.S.C. 
3301(1) (B) to include reserve component active duty for medical care 
served under 10 U.S.C. 12301(h) as active duty for Post-9/11 G.I. Bill 
education eligibility purposes but it needs to go further.
    The proposed DOD amendment needs to incorporate the language of 
S. 602 so that it would be retroactively applied to the enactment of 
the Post-9/11 G.I. Bill. This would correct an apparent error in the 
legislative process that would provide equality in education benefit 
eligibility for all active duty and reserve component wounded warriors 
for their active duty time receiving medical care.
Section 522
    NGAUS supports this DOD proposal that similar to section 514 
discussed above that equitably recognizes and protects reserve 
component active duty deployments under authorities that did not exist 
when chapter 1606 of title 10, U.S Code was enacted.
    Montgomery G.I. Bill educational benefits lost because of reserve 
component active duty deployments under 10 U.S.C. 12304a and 12304b 
cannot currently be regained under the protections afforded by 10 
U.S.C. 16133 which apply only to deployments under other older 
authorities.
    Section 522 would correct this by amending 10 U.S.C. 16133 to allow 
the member to regain those benefits when a reserve component member 
could not complete studies because of an activation order under 10 
U.S.C. 12304a or 12304b.
    Section 522 would update protections in a fair and sensible manner. 
However, just as with section 514, there needs to be retroactive 
application to allow members of the reserve component to regain 
benefits lost because of past deployments under 10 U.S.C. 12304a or 
12304b.
Section 542
    NGAUS strongly supports amend this additional updating effort that 
would expand involuntary mobilization authorities exempt from the 
Uniform Services Employment Reemployment Rights Act (USERRA).
    Extended mobilizations beyond five years were harshly handled 
during the wars by some of our Nation's airlines in disallowing Air 
National Guard pilots to return to work who served more than five years 
protecting our Nation's airspace under Operation Noble Eagle /Air 
Sovereignty Alert orders. Legislation was passed late in the wars to 
address this.
    Section 542 is a forward looking effort that would protect reserve 
components members from an adverse employer's denial of reemployment 
based on a technical interpretation of existing USERRA law that does 
not apply to evolving deployment authorities.
Section 545
    NGAUS supports section 545 recognizing that TAP is not needed for 
reserve component deployments less than 180 days or for longer periods 
of active duty for training. This would save the members' time and he 
government time and money. Moreover, any transition assistance required 
by National Guard members is more effectively and economically 
available through their assistance programs delivered within their 
states and managed by their Joint Force HQ.
Section 1041
    NGAUS has scant experience with the programs covered by this 
proposal. Nevertheless, the proposal makes good economic and 
sustainment sense and avoids unnecessary duplication of effort by 
transferring to DOD and the Veterans Administration the duties still 
assigned to an aging Federal Advisory Committee that are actively and 
expertly being worked at DOD and VA.
                                 s. 865
    These comments are somewhat gratuitous but in review of the 
disability compensation protections that would be afforded sexual 
assault victims under S. 865--Ruth Moore, it is an opportunity to 
remind Congress of an alternative but underfunded authority to embed 
mental health providers in armories and Reserve Centers.
    Embedded licensed mental health care professionals embedded in 
armories and Reserve centers provide an onsite confidential touch point 
for sexual assault victims to report a sexual assault incident outside 
of the victim's chain of command.
    The embedded provider based the victim's civilian community will be 
well versed in what local support and prosecution services are 
available and can guide and advise the victim through that ticket.
    Moreover, sexual assault is the trigger and a precursor to a host 
of behavioral issues that can be immediately and confidentially 
addressed by an embedded mental health professional. This would not 
only help to protect and document a future disability claim but might 
well be a first step in preventing a suicide arising from the assault.
    The bill also grasps the need for victims to be able to support a 
disability claim from community based treatment outside of the Veterans 
Administration which may be perceived as male dominated and unfriendly 
to victims.
    There is a profound and ongoing need for Congress to fund 
confidential community based counseling services for veterans and their 
families similar to the successful Connecticut model that is 
administered cost effectively and efficiently with 24/7 access for 
veterans and families in crisis mode.
                                 ______
                                 
     Prepared Statement of National Military and Veterans Alliance

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Prepared Statement of Kenneth M. Carpenter, Founding Member, National 
               Organization of Veterans' Advocates, Inc.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Prepared Statement of National Veterans Legal Services Program

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to submit our views on pending legislation before 
the Committee. We appreciate the Committee focusing on these critical 
issues that will affect veterans and their families. We will also limit 
our comments on the Department of Defense (DOD) proposals to those 
issues that are governed by title 38 U.S.C.
 s. 270, the ``charlie morgan military spouses equal treatment act of 
                                 2015''
    PVA does not have an official position on this legislation. 
However, we believe that VA regulations should be consistent with 
current Federal law and how the larger Federal Government handles this 
issue.
              s. 602, the ``gi bill fairness act of 2015''
    PVA supports S. 602, the ``GI Bill Fairness Act of 2015.'' This 
legislation would include time spent receiving medical care from the 
Department of Defense as active duty time for the purpose of 
eligibility for Post-9/11 GI Bill. We have no doubt that this time 
should be considered active duty for purposes of eligibility for the 
Post-9/11 GI Bill. We also appreciate the fact that this legislation 
would be retroactive to the date of the enactment of the Post-9/11 GI 
Bill.
                                 s. 627
    PVA supports S. 627 to revoke bonuses paid to employees involved in 
electronic wait list manipulations. Our only caution is to ensure that 
due process is afforded to any employees identified in the Inspector 
General (IG) report. These employees violated the public trust and 
deserve appropriate discipline which may include the loss bonuses; 
however, they must be afforded the protections that Federal service has 
provided.
      s. 681, the ``blue water navy vietnam veterans act of 2015''
    PVA supports S. 681, the ``Blue Water Navy Vietnam Veterans Act of 
2015,'' which would amend title 38 and expand the presumption for 
service connection related to the exposure of herbicides containing 
dioxin, including Agent Orange. As more information becomes available 
about these types of exposures, it will be imperative for Congress to 
take appropriate steps to ensure that these men receive just 
consideration for health care and benefits eligibility.
military compensation and retirement modernization commission proposals
    PVA generally supports the proposals identified by the Military 
Compensation and Retirement Commission as they apply to title 38 U.S.C. 
However, we have strong objections to Section 1108. The Post-9/11 
educational benefit is earned by a servicemember after serving the 
prescribed length of service. In an effort to retain high quality mid-
grade servicemembers, the program included the ability to transfer the 
benefits to family members. The only change this section offers is to 
reduce the earned benefit by denying the Basic Housing Allowance (BHA) 
to family members to whom GI Bill benefits have been transferred. PVA 
believes the only reason for this change is to save money. We are 
seriously disappointed that by this effort to force our military 
members and veterans to pay for the cost savings through the reduction 
of their ``earned'' benefits. This section is wholly unacceptable and 
should not be part of any Congressional action.
              department of defense legislative proposals
    As previously stated, PVA does not generally involve itself in 
matters governed by DOD. However, PVA generally supports the Department 
of Defense legislative proposals as they apply to title 38 U.S.C. The 
bulk of these proposals correct provisions of public law to more 
appropriately treat Reserve and National Guard members when they are 
called to active duty, either involuntarily or for medical purposes.
    PVA concurs with Section 545. While there are those Reserve and 
National Guard members who could possibly benefit from the TAP program, 
this was not the purpose of TAP and should not be applied to active 
duty for training status.
    Regarding Section 1041 that eliminates the Federal Advisory Board 
for Radiation Dose Reconstruction Program, DOD indicates the Board has 
achieved its objectives. Too often we find Federal Agencies will claim 
something is no longer needed simply to save money. If in fact the 
Board's work has been accomplished, then PVA sees no issue with the 
elimination of the Board. However, we would encourage the Committee 
scrutinize this issue carefully and not simply take DOD's word for it.
          the ``21st century veterans benefits delivery act''
    PVA generally supports the provisions of the draft bill, the ``21st 
Century Veterans Benefits Delivery Act.'' Under Title I, PVA supports 
Section 101 that will prevent DOD from allowing TAP to be conducted 
entirely on-line. While improvements to the eBenefits Internet Web site 
will be valuable, we see too many instances of organizations moving 
more and more content and actions to the impersonal internet. The lack 
of face-to-face interaction that we find with the internet can 
significantly reduce the efficacy of services provided during a TAP 
program by eliminating the ability of the TAP instructor to identify 
body language that may indicate a lack of understanding or 
comprehension on the part of a soon to be discharged servicemember. In 
addition, individuals may be less likely to engage or ask questions 
when all content or training are on-line. Ensuring some level of 
personal interaction will benefit the veteran and make the transition 
to civilian life easier.
    PVA welcomes the provisions of Section 102 which will better 
explain the advantages for filing an appeal and see it as valid. 
However, we believe this issue is already being addressed in the 
revision of the Simplified Notification Letters (SNL) and we are 
heavily involved in this ongoing project. PVA supports Section 103 that 
will provide the opportunity for a veteran to request and be granted an 
in-person hearing before the Board of Veterans Appeals. While PVA 
strongly supports the use of video hearings and encourages those 
veterans served by our service officers to seek a video hearing, 
veterans that may feel uncomfortable with the technology should be 
allowed to seek an in-person hearing. We are glad to see that this 
legislation would require the Board to comply with this request.
    Under Title II, PVA supports the intent of Section 201 that will 
assess the consistency of decisions at a Regional Office (RO). Too 
often we see wide disparities between different RO's and how they treat 
a disability claim. The identification of Best Practices, if 
implemented by the Secretary and the Regional Offices, may better 
provide for veterans and remove the ``luck of the draw'' that is found 
today. But we caution that trying to have the Comptroller General audit 
what is an individual human assessment is unlikely to produce a valid 
outcome. While there may be the ability to determine some trends, only 
in the area of gross differences in opinions will there be any 
significant basis for evaluation.
    In addition, the training identified in Section 202 and the 
analysis of communication required by Section 203, may also improve the 
processes within VA as well as between its stakeholders in the veterans 
community and with Congress. Service center managers are the key to 
efficient claims processing. They are responsible for the training and 
development of the employees who are the heart and soul of claims 
processing. In the same way that Veterans Health Administration (VHA) 
employees were put under pressure to report timely service, Veterans 
Benefits Administration (VBA) managers have felt the need to 
demonstrate increased productivity. However, it seems late in the game 
to realize that key management personnel now need management training. 
PVA's fear is that the response by VA to such legislation will be 
enrollment in management courses that will enable VA to check off the 
block for training requirements without actually improving performance. 
If VA was truly interested in such improvement, this management 
training would already be occurring.
    While tasking the IG to review the practices of RO's regarding use 
of suspense dates, we believe Section 204 needs to better identify what 
this review is meant to achieve. It would be unfortunate if after 
almost a year of review, the IG provides information that is either of 
no value, or does not address the issues Congress sought by the 
legislation. Similarly, with Section 205, PVA believes the requirement 
to report on the capacity of the VBA to process benefits claims should 
be expanded to include the capacity of VA to process appeals and not 
just claims. PVA and other veterans' service organizations (VSO) 
predict a coming wave of appeals in the near future and information on 
VA's ability to process appeals may prove equally valuable. Regarding 
Section 206, PVA looks forward to seeing VA's plan for revising the 
resource allocation model for VBA.
    PVA will be interested in the findings of the semiannual report on 
implementation of the Veterans Benefits Management System (VBMS) under 
Section 207. PVA has been very supportive of VBMS as a tool that can 
speed the completion of simpler and more straight-forward claims. 
Automation and rules based processing has an important place in VBA 
claims processing. However, as PVA has always cautioned, VBMS is not an 
end-all and be-all for claims. While VBMS works for simple claims, 
those that are more complicated or have a significant number of issues 
cannot be easily processed with a rules-based system. These are the 
claims that need the ``human touch'' of an experienced claims 
adjudicator who fully understand the impact of wide ranging 
disabilities and their impact on each other. It has always been a fear 
of PVA that as VBMS became the standard for claims processing, VA would 
look to reduce costs or transfer personnel to other areas of VA thereby 
reducing the numbers of adjudicators needed for the more complex 
claims. As part of Section 207, PVA would like to see a report on how 
VA is handling those more complex claims and how VA has been able to 
improve the accuracy and reduce processing time of these more complex 
claims. Additionally, the legislation seems to only seek input from VBA 
employees and VSOs. We recommend that input also be received from 
employees of the Board of Veterans Appeals to ensure that the 
downstream impact of VBMS is also assessed.
    Section 208 requires a report on the Secretary's plans to reduce 
the inventory of claims for Dependency and Indemnity Compensation (DIC) 
and claims for Pension. PVA is as interested as Congress to see this 
plan. Additionally, it is absolutely critical that the increased 
transparency in Monday Morning Workload reports required by Section 209 
be enacted. It is impossible to improve processes without metrics to 
track success or failure. PVA is pleased to see the inclusion of 
partial ratings assigned and the information on Fully Developed Claims 
(FDC) as well as indentifying the Regional Office processing the FDC.
    Finally, including public access to reports on appeals decisions 
outlined in Section 210 will also increase transparency. This is 
perhaps one of the most opaque aspects of the claims process. While 
great attention is paid to processing times of initial claims, appeals 
seem to sit hidden away from view. We encourage the reporting of 
detailed information from previously adjudicated claims by the Appeals 
Management Center to identify problematic trends. As stated earlier, 
PVA sees a coming wave of appeals that may dwarf the current claims 
backlog in time, if not in number. Greater information for veterans and 
their representatives may help in better understanding the appeals 
process and shine some sunlight on this interminable process.
    PVA supports the provisions of Section 211 that will modify the 
pilot program for use of contract physicians for disability 
examinations. Hopefully this provision may allow VA to ensure that an 
appropriate physician is available to conduct a proper examination. Too 
often PVA sees exams performed by physicians not familiar with the 
disability in question.
            discussion draft for other veterans legislation
    PVA supports Title I, Sections 101 and 102, of the draft 
legislation that would modify the law governing the treatment of 
veterans' small businesses after the death of the disabled veteran 
business owner. Businesses are not built in a day. Moreover, they are 
built as an enterprise, and often as a family enterprise. The veteran 
may not expect to die while still owning his or her business and PVA 
believes it is only fair that the surviving spouse be able to have 
adequate time to maintain and then sell the business. This is 
particularly true in the case of the disable veteran who dies as a 
result of their service-connected disability or who dies in the line of 
duty.
    Currently if the veteran business owner passes away from a non-
service-connected illness or injury, and is rated less that 100 percent 
service-connected, the surviving spouse only has one year to transition 
the business out of SDVOSB status with VA. If the SDVOSB has contracts 
with any other Federal agency, the business immediately loses its 
SDVOSB status upon the passing of the veteran and all business must 
stop. This legislation will allow the business to retain the SDVOSB 
status for three years upon the passing of the veteran to allow for a 
transition of the business. This three year period would apply to 
SDVOSB contracts with the VA and all Federal agencies.
    PVA supports Sections 201-203 of the draft legislation that address 
Military Sexual Trauma. Our position is consistent with a previous 
stated position on H.R. 1607, the ``Ruth Moore Act,'' which addresses 
similar issues. According to reports, sexual assault in the military 
continues to be a serious problem, despite several actions by DOD to 
combat the issue, including required soldier and leader training. As 
the military works to reduce the threat and incident of military sexual 
trauma (MST), it is important that victims of MST, both women and men, 
have the ability to receive care from the VA and receive timely, fair 
consideration of their claims for benefits. This is particularly 
important given the number of MST occurrences that go unreported. While 
current policies allowing restricted reporting of sexual assaults 
should reduce the number of incidents which have ``no official 
record,'' it can still be anticipated that there are those who will not 
report the incident out of shame, fear of reprisals or stigma, or 
actual threats from their attacker. To then place a high burden of 
proof on the veteran, who has experienced MST to prove service-
connection, particularly in the absence of an official record, would 
add further trauma to an already tragic event.
    One particular recommendation that PVA would like to make about the 
proposed language is a clarification of what constitutes a ``mental 
health professional.'' We would hope that the intent of this 
legislation is not to limit ``mental health professionals'' to only VA 
health care professionals.
    PVA supports the provisions of Section 204. This section 
establishes a pilot program on treatment of certain applications for 
dependency and indemnity compensation (DIC) as fully developed claims. 
Additionally, we support Section 205 that requires a review of 
determination of certain service in Philippines during World War II. 
This has been an ongoing effort for multiple years. PVA supports the 
proper identification of service for the purposes of compensation and 
supports efforts to achieve that goal.
    PVA supports the provisions of Section 206. PVA has consistently 
testified on what we see as unnecessary medical examinations scheduled 
by VHA when sufficient non-VA medical information is present. But we 
would like to see more detail in the report as it applies to 
specialized care, in particular, care and treatment in Spinal Cord 
Injury (SCI) Centers. Because of the extensive use of SCI centers and 
specialists by PVA members, we need to be sure that the report includes 
not only ``private physician'' but ``VA treating physician'' 
information. There is a tremendous distinction between a C & P examiner 
doing the one time exam of a patient and the SCI physician who sees the 
patient on a regular basis. This distinction is critical to PVA and the 
proper care and evaluation of SCI patients as well as other disabled 
veterans who receive specialized care from VA.
    PVA supports the provisions included in Title III and IV of the 
draft legislation. However, in the case of Title IV, we would caution 
the Committee about anticipated confusion on the part of those members 
of the Reserves who gain recognition as ``veterans.'' We expect that 
these former members of the Reserves will eventually wonder that if 
they are in fact ``veterans,'' why they do not get the benefits of 
being veterans.

    Once again, we thank you for the opportunity to submit for the 
record. We look forward to working with the Committee to see these 
proposals through to final passage. We would be happy to take any 
questions you have for the record.
                                 ______
                                 
 Prepared Statement of Carol A. Bonosaro, President, Senior Executives 
                              Association


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
               Prepared Statement of The American Legion
    Chairman Isakson, Ranking Member Blumenthal and distinguished 
Members of the Committee, on behalf of National Commander Michael D. 
Helm and the 2.3 million members of The American Legion, we thank you 
and your colleagues for the work you do in support of servicemembers, 
veterans and their families.
  s. 270: charlie morgan military spouses equal treatment act of 2015
    To amend title 38, United States Code, to revise the definition of 
spouse for purposes of veterans benefits in recognition of new State 
definitions of spouse, and for other purposes
    The American Legion has no position on this legislation.
                  s. 602: gi bill fairness act of 2015
    To amend title 38, United States Code, to consider certain time 
spent by members of reserve components of the Armed Forces while 
receiving medical care from the Secretary of Defense as active duty for 
purposes of eligibility for Post-9/11 educational Assistance, and for 
other purposes.
    Members of the Guard or Reserve who are wounded in combat are often 
given orders under 10 U.S.C. 12301(h) for their recovery, treatment and 
rehabilitation. Unfortunately, Federal law does not recognize such 
orders as eligible for Post-9/11 GI Bill education assistance, meaning 
that unlike other members of the military, these members of the Guard 
and Reserve actually lose benefits for being injured in the line of 
duty.
    The GI Bill Fairness Act would end that unequal treatment and 
ensure these servicemembers are eligible for the same GI Bill benefits 
as active duty members of the military. It is truly unjust to deny 
wounded and injured servicemembers the ability to accrue educational 
benefits for the time they spend receiving medical care. No veteran 
should lose their benefits simply because they were in the National 
Guard or Reserves.\1\
---------------------------------------------------------------------------
    \1\ Resolution No. 14: Review of Federal Mobilization Personnel 
Statuses and Benefits
---------------------------------------------------------------------------
    The American Legion supports S. 602.
                                 s. 627
    A bill to require the Secretary of Veterans Affairs to revoke 
bonuses paid to employees involved in electronic wait list 
manipulations, and for other purposes
    The American Legion has no position
          s. 681: blue water navy vietnam veterans act of 2015
    To amend title 38, United States Code, to clarify presumptions 
relating to the exposure of certain veterans who served in the vicinity 
of the Republic of Vietnam, and for other purposes
    Veterans who served on open sea ships off the shore of Vietnam 
during the Vietnam War are called ``Blue Water Veterans.'' Currently, 
Blue Water Veterans must have actually stepped foot on the land of 
Vietnam or served on its inland waterways anytime between January 9, 
1962 and May 7, 1975 to be presumed to have been exposed to herbicides 
when claiming service-connection for diseases related to Agent Orange 
exposure.
    Blue Water Veterans who did not set foot in Vietnam or serve aboard 
ships that operated on the inland waterways of Vietnam must show on a 
factual basis that they were exposed to herbicides during military 
service in order to receive disability compensation for diseases 
related to Agent Orange exposure. These claims are decided on a case-
by-case basis.
    We are cognizant that VA previously asked the National Academy of 
Sciences' Institute of Medicine (IOM) to review the medical and 
scientific evidence regarding Blue Water Veterans' possible exposure to 
Agent Orange and other herbicides. IOM's report Blue Water Navy Vietnam 
Veterans and Agent Orange Exposure was released in May 2011. The report 
concluded that ``there was not enough information for the IOM to 
determine whether Blue Water Navy personnel were or were not exposed to 
Agent Orange.''
    However, Vietnam veterans who served on land and sea now have 
health problems commonly associated with herbicide exposure. Just as 
those who served on land were afforded the presumption because it would 
have placed an impossible burden on them to prove exposure, Congress 
should understand the injustice of placing the same burden on those who 
served offshore. Clearly, all the toxic wind-blown and waterborne Agent 
Orange-dioxin just didn't somehow stop at the coast line.\2\
---------------------------------------------------------------------------
    \2\ Resolution No. 250: Blue Water Navy Vietnam Veterans
---------------------------------------------------------------------------
    The American Legion strongly supports this legislation to expand 
the presumption of exposure to herbicides for veterans who served 
within the territorial seas of Vietnam, to ensure that proper benefits 
are awarded to those with conditions associated with exposure.
    The American Legion supports S. 681
     draft legislation: 21st century veterans benefits delivery act
    To amend title 38, United States Code, to improve the processing by 
the Department of Veterans Affairs of claims for benefits under laws 
administered by the Secretary of Veterans Affairs, and for other 
purposes.
    The American Legion was honored to work with Senators Heller and 
Casey in attempting to improve accountability within the Department of 
Veterans Affairs (VA); more importantly, through this accountability, 
it is The American Legion's pure objective to ensure that our Nation's 
veterans are receiving their entitled benefits due to their honorable 
service to this Nation. The American Legion especially applauds the 
efforts from the Backlog Working Group to reach out directly to the 
Veterans Service Organizations (VSOs) in an effort to understand the 
problems inherent the VA disability claims system. The American Legion 
alone accredits over 3,000 service officers nationally to assist 
veterans with their claims for benefits. This first hand, front line 
experience is critical to understand how the system actually operates 
``in the trenches.'' The willingness and eagerness of Senators Heller 
and Casey to go directly to the veterans who wage these battles for 
benefits daily has informed the policies they have proposed and 
underlined the absolutely critical need to include all stakeholders in 
the process of reforming any VA system.
    The bill is extensive in scope, so analysis of critical sections is 
provided:
Sec. 101--Improvement to Transition Assistance Program
    The American Legion supports making TAP classroom material 
available online and has long advocated for the inclusion of veterans 
service organizations (VSOs) to servicemembers as they transition from 
service. The American Legion believes The Department of Veterans 
Affairs (VA), the Department of Defense (DOD) and Department of Labor 
(DOL) need to work together to establish a nationwide policy to permit 
American Legion accredited representatives (service officers) as well 
as other major veterans service organizations (VSOs), that choose to 
participate in the Transition Goals, Plans and Success Program.\3\
---------------------------------------------------------------------------
    \3\ Resolution No. 210: Service Officers Participation in the 
Transition Goals, Plans and Success Program
---------------------------------------------------------------------------
Sec. 103--Determination of Manner of Appearance for Hearings before 
        Board of Veterans' Appeals
    For veterans opting to appeal their claims to the Board of 
Veterans' Appeals (BVA), it can often be an arduous process. In 
January 2015, The American Legion testified before the House Committee 
on Veterans' Affairs Subcommittee Disability Assistance and Memorial 
Affairs regarding the amount of time that veterans wait prior to having 
their claims adjudicated. During that testimony, we indicated that a 
veteran's standard four year enlistment is shorter than the period of 
time that a veteran must wait before a claim is adjudicated; sadly, 
approximately half of those claims reviewed by BVA must be remanded for 
further development to comply with VA's duty to assist veterans seeking 
disability benefits.
    Veterans have various avenues to have their claims adjudicated. 
They may choose to have the following:

    <bullet> An informal hearing presentation
    <bullet> A hearing at BVA in Washington, D.C
    <bullet> A travel BVA hearing
    <bullet> A video conference hearing

    The American Legion believes that veterans own their claims. As 
such, the manner they choose to prosecute their claims should remain 
theirs; however, if VA can provide the manner that would be the most 
expeditious while not reducing the veteran's due process rights to 
ensure they receive the benefits in a timely manner, it would be 
ultimately beneficial to the veteran community. Section 103 of this 
bill will allow veterans to have their claims to be adjudicated in a 
timelier manner and allow the veteran to ``opt-out'' of VA's suggested 
manner to have a hearing conducted. This is consistent with The 
American Legion's policy of encouraging VA to address all claims in an 
expeditious and accurate manner, provided VA creates no program that 
diminishes a veteran's due process rights.\4\
---------------------------------------------------------------------------
    \4\ Resolution No. 28: Department of Veterans Affairs Appeals 
Process
---------------------------------------------------------------------------
Sec. 201--Required Comptroller General Audit of Regional Offices of 
        Veterans Benefits Administration
    It is an unfortunate reality that veterans' claims are not 
adjudicated in a similar manner. A claim adjudicated in one office may 
be granted while denied in another; additionally, a claim in one office 
may be granted a higher disability rating than in a separate office. We 
recognize that adjudicating claims is inherently open to 
interpretation; however, during The American Legion's Regional Office 
Action Review visits in recent years, we have noted that certain VA 
regional offices are more adept than others at adjudicating claims.
    Over the past year, VA has been moving toward establishing its 
National Work Queue (NWQ) program designed to have claims adjudicated 
not by region, as has been VA's historical practice, but by available 
rater. To ensure that NWQ is successful, the veterans need assurance 
that a claim adjudicated by one regional office employee would have the 
same results in a different regional office. If not, VA runs the risk 
of NWQ ultimately becoming a chaotic world of VA appeals due to an 
uncertainty in the quality of adjudications. Through passage of 
Resolution 128 at our National Convention in Charlotte in August 2014, 
The American Legion called for transparency within VA. We assert 
through a third-party review of the manner that the claims are 
adjudicated; a fuller understanding of VA's manner of adjudication at 
each of its regional offices can finally be accomplished.
Sec. 203--Analysis of Communication between Regional Offices of 
        Department of Veterans Affairs and Veterans Service 
        Organizations and Congressional Caseworkers
    Section 203 is designed to increase the efficiency in the level of 
communication between VSOs and Congressional caseworkers. The American 
Legion has over 3,000 accredited representatives, to include service 
officers in each of VA's regional offices. Like the accuracy and nature 
in adjudicating claims, the level of communication between our 
accredited representatives and VA regional office employees differs by 
regional office.
    During the wake of last summer's VA health care scandal, The 
American Legion established Veterans Crisis Command Centers to allow 
veterans to gain access to their benefits. During an event in St. 
Louis, an elderly veteran stated for 20 years he had been pursuing his 
benefits, and in 20 minutes with The American Legion and VA personnel, 
he was able to finally gain the access he sought. He stated, ``This is 
a business built on communication, and VA has failed.''
    Similar to the necessity of communication between VA and veterans, 
VA needs to provide the necessary communication to VSOs; VSOs often 
provide the front line of advocacy for veterans. If we are unable to 
communicate, then a breakdown in the pursuit of benefits can occur. In 
our recent National Executive Committee meeting, The American Legion 
adopted Resolution 28 that calls for VA to pursue an efficient manner 
to adjudicate claims and appeals. While this section may not completely 
address the whole issue, improving communication between the advocate 
and VA will only strengthen the program.
    The American Legion supports efforts to improve the effectiveness 
in VA's adjudication of claims and appeals, provided these efforts 
don't impact or remove any due process rights afforded to veterans.\5\
---------------------------------------------------------------------------
    \5\ Ibid
---------------------------------------------------------------------------
Sec. 205--Annual Report on Capacity of Benefits Administration to 
        Process Benefits Claims
    According to the May 2, 2015, VA's Monday Morning Workload Report 
(MMWR), 439,928 claims are awaiting adjudication; 161,519 have been 
awaiting adjudication for over 125 days. 299,983 claims are languishing 
in appeals status. Compare this data with the MMWR released on May 3, 
2010, where 523,976 claims were awaiting adjudication; 189,048 claims 
were waiting a decision greater than 125 days with 189,269 claims in 
appeal status awaiting a claim. Though VA has made significant strides 
in improving its adjudication rates, it is evident that while the focus 
has been on original decisions, the appeals inventory has exploded by 
58.5 percent.
    In recent years, The American Legion has testified that VA is 
overwhelmed. Our Regional Office Action Review (ROAR) visitations have 
witnessed the level of stress within the VA regional offices. Not only 
are they understaffed, many employees simply do not have the level of 
experience necessary to adjudicate the claims. In speaking with VA 
management at the regional offices, they often referred to the level of 
inexperience and understaffing. Meanwhile, when asked by Congress 
regarding if they needed additional employees, VA senior leadership 
repeatedly stated that they have adequate levels of staffing.
    As we move closer to the December 2015 deadline to meet former VA 
Secretary Eric Shinseki's goal of having claims adjudicated within 125 
days and 98 percent accuracy, The American Legion fears that the focus 
upon achieving the arbitrary objective will come at a cost to veterans. 
Through Section 205, VA will be compelled to reveal the stress within 
the regional offices and can meet the needs of the veterans throughout 
the Nation. The American believes strongly in an increased level of 
transparency within the Veterans Benefits Administration;\6\ through 
passage of this bill, VA will be required to release its needs to 
Congress and increase its transparency.
---------------------------------------------------------------------------
    \6\ Resolution No. 128: Increase the Transparency of the Veterans 
benefits Administration's Claims Processing
---------------------------------------------------------------------------
    The American Legion supports the 21st Century Veterans Benefits 
Act.
  draft legislation: veterans compensation cost-of-living adjustment 
                              act of 2015
    To provide for an increase, effective December 1, 2015, in the 
rates of compensation for veterans with service-connected disabilities 
and the rates of dependency and indemnity compensation for the 
survivors of certain disabled veterans, and for other purposes.
    This draft bill would provide a Cost of Living Allowance (COLA) 
effective December 1, 2015. Disability compensation and pension 
benefits awarded by the Department of Veterans Affairs (VA) are 
designed to compensate veterans for medical conditions due to service 
or who earn below an income threshold. With annual increases to costs 
of living, it is only appropriate that veterans' benefits increase 
commensurate with those increases.\7\
---------------------------------------------------------------------------
    \7\ Resolution No. 291: Oppose Lowering of Cost-of-Living-
Adjustments
---------------------------------------------------------------------------
    The American Legion supports this draft bill.
     military compensation and retirement modernization commission 
  legislative proposals regarding commission recommendations 11 and 12
Sec. 1101: Montgomery GI Bill Sunset
    The American Legion supports this provision, but Congress should 
ensure that any inconsistency between MGIB-AD and the Post-9/11 GI Bill 
are identified and rectified prior to merging the two education 
programs. Servicemembers should not lose any portion of these 
educational programs due to the merger. Where the Post-9/11 GI Bill 
does not provide the same services as other educational programs, it 
should be amended to do so. Also, full or partial refund of the $1,200 
servicemembers paid to become eligible for MGIB should be made.
    Two examples of inconsistency between the MGIB-AD and Post-9/11 are 
as follows:

    (1) Currently Title 38 U.S. Code Chapter 33, subchapter II--
Educational Assistance (Sec. Sec. 3311-3319), section Sec. 3315(c) 
states the following:

        ``The charge against an individual's entitlement under this 
        chapter for payment for a licensing or certification test shall 
        be determined at the rate of one month (rounded to the nearest 
        whole month) for each amount paid that equals''

    The change to chapter 33 should mirror previous Public Law 106-419: 
Veteran Benefits and Health Care Improvement Act of 2000, section 122 
that outlined licensing and certification, and reads as follows:

        ``The number of months of entitlement charged in the case of 
        any individual for such licensing or certification test is 
        equal to the number (including any fraction) determined by 
        dividing the total amount of educational assistance paid such 
        individual for such test 8 by the full time monthly 
        institutional rate of educational assistance which, except for 
        paragraph (1), such individual would otherwise be paid under 
        subsection (a)(1), (b)(1),(d), or (e)(1) of section 3015 of 
        this title, as the case may be.''

    (2) There are schools that do not charge tuition for their student 
veterans. Some states offer a tuition waiver to their veterans as part 
of their State Military Benefits. Because a large part of the Post-9/11 
GI Bill pays tuition and eligible fees, if you do not have tuition 
charges, then all you get out of your GI Bill is the housing allowance 
and book stipend.
    If your tuition-free school happens to be in a low cost-of-living 
area, you may actually make more or at least the same by using the 
Montgomery GI Bill (MGIB). If you had at least three years of service 
and go to school full-time taking 12 credits, you would earn $1,426 per 
month.
    Taking that same credit load under the Post-9/11 GI Bill, you would 
get the book stipend that breaks down to $125.01 per month and your 
housing allowance. With the housing allowance averaging $1,200 across 
the United States, there are many places choosing the MGIB would be 
more beneficial to the veteran. The American Legion wants to ensure 
student-veterans have access to all of the resources available to them.
Sec. 1102: Reserve Education Assistance Program Continuing Eligibility 
        and Sunset
    The American Legion supports this section, but Congress should 
ensure that any inconsistencies between Chapter 1607 (REAP) and Chapter 
33 (Post-9/11) are identified and rectified prior to the merger of the 
two programs to prevent any confusion by all stakeholders impacted by 
this merger, especially, the users of the program.
Sec. 1103: Tuition Assistance
    The American Legion does not support this section. Tuition 
Assistance (TA) currently may be used by servicemembers to take courses 
in any area of study. MCRMC recommends restricting TA to professional 
development courses only, under the rationalization that other areas of 
study can now be pursued via the Post-9/11 GI Bill. However, The 
American Legion sees the Post-9/11 GI Bill primarily as a transition 
tool. DOD should not be encouraging servicemembers to use this valuable 
transition benefit during service just to cut costs.
Sec. 1104: Post-9/11 GI Bill Transferability
    The American Legion supports extending the time commitment required 
to obtain the transferability benefit. Again, we see the Post-9/11 GI 
Bill primarily as a transition tool, but are cognizant of its use as a 
retention tool. It is well known that the ten year mark is an important 
decision point in a military career, the halfway mark so to speak. Too 
many are now dropping out at this point and if transferability would be 
more advantageous as a retention tool at the ten year mark rather than 
the six year mark, we see the reason in that.
Sec. 1105: Sense of Congress Regarding Transferability of Unused 
        Education Benefits to Family Members
    We support this section.
Sec. 1106: Report on Education Attainment
    We support this section.
Sec. 1107: Report on Education Levels of Servicemembers at Separation
    There appears to be an error in this legislative proposal language. 
Section 1106 already proposes obtaining information on the highest 
level of education obtained by individuals transferring an education 
benefit. On our reading, Section 1107 should be proposing obtaining 
information at separation on the highest level of education attained by 
a servicemember prior to separation regardless of whether they 
transferred the education benefit. In other words, all servicemembers, 
not just those who transferred. MCRMC Report page 171 says in relevant 
part:

    <bullet> Require report on educational attainment of Servicemembers 
who transfer their education benefit: 38 U.S.C. Sec. 3325 should be 
amended to require reporting of information of the highest level of 
education obtained by individuals transferring their Post-9/11 GI Bill 
benefits.
    <bullet> Require report on education levels of Servicemembers at 
separation: 10 U.S.C. Sec. 1142 should be amended to require that 
information be obtained at time of separation, on the highest level of 
education attained by a Servicemember prior to separating from military 
service, and that the education levels of separating Servicemembers be 
reported annually to the Congress.

    The second report requirement says nothing about transferability. 
The American Legion would support a revised Section 1107 which 
corrected this.
Sec. 1108: Termination of BAH Payments for Dependents Using Transferred 
        Education Benefits
    The American Legion supports terminating BAH payments for child 
dependents, but has concerns about denying the benefit to spouses, 
especially those who are caregivers to severely disabled veterans. 
Serious consideration should be given to whether the different life 
circumstances of spouses warrants retention of the BAH benefit for 
them.
Sec. 1109: Unemployment Insurance
    In general, The American Legion supports the idea of prohibiting 
individuals from receiving Post-9/11 GI Bill benefits simultaneously 
with unemployment benefits. However, The American Legion does not 
support having this section applied to all individuals with a board 
brush. This section should apply only to individuals who are eligible 
for full Post-9/11 GI Bill benefits. Many National Guard (NG) and 
Reservists however do not have the full benefit and get only a partial 
BAH allowance. You may have NG or reservists who were unemployed at 
activation, their jobs may have been eliminated, or may have been 
denied reemployment. The recommendation in its current form would 
penalize those individuals who through no fault of their own need 
access to UCX while using their Post-9/11 GI Bill benefits. 
Furthermore, because only their activated deployment time ``counts'' 
toward accruing GI Bill benefits under the Post-9/11 GI Bill, many NG 
and reservists do not merit the full 100% of GI Bill benefits and in 
addition to their more difficult employment situation also face a 
greater financial burden when pursuing their GI Bill education. The 
American Legion recommends an exception for NG and Reservists in this 
recommendation.
Sec. 1110: Reporting on Student Progress
    This recommendation is already being conducted pursuant to Pub. L. 
112--249, the Improving Transparency of Education Opportunities for 
Veterans Act of 2012, and Executive Order 13677, Establishing 
Principles of Excellence for Education Institutions Serving 
Servicemembers, Veterans, Spouses, and Other Family Members. The 
American Legion believes another reporting requirement to be conducted 
by the Departments of Defense and VA would only hamper ongoing 
collection of data, and harm current gains in the collection of the 
information stated above.
Sec. 1201-1204: Recommendation 12
    The American Legion believes that these recommendations are good, 
common sense ideas, and would further the goal of ensuring that 
servicemembers are able to transition smoothly and successfully into 
civilian lives and careers, and that veterans are well cared for should 
they require employment assistance. We would, however, recommend that 
Congress consider adding the Department of Education (DOE) and the 
Small Business Administration (SBA) to those who review the TAP 
curriculum, given that they contribute important content to the 
curriculum, and they maintain expertise in those areas covered by that 
content.
    Furthermore, while The American Legion wholly agrees with the 
recommendation that Congress amend the relevant statutes to permit 
state departments of labor to work directly with state veterans 
affairs, we would add that those departments should work together to 
meet or exceed the federally mandated priority of service for eligible 
veterans. This would entail ensuring that current practices incentivize 
DVOPs and LVERs to increase the level of service they provide, rather 
than getting bogged down in processes or manipulating numbers.
    Concurrent with MCRMC recommendations, we find that the model 
employed by Texas--consolidating veterans' employment services within a 
state veterans' commission--is effective in addressing the needs of 
veterans. Texas currently enjoys the lowest unemployment rate for 
veterans of any state in the union. We feel that this is demonstrative 
of what is possible when there is a single point of entry for veterans' 
benefits and services administered by a state agency, and we encourage 
Congress to examine that model and consider touting it as an example to 
other states that are looking to effectively serve their veteran 
population.
    Recently Wisconsin petitioned DOL-VETS for the permission to follow 
Texas in consolidation services and taking a holistic approach to 
providing services for veterans. DOL-VETS denied Wisconsin's request 
two years after the request was submitted citing a May 2010 DOL OIG 
report that looked at the Texas Veterans Commission's (TVC) performance 
in 2008 when veterans employment programs was just undergoing 
consolidation. However, these six months in 2008 were not indicative of 
TVC's record overall. Performance of TVCs employment programs and 
services have been on an upward trajectory since 2008.
    A more recent study was completed by DOL's Chief Evaluation Office 
dated January 30, 2015. The study ``Veterans and Non-Veterans Job 
Seekers: Exploratory analysis of services and outcomes for customers of 
federally-funded employment services.'' The data used in the study 
encompassed nine months from January 2011-March 2013, prior to the JVSG 
reconstruction.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Labor Training and Employment Guidance 
Letter (TEGL) 19-13, April 10, 2014.
---------------------------------------------------------------------------
    The report cites Texas's veterans are entering employment at much 
higher rates than the national average (62%). However, non-veterans 
entered employment rates are similar to the national average. Texas 
veterans also retained employment at higher rates than the national 
average (81%).
    TVC holds them self to a higher standard in ensuring that veterans 
are triaged by trained professionals (not a receptionist, survey or 
online tool) for employment services. Further, before the JVSG 
reconstruction. TVC provided their own resources to ensure that all 
veterans were assigned a veteran caseworker.
    The American Legion believes that a holistic approach to providing 
services to veterans is worthy of replicating at the state level; 
States should have the ability to run the JVSG program through an 
agency the Governor believes will best support the veteran. Further, we 
believe that a veteran has earned the right to be seen by a veteran, 
regardless of whether it is an issue involving claims, education, 
health care or employment. If a veteran walks into an American Jobs 
Center and wants to speak to a DVOP, then he or she should be allowed 
to do that.
                            discussion draft
    To amend title 38, United States Code, to modify the treatment 
under contracting goals and preferences of the Department of Veterans 
affairs for small businesses owned by veterans, to carry out a pilot 
program on the treatment of certain applications for dependency and 
indemnity compensation as fully developed claims for other purposes.
Sec. 101: Modification of treatment under contracting goals and 
        preferences of Department of Veterans Affairs for small 
        businesses owned by veterans of small businesses after death of 
        disabled veteran owners
    The American Legion supports Section 101.
Sec. 102: Treatment of businesses after deaths of servicemember-owners 
        for purposes of Department of Veterans Affairs contracting 
        goals and preferences
    The American Legion supports Section 102.
Sec. 201: Medical Examination and opinion for disability compensation 
        claims based on military sexual trauma
    Section 201 calls for VA to provide a report regarding the number 
of examinations and opinions provided VA medical providers pertaining 
to military sexual trauma (MST). Quite simply, MST can cause long-
lasting, devastating effects upon victims of sexual assault. Questions 
pertaining to the frequency of MST exist within Department of Defense; 
however, The American Legion asserts a frequency of one is one too 
many.
    The American Legion believes there is a need for an examination of 
``the underreporting of MST and to permanently maintain records of 
reported MST allegations, thereby expanding victims' access to 
documented evidence which is necessary for future VA claims.'' \9\
---------------------------------------------------------------------------
    \9\ Resolution No. 67 ``Military Sexual Trauma''
---------------------------------------------------------------------------
    The American Legion supports section 201.
Sec. 202: Report on Standard of Proof for Service-Connection of Mental 
        Health Conditions Related to Military Sexual Trauma
    For many veterans suffering with medical conditions associated with 
military sexual trauma (MST), the unfortunate reality is that no 
documentation exists regarding the incident. Fear and embarrassment are 
just some of the myriad reasons why servicemembers do not report the 
incident either to their chain of command or local law enforcement.
    Due to this fact, little if any documentation exists within the 
veteran's service treatment records. Upon discharge the veteran is left 
with little proof of the incident. VA has relaxed regulations 
pertaining to MST; however, the implementation and usage of the relaxed 
regulations is varied based upon VA regional office.
    The American Legion supports a full understanding of how MST claims 
are adjudicated and urges ``VA to conduct an analysis of MST claims 
volume, assess the consistency of how these claims are adjudicated, and 
determine the need, if any, for additional training and testing on 
processing of these claims.'' \10\
---------------------------------------------------------------------------
    \10\ Resolution No. 67 ``Military Sexual Trauma''
---------------------------------------------------------------------------
    The American Legion supports section 202.
Sec. 203: Reports on claims for disabilities incurred or aggravated by 
        military sexual trauma
    The long-term effects of MST can be devastating. Beyond any 
physical conditions that may manifest due to MST, the psychological 
effects can continue through the veteran's life. VA's PILOTS database 
provides numerous studies indicating the relationship between Post 
Traumatic Stress Disorder (PTSD) and physical conditions.
    Stating MST may cause PTSD or other mental health conditions is an 
oversimplification of the issue. Studies have related PTSD to many 
physical medical conditions, to include cardio-vascular conditions. The 
American Legion supports identifying conditions associated with MST to 
ensure veterans receive the benefits they have earned.\11\
---------------------------------------------------------------------------
    \11\ Ibid
---------------------------------------------------------------------------
    The American Legion supports section 203.
Sec. 204: Pilot program on treatment of certain applications for 
        dependency and indemnity compensation as fully developed claims
    The American Legion has invested significant time and funding to 
ensure that VA's Fully Developed Claims (FDC) program is successful. As 
the Nation's largest VSO, we recognized that to ensure veterans receive 
benefits in a more expeditious manner; we would inherit some of the 
responsibilities previously held by VA to further assist the veteran. 
We had a team of subject matter experts travel the Nation, speak with 
VA regional office employees, veterans, and service officers to ensure 
that FDC was viable. We are proud to report that over 40 percent of our 
claims are submitted via FDC.
    We welcome the idea of having benefits reach veterans in a more 
expeditious and accurate manner. Additionally, as we assist VA with the 
implementation of FDC, we offer our services to assist in implementing 
FDC for DIC claimants. The American Legion calls for VA to create an 
efficient method to adjudicate claims; having FDC available for DIC 
claimants would move toward meeting that objective.\12\
---------------------------------------------------------------------------
    \12\ Resolution No. 28: Department of Veterans Affairs Appeals 
Process
---------------------------------------------------------------------------
    The American Legion supports section 204.
Sec. 205: Review of determination of certain service in Philippines 
        during World War II
    The American Legion has no position on section 205.
Sec. 206: Reports on Department Disability medical examinations and 
        prevention of unnecessary medical examinations
    Many veterans will submit private medical evidence to support their 
claims for disability benefits. For veterans that require additional 
medical review or do not provide a statement from a medical 
professional linking a medical condition to military service, VA 
provides compensation and pension (C&P) examinations to determine the 
linkage or severity of medical conditions.
    The American Legion has conducted Regional Office Action Review 
(ROAR) visits for approximately 20 years. Through these visits The 
American Legion determined and reported to Congress that VA has had 
instances of scheduling unnecessary and duplicative examinations 
despite the necessary evidence existing to grant the benefit. This adds 
further complication to an already complicated process.
    The American Legion understands that there are occasions where a 
veteran would need a second examination after submitting a medical 
nexus statement. If a private medical provider did not use a VA 
disability medical questionnaire, then it stands to reason that the 
provider may not have conducted the necessary tests to accurately rate 
the veteran.
    Unfortunately, these instances did not get noticed solely during 
ROAR visits. They are noticed far too frequently by American Legion 
representatives at the Board of Veterans' Appeals. There have been 
occasions where veterans have been seeking total disability based on 
individual unemployability (TDIU) benefits. Meanwhile, the veteran had 
previously been granted Social Security disability benefits for a 
condition incurred in service and service-connected by VA. Despite 
enduring medical examinations for Social Security purposes and having 
the benefit granted by the agency, VA would conduct their own 
examinations to determine the veteran's employability. Some in the 
veteran community refer to this needless development of disability 
claims as ``developing to deny.''
    Through the reporting required by this section, VA would be 
compelled to release data regarding acceptable clinical evidence and 
increase transparency regarding the manner claims are developed and 
ultimately adjudicated. Having Congressional and VA focus upon the 
manner that private medical evidence is treated, The American Legion 
believes that the treatment of the evidence received from private 
medical providers would receive higher consideration. Moreover, this 
could expedite the adjudication process and increase the overall 
transparency of the claims process.\13\
---------------------------------------------------------------------------
    \13\ Resolution No. 128: Increase the Transparency of the Veterans 
benefits Administration's Claims Processing
---------------------------------------------------------------------------
    The American Legion supports section 206.
Sec. 301: Department of Veterans Affairs study on matters relating to 
        burial of unclaimed remains of veterans in national cemeteries
    This section aims to help dignify veterans who have passed away but 
whose remains are still unclaimed. Up until now, the sole means for 
dignified burial for these forgotten heroes has been private groups, 
such as the Missing in America Project (MIAP), a non-profit 
organization launched nationwide in 2007 that has been supported by The 
American Legion in their efforts to bring honor to all of America's 
fallen. This provision would enable VA support of this mission, 
directing VA to: Conduct a study on matters relating to the interring 
of unclaimed remains of veterans in national cemeteries under the 
control of the National Cemetery Administration by estimating the 
number of unclaimed remains; assessing the effectiveness of procedures 
of the VA for working with persons or entities having custody of 
unclaimed remains to facilitate interment of unclaimed remains of 
veterans in national cemeteries; assessing state and local laws that 
affect the ability of VA to indentify, claim and inter these remains; 
recommend appropriate legislative action. All of America's veterans 
deserve to be remembered for eternity with dignity and honor.\14\
---------------------------------------------------------------------------
    \14\ Resolution No. 24: Identify, Honor, and Inter Unclaimed 
Cremated Remains of Veterans
---------------------------------------------------------------------------
    The American Legion supports section 301.
Sec. 401: Honoring as veterans certain persons who performed service in 
        the reserve components of the Armed Forces
    This legislation would provide a purely honorific title of veteran 
for those individuals who completed appropriate service in the National 
Guard and Reserve components of the Armed Forces, but for whatever 
reason do not have active duty service sufficient to bestow a title of 
veteran subject to the conditions provided for under the normal titles 
of the United States Code which assign veteran status for the purposes 
of benefits. This bill would not provide any benefit beyond the title 
of `veteran' and is stated to be intended purely as a point of 
honor.\15\
---------------------------------------------------------------------------
    \15\ Resolution No. 10: Support Veteran Status for National Guard 
and Reserve Servicemembers
---------------------------------------------------------------------------
    The American Legion supports section 401.
                               conclusion
    As always, The American Legion thanks this Committee for the 
opportunity to explain the position of the 2.3 million veteran members 
of this organization. Questions concerning this testimony can be 
directed to The American Legion Legislative Division (202) 861-2700, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3146565e5d55424554585f715d5456585e5f1f5e43561f">[email&#160;protected]</a>
      
     

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
